<html>
<title> - MODERNIZING ENERGY AND ELECTRICITY DELIVERY SYSTEMS: CHALLENGES AND OPPORTUNITIES TO PROMOTE INFRASTRUCTURE IMPROVEMENT AND EXPANSION</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





  MODERNIZING ENERGY AND ELECTRICITY DELIVERY SYSTEMS: CHALLENGES AND 
   OPPORTUNITIES TO PROMOTE INFRASTRUCTURE IMPROVEMENT AND EXPANSION

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 15, 2017

                               __________

                            Serial No. 115-7



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




      Printed for the use of the Committee on Energy and Commerce
                        energycommerce.house.gov

                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-035 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          






















                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman

JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
TIM MURPHY, Pennsylvania             ELIOT L. ENGEL, New York
MICHAEL C. BURGESS, Texas            GENE GREEN, Texas
MARSHA BLACKBURN, Tennessee          DIANA DeGETTE, Colorado
STEVE SCALISE, Louisiana             MICHAEL F. DOYLE, Pennsylvania
ROBERT E. LATTA, Ohio                JANICE D. SCHAKOWSKY, Illinois
CATHY McMORRIS RODGERS, Washington   G.K. BUTTERFIELD, North Carolina
GREGG HARPER, Mississippi            DORIS O. MATSUI, California
LEONARD LANCE, New Jersey            KATHY CASTOR, Florida
BRETT GUTHRIE, Kentucky              JOHN P. SARBANES, Maryland
PETE OLSON, Texas                    JERRY McNERNEY, California
DAVID B. McKINLEY, West Virginia     PETER WELCH, Vermont
ADAM KINZINGER, Illinois             BEN RAY LUJAN, New Mexico
H. MORGAN GRIFFITH, Virginia         PAUL TONKO, New York
GUS M. BILIRAKIS, Florida            YVETTE D. CLARKE, New York
BILL JOHNSON, Ohio                   DAVID LOEBSACK, Iowa
BILLY LONG, Missouri                 KURT SCHRADER, Oregon
LARRY BUCSHON, Indiana               JOSEPH P. KENNEDY, III, 
BILL FLORES, Texas                   Massachusetts
SUSAN W. BROOKS, Indiana             TONY CARDENAS, California
MARKWAYNE MULLIN, Oklahoma           RAUL RUIZ, California
RICHARD HUDSON, North Carolina       SCOTT H. PETERS, California
CHRIS COLLINS, New York              DEBBIE DINGELL, Michigan7
KEVIN CRAMER, North Dakota
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia

                         Subcommittee on Energy

                          FRED UPTON, Michigan
                                 Chairman
PETE OLSON, Texas                    BOBBY L. RUSH, Illinois
  Vice Chairman                        Ranking Member
JOE BARTON, Texas                    JERRY McNERNEY, California
JOHN SHIMKUS, Illinois               SCOTT H. PETERS, California
TIM MURPHY, Pennsylvania             GENE GREEN, Texas
ROBERT E. LATTA, Ohio                MICHAEL F. DOYLE, Pennsylvania
GREGG HARPER, Mississippi            KATHY CASTOR, Florida
DAVID B. McKINLEY, West Virginia     JOHN P. SARBANES, Maryland
ADAM KINZINGER, Illinois             PETER WELCH, Vermont
H. MORGAN GRIFFITH, Virginia         PAUL TONKO, New York
BILL JOHNSON, Ohio                   DAVID LOEBSACK, Iowa
BILLY LONG, Missouri                 KURT SCHRADER, Oregon
LARRY BUCSHON, Indiana               JOSEPH P. KENNEDY, III, 
BILL FLORES, Texas                       Massachusetts
MARKWAYNE MULLIN, Oklahoma           G.K. BUTTERFIELD, North Carolina
RICHARD HUDSON, North Carolina       FRANK PALLONE, Jr., New Jersey (ex 
KEVIN CRAMER, North Dakota               officio)
TIM WALBERG, Michigan
GREG WALDEN, Oregon (ex officio)

                                  (ii)
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     2
    Prepared statement...........................................     3
Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Illinois, opening statement.................................     4
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     6
    Prepared statement...........................................     7
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     8
    Prepared statement...........................................    10

                               Witnesses

Michael W. Howard, Ph.D., President and Chief Executive Officer, 
  Electric Power Research Institute..............................    12
    Prepared statement...........................................    14
    Answers to submitted questions...............................   228
Ganesh Bell, Chief Digital Officer, GE Power and GE Digital......    35
    Prepared statement...........................................    37
Lonnie R. Stephenson, President, International Brotherhood of 
  Electrical Workers.............................................    44
    Prepared statement...........................................    45
Steven G. Hauser, Chief Executive Officer, GridWise Alliance.....    49
    Prepared statement...........................................    51
    Answers to submitted questions...............................   230
Chad Harrison, Councilman At-Large, Standing Rock Sioux Tribe....    98
    Prepared statement...........................................   101
Kim Kann, Lancaster County, Pennsylvania, Land Owner.............   111
    Prepared statement...........................................   114
Rex Ferry, President and Owner, VEC, Inc., on Behalf of the 
  National Electric Contractors Association......................   118
    Prepared statement...........................................   120
Terry O'Sullivan, General President, Laborers' International 
  Union of North America.........................................   129
    Prepared statement...........................................   131
    Answers to submitted questions...............................   233
Joey Mahmoud, Vice President, Energy Transfer Partners, and 
  Project Executive, Dakota Access Pipeline......................   135
    Prepared statement...........................................   138

                           Submitted Material

Environmental Assessment, Dakota Access Pipeline Project: 
  Crossings of Flowing Easements and Federal Lands, Army Corps of 
  Engineers, Omaha District, July 2016,\1\ submitted by Mr. 
  Cramer
Memorandum Opinion of United States District Judge James E. 
  Boasberg, September 9, 2016, for Civil Action No. 16 091534 
  (JEB), Standing Rock Sioux Tribe, et al., v. U.S. Army Corps of 
  Engineers, et al.,\2\ submitted by Mr. Cramer

----------
\1\ The information has been retained in committee files and also is 
available at  http://docs.house.gov/meetings/IF/IF03/20170215/105567/
HHRG-115-IF03-20170215-SD007.pdf.
\2\ The information has been retained in committee files and also is 
available at  http://docs.house.gov/meetings/IF/IF03/20170215/105567/
HHRG-115-IF03-20170215-SD008.pdf.
Memorandum for Record, January 6, 2017, by Colonel John W. 
  Henderson, Omaha District Commander, Army Corps of Engineers, 
  submitted by Mr. Cramer........................................   182
Order No. 16 095259 of the United States Court of Appeals for the 
  District of Columbia Circuit, September Term, 2016, submitted 
  by Mr. Cramer..................................................   192
Letter of February 7, 2017, from Paul D. Cramer, Deputy Assistant 
  Secretary of the Army, to Hon. Rob Bishop, Chairman, House 
  Committee on Natural Resources, submitted by Hon. Kevin Cramer.   194
Letter of February 13, 2017, from Michael Skelly, Clean Line 
  Energy Partners, to Mr. Upton, submitted by Mr. Olson..........   198
Statement of the Industrial Energy Consumers of America by Paul 
  N. Cicio, President, February 15, 2017, submitted by Mr. Olson.   205
Letter of February 15, 2017, from Jim Matheson, Chief Executive 
  Officer, NRECA, to Mr. Upton and Mr. Rush, submitted by Mr. 
  Olson..........................................................   208
Letter of February 15, 2017, from Andrew Black, President and 
  Chief Executive Officer, Association of Oil Pipe Lines, to Mr. 
  Upton and Mr. Rush, submitted by Mr. Olson.....................   210
Letter of February 15, 2017, from Marc H. Morial, President and 
  Chief Executive Officer, National Urban League, to Mr. Upton 
  and Mr. Rush, submitted by Mr. Olson...........................   214
Draft Environmental Assessment, Dakota Access Pipeline Project: 
  Crossings of Flowing Easements and Federal Lands, Dakota 
  Access, LLC, November 2015,\3\ submitted by Mr. Rush
Map, Dakota Access Pipeline Project, Dakota Access, LLC, 
  submitted by Mr. Rush..........................................   227

----------
\3\ The information has been retained in committee files and also is 
available at  http://docs.house.gov/meetings/IF/IF03/20170215/105567/
HHRG-115-IF03-20170215-SD036.pdf.

 
  MODERNIZING ENERGY AND ELECTRICITY DELIVERY SYSTEMS: CHALLENGES AND 
   OPPORTUNITIES TO PROMOTE INFRASTRUCTURE IMPROVEMENT AND EXPANSION

                              ----------                              


                      WEDNESDAY, FEBRUARY 15, 2017

                  House of Representatives,
                            Subcommittee on Energy,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:03 a.m., in 
room 2123, Rayburn House Office Building, Hon. Fred Upton 
(chairman of the subcommittee) presiding.
    Members present: Representatives Upton, Olson, Barton, 
Shimkus, Murphy, Latta, McKinley, Kinzinger, Griffith, Johnson, 
Long, Bucshon, Flores, Mullin, Hudson, Cramer, Walberg, Walden 
(ex officio), Rush, McNerney, Peters, Green, Doyle, Castor, 
Sarbanes, Welch, Tonko, Loebsack, Schrader, Kennedy, 
Butterfield, Ruiz, and Pallone (ex officio).
    Staff present: Will Batson, Legislative Clerk, Energy and 
Power; Ray Baum, Staff Director; Mike Bloomquist, Deputy Staff 
Director; Karen Christian, General Counsel; Wyatt Ellertson, 
Research Associate; Blair Ellis, Press Secretary/Digital 
Coordinator; Adam Fromm, Director of Outreach and Coalitions; 
Giulia Giannangeli, Legislative Clerk, Digital Commerce and 
Consumer Protection/Environment; Tom Hassenboehler, Chief 
Counsel, Energy/Environment; Zach Hunter, Communications 
Director; Ann Johnston, Senior Policy Advisor, Energy/
Environment; Peter Kielty, Deputy General Counsel; Brandon 
Mooney, Senior Policy Advisor, Energy; Annelise Rickert, 
Counsel, Energy; Chris Sarley, Policy Coordinator, Environment; 
Dan Schneider, Press Secretary; Hamlin Wade, Special Advisor 
for External Affairs; Jeff Carroll, Minority Staff Director; 
Jean Fruci, Minority Policy Advisor, Energy and Environment; 
Rick Kessler, Minority Senior Advisor and Staff Director, 
Energy and Environment; John Marshall, Minority Policy 
Coordinator; Jessica Martinez, Minority Outreach and Member 
Services Coordinator; Alexander Ratner, Minority Policy 
Analyst; Tim Robinson, Minority Chief Counsel; Andrew Souvall, 
Minority Director of Communications, Member Services, and 
Outreach; Tuley Wright, Minority Energy and Environment Policy 
Advisor; and C.J. Young, Minority Press Secretary.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. All right. Good morning, everybody. Today's 
hearing entitled ``Modernizing Energy and Electricity Delivery 
Systems: Challenges and Opportunities to Promote Infrastructure 
Improvement and Expansion'' marks the beginning of the 
subcommittee's push this Congress to promote the modernization 
of our energy infrastructure.
    The hearing will examine the state of America's evolving 
infrastructure and barriers to innovation, modernization, job 
creation, and economic growth. America's energy infrastructure 
is vast, complex, and highly interconnected. When we say 
``energy infrastructure,'' we are talking about the expansive 
network of pipelines, storage facilities, power plants, 
electric lines, and distribution systems that crisscross the 
country millions of miles. These systems and the people that 
operate them move energy from the source to the consumer so 
that when we flip the switch, the lights in fact will go on.
    We are blessed to have the world's most highly developed 
energy infrastructure, but our systems are aging and we are 
confronting new challenges with the changing energy landscape.
    The huge increase in oil and gas production that we have 
seen in the last decade has been a boon to the economy, yes it 
has, but it has also revealed bottlenecks in capacity 
constraints in that pipeline system. These inefficiencies are 
harming consumers by discouraging new production and creating 
unnecessary price spikes in some parts of the country.
    So our power generation mix is changing, too, as relatively 
low-priced natural gas and environmental regulations have 
accelerated retirements of coal-fired power plants, which 
represent a significant amount of our baseload power.
    We have also seen the growing penetration of renewables, 
like wind and solar, and distributed energy, such as energy 
storage. And while Federal incentives have contributed to this 
trend, States have been very active in developing subsidies and 
mandates to incentivize renewables. Integrating these resources 
into the changing grid presents both challenges as well as 
opportunities.
    So our first panel of witnesses will focus on the need to 
modernize our electric grid and develop solutions to strengthen 
security, improve efficiency, and reduce costs. We will hear 
from industry experts and businesses on the leading edge of 
developing new technologies and data analytics to improve the 
performance of our Nation's electricity system. American 
consumers depend on reliable and competitively priced 
electricity for their everyday lives. And although new digital 
technologies have the potential to transform our Nation's 
electric power grid, challenges remain to ensure that the grid 
is operated in a way that is reliable, resilient, and secure.
    The second panel will focus on the need to modernize our 
transportation storage and distribution infrastructure, 
including pipelines. There is a new urgency to improve the 
siting and permitting process for pipelines. The domestic oil 
and gas boom and increased utilization of natural gas for power 
generation are driving new demand for pipeline infrastructure. 
So, we want to ensure that all relevant stakeholders, including 
Tribal Governments have a seat at the table and an opportunity 
to participate in a meaningful way. That is the purpose of 
today's hearing.
    We welcome our witnesses and their ideas to reform the 
current process to implement lessons learned from past 
experiences. I yield the balance of my time to the vice 
chairman of the subcommittee, Mr. Olson.
    [The statement of Mr. Upton follows:]

                 Prepared statement of Hon. Fred Upton

    Good morning. Today's hearing, entitled ``Modernizing 
Energy and Electricity Delivery Systems: Challenges and 
Opportunities to Promote Infrastructure Improvement and 
Expansion'' marks the beginning of the subcommittee's push this 
Congress to promote the modernization of our energy 
infrastructure. The hearing will examine the state of America's 
evolving infrastructure and barriers to innovation, 
modernization, job creation, and economic growth.
    America's energy infrastructure is vast, complex and highly 
interconnected. When we say ``energy infrastructure'' we're 
talking about the expansive network of pipelines, storage 
facilities, power plants, electric lines and distribution 
systems that crisscross the country. These systems, and the 
people that operate them, move energy from the source to the 
consumer, so that when we flip the switch, the lights turn on.
    We're blessed to have the world's most highly developed 
energy infrastructure, but our systems are aging and we're 
confronting new challenges with the changing energy landscape.
    The huge increase in oil and gas production that we've seen 
in the last decade has been a boon to the economy, but it has 
also revealed bottlenecks and capacity constraints in our 
pipeline system. These inefficiencies are harming consumers by 
discouraging new production and creating unnecessary price 
spikes in some parts of the country.
    Our power generation mix is changing too--as relatively low 
priced natural gas and environmental regulations have 
accelerated retirements of coal fired power plants, which 
represent a significant amount of our baseload power. We've 
also seen the growing penetration of renewables like wind and 
solar and distributed energy, such as energy storage. While 
Federal incentives have contributed to this trend, States have 
been active in developing subsidies and mandates to incentivize 
renewables. Integrating these resources into the changing grid 
presents both challenges and opportunities.
    Our first panel of witnesses will focus on the need to 
modernize our electric grid and develop solutions to strengthen 
security, improve efficiency, and reduce costs. We'll hear from 
industry experts and businesses on the leading edge of 
developing new technologies and data analytics to improve the 
performance of our Nation's electricity system. American 
consumers depend on reliable and competitively priced 
electricity for their everyday lives. Although new digital 
technologies have the potential to transform our Nation's 
electric power grid, challenges remain to ensure the grid is 
operated in a way that is reliable, resilient and secure.
    The second panel will focus on the need to modernize our 
transportation, storage and distribution infrastructure, 
including pipelines. There is a new urgency to improve the 
siting and permitting process for pipelines. The domestic oil 
and gas boom and increased utilization of natural gas for power 
generation are driving new demand for pipeline infrastructure.
    Like other major infrastructure projects, siting a pipeline 
involves multiple jurisdictions. Close communication and 
collaboration between Federal, State, local, and Tribal 
governments is critical.
    Unlike interstate natural gas pipelines, there is no 
comprehensive Federal siting and permitting process for 
interstate oil pipelines. State and local laws govern the 
approval of the route, other than the portions crossing Federal 
lands.
    While Federal agencies follow rigorous procedures to 
evaluate potential impacts to communities and the environment, 
more can be done to bring greater transparency, accountability, 
and predictability to the permitting process.
    Dynamic and integrated energy and electricity delivery 
systems allow reliable and competitively priced energy for 
American consumers. A modernized infrastructure is absolutely 
critical to our Nation's economic growth.
    This subcommittee will continue to conduct oversight over 
Federal laws that govern the siting and construction of energy 
infrastructure. We're going to be taking a close look at the 
Federal Power Act, the Natural Gas Act, and other laws that 
affect energy supply, delivery and use.
    We want to ensure that all relevant stakeholders, including 
Tribal governments, have a seat at the table and an opportunity 
to participate in a meaningful way. We welcome ideas from our 
witnesses to reform the current process or implement lessons 
learned from past experiences.

    Mr. Olson. Thank you, Mr. Chairman.
    Energy infrastructure is at the heart of the American 
economy. My own State of Texas has a vast network of pipelines 
moving products across the State to markets both home and 
abroad. We balance safety, community, and the environment. We 
do it in a very big way.
    One mile from house in Sugar Land, Texas at Veterans Park 
on the Brazos River there is a dog park, a hill where kids fly 
kites, an off-road bike trail, a covered family pavilion. I 
often see kids fishing at the lake in our park. There is a 
natural gas pipeline 35 yards from where those people are 
fishing. We have proven that nature can be preserved, while 
balancing growth.
    Texas is also a leader on advancing electronic markets. And 
since most of our State is on its own power market, we have a 
self-reliant and far-reaching electric grid. We are building 
that grid out, as we integrate wind power from the west to 
other emerging technologies. This committee has an opportunity 
to look forward on energy infrastructure. We need to not only 
make sure that this country can continue to build these 
networks but that we also make sure our energy is always 
advancing in terms of safety, reliability, and efficiency. We 
have to find proper balance, the sweet spot. We must find it. 
If we can find it in a park in Sugar Land, Texas, we can find 
it anywhere in America.
    I thank the chairman and yield back.
    Mr. Upton. Thank you.
    The Chair will now recognize the ranking member of the 
subcommittee, Mr. Rush from the good State of Illinois, for 5 
minutes for an opening statement.

 OPENING STATEMENT OF HON. BOBBY L. RUSH, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Rush. I want to thank you, Mr. Chairman, for holding 
this very important hearing today on the challenges and the 
opportunities associated with improving our Nation's energy 
infrastructure.
    Mr. Chairman, this is a timely hearing and it is my hope 
that we can follow up on the bipartisan agreement that was 
initiated last session as part of the comprehensive energy bill 
that ultimately passed the House but never did make it to the 
Conference Committee.
    As part of those discussions, Mr. Chairman, there are two 
provisions in particular that I hope we can bring to fruition 
this time around, specifically, the Pipeline Safety Replacement 
Program that would provide assistance to lower income 
communities that I have been promoting quite vigorously.
    Additionally, Mr. Chairman, I hope that we can come 
together and agree to invest in modernizing the Nation's aging 
electrical grid infrastructure that Ranking Member Pallone has 
been advocating vociferously and very vigorously.
    Mr. Chairman, it is important that as we embark on this 
path of upgrading our Nation's energy infrastructure that we do 
so in a way that is responsible, environmentally conscious, and 
takes into account the rights and the interests of the 
impacting communities that are going to be immediately and 
deeply affected.
    Even as we speak, Mr. Chairman, we are seeing the impact of 
shoddily built infrastructure in the national tragedy that is 
playing out in the State of California, where almost 200,000 
residents have been evacuated due to leaks in the emergency 
spillway in Oroville Dam. Certainly, Mr. Chairman, this 
episode, in its entirety, could have been avoided if builders, 
if regulators had taken heed to the warnings of environmental 
groups who had forewarned almost a decade ago of the risk of 
catastrophic flooding, but these individuals, these groups, 
these warnings were not heeded but ignored.
    Mr. Chairman, it is important to remember that while some 
may consider commonsense, safety, and environmental regulations 
to be overly burdensome or tedious, these protections may one 
day mean the difference in saving one's property, livelihood, 
or even life.
    Mr. Chairman, I would like to refer to regulations as 
nothing but safety measures. That is what they are, safety 
measures.
    Another aspect that is important to today's hearing will 
hopefully provide instructions in attempting to strike the 
right balance between modernizing and upgrading the Nation's 
energy infrastructure like we so desperately need, while also 
taking into account the rights of land owners, Native 
Americans, and other communities that might be adversely 
impacted by these types of projects.
    Mr. Chairman, nowhere in this struggle is the struggle more 
pronounced than in the battle over the Dakota Access Pipeline, 
and I am sure that we will hear more about this from our second 
panel of witnesses.
    Mr. Chairman, as policymakers, we all understand the needs 
for additional infrastructure to ensure the critical views and 
critical resources are transported to the places where they are 
needed in order to meet our Nation's energy demands. However, 
as representatives of the people, Mr. Chairman, we must also 
ensure that the rights, the interests of Native Americans, 
property owners, and less affluent communities are also 
protected, and protected very vigorously.
    Mr. Chairman, Congress should help provide thoughtful and 
responsible guidance for instituting a fair and balanced 
process for moving forward with large-scale energy projects 
that respect the rights of all communities and does not place 
expedience or maximum profit among the rights of land owners or 
the communities that these projects traverse.
    Mr. Chairman, I welcome today's witnesses and I look 
forward to a very rigorous debate on these very important and 
difficult issues. I yield back.
    Mr. Upton. I appreciate the gentleman's statement. I do 
look forward to working with you to get the job done with Mr. 
Pallone and both Republicans and Democrats as we move forward.
    It is time now for me to recognize the chairman of the full 
committee, the gentleman from Oregon, Mr. Walden, for 5 
minutes.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Thank you very much, Mr. Chairman. And as I 
said a couple of weeks ago to our first Energy Subcommittee 
chairman, we are all humbled by our responsibility of this 
committee and appreciate the power that we have to make policy 
changes that will have an enormous and positive impact on 
American consumers for decades to come.
    Today, we examine the challenges and opportunities to 
expand, improve, and modernize our energy infrastructure across 
the Nation. We will hear from builders, and laborers, and 
contractors, and energy producers, and concerned citizens. We 
will hear from Tribes and utilities at the forefront of these 
issues. Our infrastructure is undergoing rapid changes on both 
the electrical and the energy-producing side but there is one 
thing I think that unites both, and that is these changes can 
mean real jobs.
    On the first panel, we will hear from witnesses who will 
present a wide-ranging view of the technology developments in 
the electricity system. The U.S. electrical grid is one of the 
engineering marvels of modern history, but it is aging and it 
is under stress. The vast network that arose to deliver 
seamless uninterruptable power into our homes, schools and 
hospitals in a centralized and standardized fashion is being 
tested and challenged by the intersection of digital technology 
and innovation.
    As technology continues to change the way we go about our 
daily lives, we also have to rethink how we generate, deliver 
and consume electricity. This could provide opportunities for 
consumers both large and small to save money and be more 
competitive.
    The meeting I held in my district a couple of weeks ago in 
Prineville, Oregon, they were talking to an outfit that wanted 
to locate there and bring hundreds of jobs, do a major build-
out. Then they found out the electrical grid is not sufficient 
to support that. And when I pursued that with Bonneville Power 
Administration and others, they are telling me it could be 2 to 
3 years before they could get the capacity this community 
needs. This community during the downturn had the highest 
unemployment rate consistently in the State of Oregon. How the 
heck did we get to this point?
    When you finally think you have a chance to grow jobs, put 
people to work building things, you discover somehow the 
electrical grid is not up to snuff and that it could take a 
couple of years to get it there. That is not where we want to 
be.
    That is why we are here today, by the way. That is part of 
it, is we have got to do a better job of forecasting. We have 
to clear the roadblocks out of the way that aren't necessary, 
while still protecting the environment, while still providing 
appropriate ability for people to weigh in. You should always 
have the right to appeal your Government decisions, but it 
can't be an endless appeal that leads to situations that stop 
jobs and stop progress on making sure we have a safe and secure 
grid or that the pipelines continue to get the product where it 
is needed.
    On the second panel, we will hear from all sides that area 
affected by the country's record-setting liquid fuels 
production growth. This growth has brought about tremendous 
opportunities to make our Nation more energy independent, all 
the while creating thousands jobs.
    At the same time, concerned citizens have come forward with 
their worries about the potential environmental impacts from 
new projects. The Dakota Access Pipeline is currently at the 
forefront of those headlines, and we welcome before the 
committee our witnesses from both the Standing Rock Sioux Tribe 
and the Dakota Access Project developer, Energy Transfer 
Partners.
    We know that this issue means a great deal to both parties 
involved, and we are here to listen. The committee welcomes all 
sides of the debate, and we look forward to the testimony.
    But the Dakota Access Pipeline is not the only project that 
is currently being challenged across the country. The impacts 
and delays brought on by increasing amounts of uncertainty do 
nothing to open up a productive conversation about the true 
risks and benefits of these types of projects.
    We want to learn from the ongoing challenges presented to 
us today in order to bring more accountability, transparency, 
and predictability to the environmental permitting processes. 
The sooner our project developers and communities can talk 
about the risks and benefits within the community, the better. 
It is only by talking to each other, and not past each other, 
that we will be able to move beyond rhetoric and do what is 
right for our communities.
    As this committee implements its own energy policy agenda, 
the testimony we take today will inform us on how to best 
approach the future so that we can embrace innovation and new 
technology for consumers.
    We can be good stewards of our environment, and we will, 
while we also pursue policies to grow our economy. They are not 
mutually exclusive goals.
    We stand ready to listen. We are excited to work, and we 
thank you all for being here.
    [The statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    I said 2 weeks ago during our first Energy Subcommittee 
hearing that one of the humbling responsibilities for members 
of this committee is to fully appreciate the power we have to 
make policy changes that can have enormous and positive impact 
on American consumers for decades to come. And I reiterate that 
sentiment today as we begin our efforts to examine the 
challenges and opportunities to expand, improve, and modernize 
our energy infrastructure across the country. We will hear from 
builders, laborers, contractors, energy producers, concerned 
citizens, Tribes, and utilities at the forefront of these 
issues. Our infrastructure is undergoing rapid changes on both 
the electrical and energy producing side but there is one thing 
uniting them both. These changes mean jobs.
    On the first panel, we will hear from witnesses who will 
present a wide-ranging review of the technological developments 
in the electricity system. The U.S. electrical grid is one the 
engineering marvels of modern history. But it is aging and 
under stress. The vast network that arose to deliver seamless 
uninterruptable power into our homes, schools and hospitals in 
a centralized and standardized fashion is being tested and 
challenged by the intersection of digital technology and 
innovation. As technology continues to change the way we go 
about our daily lives, we also have to rethink how we generate, 
deliver and consume electricity. This could provide 
opportunities for consumers, both large and small to save money 
and be more competitive.
    However, these opportunities do not come without their own 
set of challenges. We must strike a delicate balance of 
maintaining the reliability and security of the grid and 
ensuring ample power generation, regardless of the fuel source. 
We must ensure that the grid works in ways that optimize and 
build upon integrating new technologies with existing grid 
infrastructure, and siting new infrastructure when needed. I 
look forward to hearing the testimony of some of the leading 
entrepreneurs and research minds in this space to help create 
the electricity system of the future. I especially welcome our 
witnesses from the labor and contractor community, who stand to 
benefit with thousands of new jobs putting people to work doing 
what they do best.
    On the second panel, we will hear from all sides that are 
affected by the country's record-setting liquid fuels 
production growth. This growth has brought about tremendous 
opportunities to make our Nation more energy independent all 
while creating thousands of jobs. At the same time, concerned 
citizens have come forward with their worries about the 
potential environmental impacts from new projects. The Dakota 
Access Pipeline is currently at the forefront of those 
headlines, and we welcome before the committee our witnesses 
from both the Standing Rock Sioux Tribe and the Dakota Access 
Project developer, Energy Transfer Partners. We know this issue 
means a great deal to both parties involved, and we are here to 
listen. The committee welcomes all sides of the debate and 
looks forward to your testimony.
    But the Dakota Access Pipeline isn't the only project that 
is currently being challenged across the country. The impacts 
and delays brought on by increasing amounts of uncertainty do 
nothing to open up a productive conversation about the true 
risks and benefits of these types of projects. We want to learn 
from the ongoing challenges presented to us today in order to 
bring more accountability, transparency, and predictability to 
the environmental permitting process. The sooner project 
developers and communities can talk about the risks and 
benefits within the community, the better. It's only by talking 
to each other that we will be able to move beyond rhetoric and 
do what's right for our communities.
    As the committee implements its own energy policy agenda, 
the testimony we take today will inform how we approach the 
future and how we best use innovation and technology to protect 
American consumers. We can be good stewards of our environment 
while also pursuing policies to grow our economy; they are not 
mutually exclusive goals. We stand ready to listen and are 
excited to get to work helping create new jobs to 
reinvigorating our energy and electricity delivery systems, 
ultimately bringing consumers affordable American energy that 
is safe, secure, and efficient.

    Mr. Walden. And I yield the balance of my time to the vice 
chair of the committee, Mr. Barton.
    Mr. Barton. Thank you, Mr. Chairman. We are looking forward 
to today's hearing.
    Whatever your energy needs are, America has it. I had the 
Ambassador for India in my office yesterday, and he wanted to 
talk about American energy going to India. If we have the 
energy, we have to be able to transport it. And in order to 
transport it, we have to be able to build transmission lines, 
pipelines, railroads, highways. That is what this hearing is 
about, is how do we build our infrastructure to transport our 
energy in a way that is economically sound and environmentally 
safe. And I am sure at the end of this hearing, we will have a 
better understanding of how to do that.
    With that, I appreciate the hearing and yield back.
    Mr. Upton. The gentleman yields back.
    The Chair recognizes the ranking member of the full 
committee, the gentleman from New Jersey, Mr. Pallone, for 5 
minutes for an opening statement.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Chairman.
    Democrats strongly support modernizing our energy 
infrastructure, much of which is either outdated, on the verge 
of disrepair, or inadequate to today's needs. In the last 
Congress, we agreed with the Republicans on this committee on 
the need to provide funding to bring our electricity grids into 
the 21st century and to facilitate the repair of old leaky gas 
pipelines that waste resources and pose significant safety and 
environmental threats. In fact, we had an agreement with the 
GOP committee leadership to provide a total of $3 billion for a 
Grid Modernization Grant Program and a Pipeline Repair Program 
modeled off the recommendations of the first installment of the 
Department of Energy's Quadrennial Energy Review.
    Unfortunately, the full House Republican leadership, 
probably in response to the far right wing of the Republican 
caucus, opposed that plan and that led to the collapse of our 
bipartisan efforts here in this committee. Nevertheless, I am 
willing to try again. Infrastructure modernization is too 
important to our economy, to the public, and to workers to 
become a partisan issue. And if we do it right, we can enhance 
the environmental performance of the energy sector and protect 
vital natural resources. We need new and revitalized 
infrastructure to deliver energy, industrial feedstocks, and 
information safely, reliably, and efficiently. And it is going 
to take a substantial investment to realize this goal. This 
can't just become the package of deregulatory measures, tax 
giveaways to corporations, and fake investments through 
private-public partnerships. We need new hardware, new 
software, and new thinking, work that can and should be done in 
America by American workers for the benefit of all the American 
people. Our Nation is filled with great minds and great 
technologies that can modernize our energy infrastructure to 
meet 21st century needs. We can make our infrastructure 
smarter, more flexible, and more resilient and we can 
significantly improve its safety and environmental performance.
    Now, most of us can agree that our country's energy 
infrastructure needs to be upgraded. Yet, the most important 
question today is not whether we invest in our infrastructure 
but what types of infrastructure we prioritize. And I still 
believe that we should be focusing on Federal funding to repair 
our aging gas pipeline distribution system and looking at ways 
to upgrade our electricity transmission and distribution 
networks to enhance reliability and efficiency, and to ensure 
sufficient power generation.
    Now, I am a big supporter of expanding renewable energy 
generation here in the United States but I understand that a 
massive transmission to cleaner energy sources won't take place 
overnight. As long as we continue to use fossil fuels, 
pipelines can be the safest, most environmentally benign and 
economically efficient ways to move these fuels. But pipelines 
are only a benefit if they are constructed, maintained and 
overseen properly and they must be sited correctly with due 
respect for the rights of Tribes, local Governments, and 
individual property owners, as well as the environment. They 
must be constructed to high standards that ensure safety and 
protection of the communities and resources along their 
pathways and Federal permitting agencies have a critical 
responsibility to ensure that these pipelines don't jeopardize 
the land, water, habitat and cultural resources that surround 
them.
    So many of the problems we see with big pipeline projects 
like Dakota Access revolve not around the project itself, but 
the process for routing and constructing the line. We won't 
solve these problems with streamlining. Instead, it will take 
discussion, understanding, respect, and flexibility and that 
takes time but it is time worth spending.
    With regard to the siting of natural gas pipelines, we need 
to not only modernize our infrastructure but also the law that 
Governs its construction. The Natural Gas Act allows for the 
taking of private land in the name of the public convenience 
and necessity. That power was an important one when we were 
building pipelines to bring critical fuel to power plants and 
heat to homes. But now it is time to examine whether that power 
should be available merely to bring higher profit margins to 
some operators.
    So, Mr. Chairman, these are important issues. This is a 
critical time to examine and plan for our future needs. Our 
past investments served us well for over a century. Now, 
however, we face new conditions and new challenges, including 
climate change. To retain our economic strength and robust job 
base, we need to get this right. Simply reinforcing old 
patterns of energy production, distribution, and use won't take 
us where we need to go.
    And I want to work together to build the infrastructure 
that will deliver broad-based public benefits will into the 
future I hope we will not squander this opportunity to move 
forward. The time is now. The need is great and we have the 
resources to get this done. We only need the will to do it.
    I yield back.
    [The statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    Mr. Chairman, Democrats strongly support modernizing our 
energy infrastructure, much of which is either outdated, on the 
verge of disrepair, or inadequate to today's needs.
    In the last Congress, we agreed on the need to provide 
funding to bring our electricity grids into the 21st Century 
and to facilitate the repair of old, leaky gas pipelines that 
waste resources and pose significant safety and environmental 
threats. In fact, we had an agreement to provide a total of $3 
billion for a grid modernization grant program and a pipeline 
repair program modeled off the recommendations of the first 
installment of the Department of Energy's Quadrennial Energy 
Review. Unfortunately, the House Republican Leadership, 
probably in response to the far right wing of the Republican 
caucus, opposed the plan. That led to the collapse of our 
bipartisan efforts.
    Nevertheless, I am willing to try again. Infrastructure 
modernization is too important to our economy, to the public 
and to workers to become a partisan issue. And, if we do it 
right we can enhance the environmental performance of the 
energy sector and protect vital natural resources.
    We need new and revitalized infrastructure to deliver 
energy, industrial feedstocks, and information safely, 
reliably, and efficiently. And it's going to take a substantial 
investment to realize this goal. This can't just become a 
package of deregulatory measures, tax giveaways to corporations 
and fake investments through ``private-public partnerships.'' 
We need new hardware, new software and new thinking -work that 
can and should be done in America by American workers for the 
benefit of all the American people. Our Nation is filled with 
great minds and great technologies that can modernize our 
energy infrastructure to meet 21st Century needs. We can make 
our infrastructure smarter, more flexible, and more resilient. 
And, we can significantly improve its safety and environmental 
performance.
    Most of us can agree that our country's energy 
infrastructure needs to be upgraded. Yet, the most important 
question today is not whether we invest in our infrastructure, 
but what types of infrastructure we prioritize. I firmly 
believe that we should be focusing on setting aside Federal 
funding to repair our aging gas pipeline distribution system 
and looking at ways to upgrade our electricity transmission and 
distribution networks to enhance reliability and efficiency and 
to ensure sufficient power generation, particularly from 
renewable energy sources.
    I am a big supporter of expanding renewable energy 
generation here in the U.S., but I understand that a massive 
transition to cleaner energy sources won't take place 
overnight. As long as we continue to use fossil fuels, 
pipelines can be the safest, most environmentally benign and 
economically efficient way to move these fuels. But pipelines 
are only a benefit if they are constructed, maintained and 
overseen properly. And they must be sited correctly, with due 
respect for the rights of Tribes, local Governments and 
individual property owners, as well as the environment. They 
must be constructed to high standards that ensure safety and 
protection of the communities and resources along their 
pathways. Federal permitting agencies have a critical 
responsibility to ensure that these pipelines don't jeopardize 
the land, water, habitat and cultural resources that surround 
them. So many of the problems we see with big pipeline projects 
like Dakota Access revolve not around the project itself, but 
the process for routing and constructing the line. We won't 
solve these problems with ``streamlining.'' Instead, it will 
take discussion, understanding, respect and flexibility. That 
takes time, but it is time worth spending.
    With regard to the siting of natural gas pipelines, we need 
to not only modernize our infrastructure, but also the law that 
Governs its construction. The Natural Gas Act allows for the 
taking of private land in the name of public convenience and 
necessity. That power was an important one when we were 
building pipelines to bring critical fuel to power plants and 
heat to homes. But now it is time to examine whether that power 
should be available merely to bring higher profit margins to 
some operators.
    These are important issues and this is a critical time to 
examine and plan for our future needs. Our past investments 
served us well for over a century. Now, however, we face new 
conditions and new challenges including climate change. To 
retain our economic strength and robust job base, we need to 
get this right. Simply reinforcing old patterns of energy 
production, distribution and use won't take us where we need to 
go.
    We want to work together to build the infrastructure that 
will deliver broad-based, public benefits well into the future. 
I hope we will not squander this opportunity to move forward. 
The time is now, the need is great, and we have the resources 
to get this done. We only need the will to do it.

    Mr. Upton. The gentleman yields back. The time for opening 
statements is concluded.
    We are very pleased to have our first panel with us this 
morning. We are joined by Mr. Michael Howard, President and CEO 
of Electric Power Research Institute; Mr. Ganesh Bell, Chief 
Digital Officer and General Manager for Software and Analytics 
for G.E.; Lonnie Stephenson, International President of the 
International Brotherhood of Electrical Workers; and Steve 
Hauser, CEO of GridWise Alliance.
    I appreciate very much you submitting your testimony well 
in advance. I was able to read it last night. Your statement is 
made part of the record, and we will give you 5 minutes to 
summarize your comments and move on from there to questions.
    Dr. Howard, you are recognized. Thank you and welcome.

  STATEMENTS OF MICHAEL W. HOWARD, PH.D., PRESIDENT AND CHIEF 
 EXECUTIVE OFFICER, ELECTRIC POWER RESEARCH INSTITUTE; GANESH 
 BELL, CHIEF DIGITAL OFFICER, GE POWER; LONNIE R. STEPHENSON, 
PRESIDENT, INTERNATIONAL BROTHERHOOD OF ELECTRICAL WORKERS; AND 
  STEVEN G. HAUSER, CHIEF EXECUTIVE OFFICER, GRIDWISE ALLIANCE

                 STATEMENT OF MICHAEL W. HOWARD

    Dr. Howard. Thank you. Good morning and thank you very 
much, Chairman Upton, Ranking Member Rush, and members of the 
subcommittee.
    I am Mike Howard, President and CEO of the Electric Power 
Research Institute. This is our 45th year as an independent 
nonprofit company whose mission is to advance safe, reliable, 
affordable, and clean energy for society through global 
collaboration, thought leadership, and science and technology 
innovation.
    Our annual research funding is over $400 million a year, 
principally from the electric utility companies in more than 30 
different countries. Our research focuses on the generation of 
electricity, the delivery of electricity, and the use of 
electricity, including energy efficiency.
    Over the past couple of years, we have examined the forces 
that are changing the world's energy systems. We have gained 
insights through discussions with our advisors, leaders in the 
industry, regulators, academicians, science and environmental 
organizations financing Government. We introduced our initial 
finding earlier this week at NARUC conference in a report 
titled, ``The Integrated Energy Network: Connecting Customers 
with Reliable, Affordable, and Cleaner Energy.'' This report is 
provided to you as my written testimony and serves as the basis 
for my comments.
    The Integrated Energy Network envisions a future in which 
customers have flexibility to use, reduce, and manage energy as 
they choose, while improving access to reliable, safe, 
affordable, and cleaner energy. I want to share with you five 
insights from the work and implications for infrastructure 
investment.
    First, electric, gas, transport, and water systems are 
increasingly interdependent, but their planning, operations, 
and regulation are largely separate. Closer integration could 
improve liability, gain efficiency, and maximize value of 
energy customers, as well provide greater independence and 
security. We emphasize that infrastructure investments will be 
more effective if broad energy and natural resource 
implications are considered, rather than focusing narrowly in a 
single energy sector.
    Second, advances in information and communication 
technology, sensors, data analytics modeling are key enablers 
for The Integrated Energy Network. These digital innovations 
enable greater customer engagement with their energy choices 
and control, while maintaining a focus on critical issues such 
as affordability, reliability, security, and data privacy.
    Third, an essential near-term step is the full 
implementation of what we call The Integrated Grid, an 
integrated electrical system which fully realizes the value of 
central and distributed energy resources. The Integrated Grid 
is the backbone of The Integrated Energy Network.
    Much progress has been made, but we need to redouble 
efforts to create technical and communication standards, deploy 
modern electric grid technologies, and providing supporting 
infrastructure and oversight to accelerate the adoption of 
emerging electrification technologies. These advanced 
electrification technologies, to name just a few, include 
electric vehicles, advanced heat pumps, and water heaters. 
These more efficient electrification technologies have the 
potential, the opportunity to improve productivity and 
efficiency while reducing emissions by using electricity where 
it is more efficient compared to other energy options.
    Fourth, investment in the electric grid is needed to 
maintain reliability. The emergence of shale gas and rapid 
deployment of large-scale solar and wind have fundamentally 
changed the electric generating fleet, stressing an aging grid 
infrastructure. Rapid deployment of solar and wind generation 
increases significantly the value of expanding regional and 
long distance electric grid systems to enable more effective 
utilization as these have every important generation assets.
    And finally, acknowledging advancements are essential to 
controlling costs and creating new possibilities in delivering 
and generating electricity, including next generation nuclear 
plants, advanced thermal fossil plants with carbon capture in 
storage. The generation fleet will need to be more 
operationally flexible to support a much greater end-to-end 
dynamic electrical system that puts the customer first.
    More detail on the required actions and challenges to 
provide are provided in my written testimony. I very much 
appreciate the opportunity to be here this morning and I look 
forward to your questions. Thank you.
    [The prepared statement of Dr. Howard follows:]
    
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
      
    Mr. Upton. Thank you very much.
    Mr. Bell, welcome.

                    STATEMENT OF GANESH BELL

    Mr. Bell. Thank you, Chairman Upton, Ranking Member Rush, 
and members of the committee.
    I am Ganesh Bell, Chief Digital Officer for GE Power. I 
have spent my entire career in software, and today I work at 
the intersection of the industrial world, especially energy and 
software. I am one of 28,000 employees in a newly formed 
business unit in GE called GE Digital that is helping our 125-
year-old company. Our customers become digital business, and 
the industries that we serve, especially energy, become a 
digital industry.
    This is a time of incredible innovation in business. Every 
industry, every aspect of our society is being reimagined 
through software. Low-cost sensors, ubiquitous connectivity, 
cloud computing, data science are presenting incredible 
opportunities to innovate a new industrial internet. The 
possibilities for the electricity industry is especially 
exciting. The 100-year-old model of electricity grid that our 
founder Edison helped proliferate is being tested, pushed, and 
challenged every day, as Dr. Howard testified in his fantastic 
Integrated Energy Network paper.
    Consumers are also becoming producers of electricity. The 
industry is in transformation. The future of the electricity 
infrastructure is not just the flow of electrons, but electrons 
and data in multiple directions across our electricity highway. 
While these are some of the challenges, these are also big 
business model opportunities for every power producer and every 
utility. There are already one billion devices connected across 
electricity today. There will be seven billion devices by 2020. 
Power plants, wind farms, grids, substations, energy management 
systems already produce terabytes and petabytes of data a day. 
Less than two percent of that data actually is analyzed. The 
unused or underutilized dark data pulls massive value and 
potential for the entire industry.
    Last year, we would say 2016 we believe was a tipping point 
of this digital transformation of the electricity industry. We 
help our customers and the power they release get more out of 
their existing assets and optimize their operations using 
digital technologies. Our customers can now monitor and 
diagnose every single asset across generations. It doesn't 
matter if it is gas, or nuclear, or renewables. They can 
monitor every asset across transmission distribution, even 
consumption of energy. So they can now forecast the yield from 
renewable energy, integrate them better into the grid. They can 
ramp up or ramp down fossil power plants, based on supply and 
demand. They can improve fuel efficiency, reduce grid losses, 
eliminate unplanned downtime, improve accuracy of the 
predictive maintenance, and even improve the safety of the 
workers across the entire system using digital technologies.
    And these ceilings are really, really meaningful. Leaders 
like Exelon, NRG, PSEG, and NYPA, New York Power Authority, are 
well on their way in their digital journey, and these savings 
add up to massive value for the industry. The World Economic 
Forum estimates that in the next 10 years, just by deploying 
digital technology, there is $1.3 trillion of value to be 
created. And the societal benefits are even higher, more than 
$2 trillion over the next 10 years and especially three million 
new jobs at the intersection of software and electricity.
    And there are other societal benefits as well, reduced 
emissions and also improving the reliability and affordability 
of electricity and access to every citizen on the planet.
    Lastly, digital will help us capture the skills of an aging 
workforce. More than 25 percent of the electricity workers are 
going to retire in the next 5 years. We can capture their 
expertise and knowledge for the next generation in software and 
also encourage a new generation of digitally savvy workforce to 
join the industry to solve some of the biggest problems that we 
have ahead.
    This is just the beginning. Just like Amazon, Apple, eBay, 
and Uber's software platforms change their industries, 
electricity and power producers now have the opportunity to 
transform all of generation, all of transmission, all of 
consumption into a new connected network that we call The 
Electricity Value Network, Dr. Howard calls The Integrated 
Energy Network, where it is really about the network and not a 
linear model anymore.
    The grid was the foundation of the 20th century economy. 
The internet is the foundation of our digital economy. This 
Electricity Network will be the foundational infrastructure for 
the democratization of modern cities, intelligent 
transportation, and healthier and connected communities. 
America has an opportunity to lead. The country that invented 
the grid and the internet, two of the biggest innovations and 
important networks which are now coming together, America has 
an opportunity to lead this future. We need to remove the 
obstacles. We need to modernize our existing infrastructure. We 
need to modernize operation technologies all the way from 
sensor to cloud, cybersecurity. We also need to prepare a whole 
new generation of digital workforce that are going to come in 
and transform this entire industry.
    I thank you for holding this important hearing and welcome 
your comments.
    [The prepared statement of Mr. Bell follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Mr. Upton. Thank you very much.
    Mr. Stephenson, welcome back. Nice to see you.

               STATEMENT OF LONNIE R. STEPHENSON

    Mr. Stephenson. Chairman Upton, Ranking Chairman Rush, and 
the members of the committee, thank you for inviting me here 
today.
    Often when people think of infrastructure, they think of 
roads, bridges, or airports, but perhaps even more important is 
our electrical infrastructure. The energy industry has changed 
in so many ways, but too much of our existing infrastructure is 
still stuck in the 20th century. The configuration of our 
current grid, which largely functions on a localized, Statewide 
basis just isn't appropriate to meet our current energy needs. 
We need a truly national grid and new transmission lines that 
can safely and reliably transfer power, including renewables 
like wind and solar, from energy-rich regions to those parts of 
the country where it is most needed. And that means we need new 
transmission projects that will cross multiple jurisdictions 
and State lines. Projects like the Plains and Eastern Clean 
Line. This is a $2.3 billion line that would deliver low-cost 
energy throughout the southeast. This is not only a huge boost 
for energy consumers, who can count on a cheaper and more 
reliable power supply, but for working families throughout the 
region. This project alone is estimated to create and support 
more than 2,500 construction and manufacturing jobs, and this 
only is one of the many planned transmission projects across 
the country that could mean hundreds of thousands of new jobs.
    But, despite Clean Line's importance and clear economic 
benefit, it has bumped up against regulatory snags that 
continue to hold up the final approval. Just like the 
interstate highway system, the modern transmission lines of the 
21st century can't stop at the State line. But it only takes 
only local commission or regulatory board to delay a project 
like Clean Line indefinitely. With all respect to all local 
authorities, we need a new approach to siting and permitting 
that trims the unnecessary red tape, streamlines the rules 
created by numerous regulatory authorities, and lets us start 
breaking ground on these projects sooner rather than later.
     We in the International Brotherhood of Electrical Workers 
are the best trained, most professional workforce in the 
electrical industry. Electrical infrastructure is our business. 
It is our outside construction members who build the high 
voltage lines and our utility members who maintain them. It was 
our members who built the first electrical grid and have kept 
it running safely and reliably for more than 100 years. And 
under our Code of Excellence Program, we are fully committed to 
working with our employers to provide on-the-job excellence 
every day. Our members are ready to get to work modernizing and 
expanding our grid and our apprenticeship and training 
programs, which are second to none, will guarantee a steady 
stream of skilled electrical workers necessary for the projects 
that are so important to this Nation's future.
    We ask for your leadership on making this a reality and 
remain a ready partner with both our employers and our elected 
officials from both sides of the aisle to get this job done.
    Thank you for the opportunity to testify before you here 
today.
    [The prepared statement of Mr. Stephenson follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Upton. Thank you.
    Mr. Hauser.

                 STATEMENT OF STEVEN G. HAUSER

    Mr. Hauser. Good morning, Chairman Upton, Ranking Member 
Rush, full committee Chairman Walden, Ranking Member Pallone, 
and distinguished members of this subcommittee. I am Steve 
Hauser, CEO of the GridWise Alliance. I appreciate the 
opportunity to testify at today's hearing on such an important 
topic and with such distinguished colleagues on this panel.
    In 2001, the Senate Energy and Natural Resources Committee 
asked me to testify before them on the opportunity to use 
emerging information and communications technologies to improve 
the efficiency and operation of the electricity grid. Then, 2 
years later, during one of the most significant blackouts in 
U.S. history, I founded the GridWise Alliance to educate public 
policymakers and advance the modernization of the electricity 
sector. At the same time, the newly formed Office of 
Electricity in the U.S. Department of Energy launched an R&D 
program to focus experts around the country on these same 
issues. And I might add that EPRI has worked in this area for 
just as long.
    GridWise Alliance members include both public and private 
utilities from many of your States, technology companies such 
as GE, transmission builders and operators from around the 
country, national labs, academic institutions and others.
    From the very beginning, our goal was to represent the 
broad interests of all stakeholders who have a role in building 
and operating the electricity grid, and we have advocated for 
policies that are clearly in the Nation's interest, rather than 
those of individual companies.
    We applaud the leadership that this subcommittee and full 
committee have demonstrated over the past decade and more with 
the ``Smart Grid'' Title XIII of the 2007 Energy
    Independence and Security Act being a major policy change 
that has served to motivate many significant changes throughout 
the industry in the years since.
    Today's hearing continues to demonstrate your desire to 
place a high priority on these issues and explore new policies 
that will continue to lead our Nation toward an effective, 
safe, and reliable electricity grid for the next several 
decades.
    The electric system is probably the most critical 
infrastructure and has been a major driver of our economic 
success for over a century. From the very beginning, Congress 
has recognized the need for effective national policies to 
drive the expansion and sophistication of the grid. Our digital 
economy, our national security, and all aspects of this sector 
and all other critical infrastructure sectors, and our daily 
lives depend on a reliable, safe, affordable, resilient, and 
secure electricity systems.
    For many decades, we promised our citizens access to 
electricity anywhere, anytime and, I might say, as much 
electricity as they want to use. We have realized the need to 
change this paradigm, being more efficient and smarter about 
the ways in we use electricity, resulting in a much more 
complex electric grid, actively managing loads, installing 
generation closer to loads, and integrating new sources of 
power.
    Over the past several years, the electricity industry has 
experienced fundamental changes on a scale not witnessed since 
the creation of the electricity system more than 100 years ago. 
Our Nation's grid must continue to be modernized and evolve to 
respond to these changes. The future grid needs, and will need, 
to manage not only for daily operations that our digital 
economy requires, but also for increasing security, resiliency, 
reliability, consumer choice, affordability, flexibility, and 
more.
    Fortunately, new technologies and capabilities have come 
along to help us address these changes. The challenge we face 
is that our infrastructure has not kept pace with these rapid 
changing needs and demands and technology opportunities. In 
addition, the business models and policies also need to be 
revamped to ensure the grid and grid operators remain viable.
    One key point I want to leave with you today is that, 
because the electric system is critical infrastructure, and 
because this infrastructure is in desperate need of being 
modernized, GridWise believes that any infrastructure package 
that you can consider must include the electricity system and, 
as part of this, must address grid modernization or ``Smart 
Grid.''
    Congress has an opportunity to demonstrate leadership with 
this regard. Grid modernization is an area that has garnered 
bipartisan support in the past and should continue to do so. 
Modernizing the grid will help create highly skilled jobs and 
stimulate economic growth. It also will help reduce costs, and 
increase reliability, resilience, and security in the near and 
long term.
    Nearly every State and most utilities are now considering 
the best way to modernize their electricity infrastructure. 
With some States and utilities leading the way, we recognize 
that each has its own priorities and constraints that result in 
unique policy approaches that fit its specific situation. What 
works in California and New York does not necessarily work well 
in Oregon and Michigan.
     Regardless of the specifics, however, the technologies and 
capabilities apply almost universally.
    And I respectfully refer you to the rest of my written 
testimony, which includes details and specific examples of 
changes that are happening across the industry, and we look 
forward, representing my companies and the broader 
stakeholders, to working with you to make these changes happen. 
I look forward to your questions. Thank you.
    [The prepared statement of Mr. Hauser follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
     
    Mr. Upton. Thank you. Thank you all.
    We will now recognize ourselves up here for 5 minutes each 
for questions.
    Dr. Howard, you mentioned that 25 percent of the workforce 
is going to be needed to be replaced within the next 5 years. 
Mr. Stephenson, I have seen your wonderful folks. I have seen 
the outcome of your apprenticeships. Are you going to be ready 
for that challenge?
    Mr. Stephenson. Yes, not only do we, within our 
construction branch, have about around 300 training centers 
across the United States alone, where we train our inside and 
outside construction branches, but also we work very closely 
with our utilities themselves, and we have started the National 
Utility Industry Training Fund, where we have got four 
locations, recognizing the number of our members that are going 
to be retiring out of the utility branch alone, that we need to 
have an avenue to help utilities bring in more people, hire 
more people and get them trained as well. So, we have been 
working with our employers very closely in that regard.
    Mr. Upton. So, Dr. Howard, in your report, you indicated 
that smart meters in the U.S. among residential sectors is 
pretty close to 50 percent in the U.S. I think they are a 
little bit better in Europe is what you noted.
    What is the trend line that we are on? What are some of the 
energy savings that we are able to see because of the advent or 
the roll out of smart meters in a good number of communities 
across the country?
    Dr. Howard. So the trend line that we are on is full 
deployment of smart meters. They are a very, very important 
tool to not only----
    Mr. Upton. They are all digital, right?
    Dr. Howard. Absolutely, that is right. And it is important 
because, from a customer's perspective, they can integrate and 
understand their use of electricity and other forms of energy 
as well, but from the utility's perspective, it gives them a 
much clearer picture of where issues are--for example, if there 
is an outage, and they can then restore it much faster because 
they have near perfect information and visualization of the 
electrical system.
    So, it is an extremely important technology and one that we 
have been doing work with for a long time and it is going to be 
full deployment here very soon.
    Mr. Upton. And as we see more and more homes going with 
solar displays on the roof or even wind turbines, are they able 
to measure the energy that is put back into the system as well?
    Dr. Howard. Absolutely. It is a two-way flow system now 
that is much more dynamic and the smart meters are able to look 
at it both ways. You have got to have that, absolutely.
    Mr. Upton. So, Mr. Bell, I want to hear a little bit. You 
asked that we do all we can to remove obstacles to, in essence, 
get out of the way. Particularly on the digital side, questions 
that I have, what have you done--what can we do more to prevent 
a cyberattack? I mean that is the fear that we all have, 
something that was in Ted Koppel's book, ``Lights Out,'' which 
I am sure that you have all looked at.
    What are additional things that we can do to help the 
industry help folks like you to make sure that that is a never-
ever occurrence?
    Mr. Bell. Great question. From a cybersecurity it is 
important to understand that while across every business people 
take information or IP security very, very importantly. They 
should also take it through measures, operational technology. 
So in industries and especially in electricity, we need to 
think about everything from sensors to cloud. That means we 
need to think about modernizing age-old controlled systems. We 
need to think about security firewalls for all.
    There is a misconception that connected systems are 
actually vulnerable. It is actually quite the opposite. All of 
our phones today are way more secure than any of our PCs are, 
because a phone was designed for a connected era. We believe a 
connected asset is a safer asset. So, we have to make sure that 
power producers, utilities start connecting every single asset, 
make sure that they are monitored. That means when it is 
connected, they have the latest and the greatest updates of 
patches running. So, we have to make sure that there are 
incentives for power at least to modernize all their software 
systems. And also, we need security standards that industries 
can come together, and not just around information technology, 
but also around physical technology.
    Mr. Upton. So, as you mentioned in your testimony that you 
worked with a number of different power utilities around the 
country, do you have a special chapter on cyber threats and 
different firewalls that they need to continue to update and 
install?
    Mr. Bell. Absolutely. Yes, so we offer a cyber assessment 
service for all of our customers. We also make industrial-
specific cybersecurity fire walls.
    And we are also working with partners because cyber is not 
just a single-vendor problem. It is an industry problem. We 
have the Industrial Internet Consortium. We are working with 
lots of partners. We are furthering technologies and standards 
across the industry, especially in the context of adopting 
Internet of Things or industrial internet.
    Mr. Upton. Are there any specifics that we can do 
legislatively to help you on your job to make sure that it is 
as foolproof as it can be?
    Mr. Bell. Yes, along with working with institutions like 
EPRI, driving Industrial Internet Consortium Standards and the 
adoption of IoT technology.
    So, specifically around Internet of Things or industrial 
internet in the context of energy, providing standards would be 
very helpful.
    Mr. Upton. Thank you. My time has expired.
    I recognize the gentleman from Illinois, Mr. Rush, for 5 
minutes for questions.
    Mr. Rush. I want to thank you, Mr. Chairman.
    My question is in relation to Mr. Bell. Mr. Bell, my office 
received a letter from the National Urban League which, in 
part, noted the importance of job training and workforce 
development programs as an essential component of any 
comprehensive infrastructure proposal. Specifically, the letter 
discussed the necessity of including technical training, career 
apprenticeships, internships, and job placement opportunities 
for African Americans and other minority communities as a way 
to ensure that all Americans are able to fully benefit in the 
tremendous opportunities that abound before us.
    As many of you are aware, myself and Representative Hudson 
co-sponsored a bill that would make training for women, 
minorities, veterans, and displaced energy workers a key 
priority.
    Mr. Bell, in your written statement, you talk about 
significant job creation in areas such as data science, energy 
storage integration, smart asset planning, and asset 
performance management. And you note that as many as three 
million jobs could be created worldwide. You also cite 
significant challenges that industry faces and will continue to 
face due to the current aging workforce and the insufficient 
numbers of skilled workers ready to step in to replace these 
retiring workers.
    Would you discuss some of these innovative partnerships 
that your company, GE, has initiated and how some of these 
programs may provide a way forward for industry and for those 
communities that desperately need jobs and opportunities?
    Mr. Bell. Fantastic question, Ranking Member Rush.
    When you think about jobs, if you think about even myself, 
I said all my career I worked in software. Only in the last 3 
years I am working at the intersection of energy and software.
    So first thing in GE, we are making everyone aware that the 
industrial world--the world of electricity, health care, 
transportation--we need software developers and technology 
people. That is something we were driving at a company level, 
at an industry level. We are partnering with our customers.
    For example, where in the past we only had a thermal 
engineer around power plants, now, in the future, we think that 
thermal engineers are also data scientists. So, we have to 
train a whole new generation.
    We are also doing things to balance the equation for women. 
We have programs around women in leadership, women in science, 
technology, and math, and we are driving programs to make sure 
that across the company we are actually committed to getting 
20,000 more women by 2020 in the field of engineering, science 
and technology in GE, and it is a worldwide commitment for us.
     But the interesting thing about these jobs that we are 
talking about, which is at the intersection of software and 
energy, is not just jobs in Silicon Valley or in New York, 
because software means you can actually do it anywhere. And we 
also need them to be in the local communities, whether it is in 
Minneapolis, or Eugene, Oregon, or Batesville, Indiana. You 
need electricity systems, consumptions systems in grid. So we 
believe the future of this intersection of jobs can be put 
anywhere across the country. And in fact, America can--just 
like Silicon Valley leads the digital economy, America can lead 
this new infrastructure of electricity and digital from here in 
America across the globe.
    Mr. Rush. Mr. Stephenson, many of us understand the value 
of nuclear power and nuclear power plants are sourcing a 
reliable, safe, carbon-free energy. There has been no action at 
the Federal level to fully value these plants. And in that 
absence, many States, including my home State of Illinois, are 
taking steps to preserve these plants as part of their energy 
infrastructure. These actions have caused a lot of controversy 
and, in some cases, they are being challenged at the local 
level.
    We know that there are thousands of jobs at stake 
nationally. So, my question is what role do you think that the 
Congress can take to support these State-level policies, and 
should we be involved in any of them anyway?
    Mr. Stephenson. Thank you, Congressman Rush.
    As far as the nuclear, I was very engaged with what was 
going on in Illinois the end of last year when Exelon was 
looking at possibly closing some of their plants there in 
Illinois. In fact the two units, Quad Cities, that is where I 
am originally from. So I was very close to that and very 
passionate to that.
    But I could tell you the nuclear industry, the whole 
energy, when we talk about energy, and we are moving to the 
green economy. We are moving to more wind, more solar but we 
still have to have reliable baseload. And nuclear is a very 
reliable baseload energy that has really zero emissions. If our 
goal is to try to cut down on carbon emissions, nuclear is 
clean when it comes to carbon.
    So I think there is a big role to play for nuclear. I think 
one of the problems they have is because of the price right 
now, say, of natural gas and some of the other power supplies, 
that it is difficult for them to build and run reliably and 
economically because of the pressures economically that are put 
on them. And I think the action that was taken in Illinois--and 
I think there was also some action taken in New York, as well--
to recognize and preserve that they are already providing a 
good, clean energy source is something that needs to be 
considered for the nuclear industry and make sure that we are 
keeping a good, solid baseload, a reliable baseload that 
provides clean power.
    Mr. Rush. I yield back, Mr. Chairman.
    Mr. Upton. The gentleman yields his time back.
    The Chair recognizes Mr. Walden for 5 minutes.
    Mr. Walden. Thank you, Mr. Chairman.
    Thank you all for being here. I appreciate your testimony. 
It is most helpful to inform our decisionmaking going forward.
    Mr. Stephenson, I have toured Local 48 and the work they do 
there in Portland and throughout Oregon and been very impressed 
with the training that goes on, the education that goes on and 
the work.
    Mr. Bell, in your testimony, you cited some statistics 
about the efficiency of our generation fleet. And according to 
NERC, the U.S. fleet operates at less than 50 percent of total 
potential capacity. Generating units are unavailable on average 
15 percent of the time due to outages and maintenance, 6 
percent of the time they are unable to meet demand at all.
    Is this purely a technological issues or are there 
regulatory barriers at the Federal level and State level 
preventing greater utilization and market efficiency in 
digitalization?
    Mr. Bell. Great question, Congressman. We believe it is an 
untapped potential today. Like I talked about, a single gas-
fired power plant, for example, could generate up to two 
terabytes of data a day. That is more data than all of us 
collectively in this room could even put on Facebook or Twitter 
over a year.
    So there is more data. It is actually unused data. And we 
have been able to drive efficiencies as much as reduce 
unplanned downtime by 17 percent, increase uptime, therefore, 
by 10 percent or, in the case of nuclear, predict outages with 
accuracy of 90 percent.
    And these are just the start, as the algorithms are getting 
trained on technology. For example, we already have algorithms 
that are trained on a 100,000,000 hours of operating data. So 
as they get trained on more operating data, we can get specific 
with recommendations not just about a particular class of a 
machine, but about a machine in that particular operating 
condition. So we can get more specific about eliminating that 
15 percent, which is a very meaningful number that we can make 
a dent into.
    Mr. Walden. You know part of what we always have to keep in 
mind is both the efficiency but also the consumer.
    Mr. Bell. Yes.
    Mr. Walden. And so in my district we have thousands of 
megawatts of wind energy, enormous--not enormous, but we have a 
lot of solar energy, a lot of hydro power. We are a very 
renewable energy base.
    We also, obviously, have other generating source, gas and I 
think we get electricity from coal from outside of the region, 
but it comes in via the power lines.
    As we work on renewable energy, one of the concerns that 
has come my way is it is not 24/7 baseload.
    Mr. Bell. Yes.
    Mr. Walden. And so often, that means you have to have a 
standby baseload plant you have to build, and the consumers are 
ending up paying for both. How do we bridge that best? How do 
we get the best efficiency out of that? And what does this mean 
to consumers? Because price to consumers is an issue we need to 
be thinking about.
    Mr. Bell. Absolutely. So, just like the example you shared, 
in renewables, for example, we are already using software to 
improve the predictability of energy yield from renewable 
resources. And that is absolutely key so you can plan the other 
fuel sources to compensate for the fluctuations.
    And also, software is already helping baseload power plants 
be more flexible. We can ramp them up quickly and ramp them 
down quickly.
    So regardless of what the mix of energy is, to really 
optimize all of the sources of fuel, you need software because 
at the end of the day it is an optimization problem and our 
customers are starting to use them individually now, and some 
of them are actually building operation centers, where they 
monitor every asset, whether it is NYPA, for example, building 
an operations center that monitors everything from Niagara 
Falls to all sources of generation and grid. So now we can get 
to a state where we can truly integrate renewables even better 
because by New York reg standards, they have got to get 50 
percent renewables by 2030. The only way that happens is 
instrumentation of every single node, every single asset, and 
optimizing algorithms through software.
    Mr. Walden. So, Mr. Stephenson, talk to me a bit about what 
your members have encountered in terms of jobs that are out 
there, the permitting processes, delays, from your experience 
necessary/unnecessary. What should we be focused on there?
    Mr. Stephenson. Well as I mentioned briefly in my remarks, 
because of some of the permitting--I will give you an example. 
Clean Line Energy has, I think, three or four projects where 
they are taking wind energy from out in the west, where there 
is a big demand or an opportunity for wind, and moving it east 
into the Chicago metro area and down into Indiana and down 
south through the Southeast. One of the problems they are 
having in getting that opportunity is getting all the proper--
you know each State they go through they have got a whole new 
challenge of regulations they have got to have to get through 
those States.
    And so I have been working personally with Clean Line 
Energy probably for about 8 years, the first time I met with 
them when they were talking about what their projects were.
    So, some way to start getting that standardized for them to 
build and get their sitings for where they are going to put 
these towers. And in a lot of ways we have already got 
functioning towers all over the country. They have been there. 
So it is not like we necessarily have to always take a whole 
new path. I mean, they are able to kind of parallel some paths 
where there are already towers there and blended in with the 
communities. But that is the biggest obstacle. There are 
several projects that are waiting right now that if we could 
get through that process would be up and ready to go. And a lot 
of these projects, by the way, are privately funded. These are 
the companies that have the resources ready to go. They just 
need to get the proper permitting to start.
    Mr. Upton. Thank you, Mr. Chairman.
    The Chair would recognize the ranking member of the full 
committee, Mr. Pallone, for 5 minutes.
    Mr. Pallone. Thank you, Mr. Chairman.
    Building new energy infrastructure is important but 
protecting and strengthening our existing infrastructure is as 
important, if not more so. And I think we need to do more to 
ensure that we are hardening essential infrastructure and 
making the grid more resilient and that means not just 
transmission but providing more flexibility and resilience 
within the distribution networks.
    And I mentioned in my opening that I was very proud of the 
fact that at the beginning of the last session we did have 
agreement with the Republicans on the committee to have a $3 
billion grant program for grid modernization and pipeline 
repairs.
    But I wanted to ask Mr. Stephenson, you spoke about the 
well-developed training program that IBEW runs for your 
members. And I wanted to ask has the program been expanding to 
train members to move into new areas, such as energy storage, 
nuclear technologies, and microgrids. And in your opinion, 
would a grid modernization grant program like I have discussed, 
providing grants to States actually help create jobs for your 
members?
    Mr. Stephenson. Yes, it would because, you know, we are 
constantly training in the new technologies. As soon as we see 
new activities come in, our training program is always on top 
of it, starting to get our folks trained and ready for the 
changes as they come. But yes, it absolutely would provide 
that.
    Mr. Pallone. OK and then you mentioned that many members 
work in the nuclear utilities also and coal utilities. And you 
said that with respect to nuclear, in particular, that these 
haven't necessarily fared well in recent years.
    Would some or all of the workers in coal or nuclear, would 
they be able to move into other jobs associated with the grid 
modernization of the electricity sector? If we have that kind 
of a grant program, would that be helpful to them?
    Mr. Stephenson. Well, it would help, but one of the issues 
we face is that when you are going from, let's say, coal 
generation because coal has been changing rapidly over the 
years, where you might have 200 employees at a coal-generating 
plant and that is being replaced by a natural gas plant. You 
know you might go from 200 employees probably down to 40, and 
then, of course, the renewables as far as wind and solar would 
even be less. After the construction, after they are built, 
there are less permanent jobs in maintaining them.
    So we will see, overall, probably a reduction in our 
utility branch because of some of those technological changes, 
but we also work very closely with our employers in the utility 
industry that, as they transition, our employees that are 
already there will have opportunities and have been offered 
opportunities to get training to allow them to stay employable 
in those new markets through those employers.
    Mr. Pallone. All right, thank you.
    I wanted to ask Mr. Hauser, you know my district was the 
hardest hit by Superstorm Sandy back in 2012.
    Mr. Stephenson. Yes.
    Mr. Pallone. It took an incredible toll on the electricity 
grid. More than 8.5 million households and businesses had 
outages. In some places, including my own house, the power took 
a couple of weeks to restore.
    So as I said, a big part of our modernizing the electricity 
grid must include hardening our electricity infrastructure to 
protect the power lines, such as during a storm. Some of our 
utilities in New Jersey, such as PSE&G have made strides to 
protect the energy infrastructure but there is a lot more than 
can be done to prevent you know from a hurricane causing major 
power outages.
    So in your testimony, you discussed hardening and 
resilience as important aspects of modernizing the grid. Kind 
of the same question I was asking Mr. Stephenson, would a grid 
modernization grant program providing targeted grants to States 
to support this effort, would that be helpful? What do you 
think about it?
    Mr. Hauser. Absolutely. I mean we talk a lot about the 
public-private partnerships that are needed to really build out 
this system to be more resilient. As I am sure you know, many 
of our utilities are private. There may be 70 or so utilities 
private, but there are almost 3,000 utilities across the 
country who are public utilities that absolutely need support 
to help do this.
    While it is important to consider the rate payer's need to 
support this, I think the taxpayers need to also look at 
opportunities to support this. And in particular, a grand 
program would look at potentially some innovative ways, some 
things that GE has already talked about, innovative ways to 
make it more cost-effective, certainly perform better.
    Mr. Pallone. All right, thank you very much. Thank you, Mr. 
Chairman.
    Mr. Upton. The Chair would now recognize the gentleman from 
Texas, Mr. Barton.
    Mr. Barton. Thank you, Mr. Chairman.
    Back in 2005, we passed the Energy Policy Act and it put in 
place a procedure in congested areas if the Department of 
Energy designated a particular region as a congested or high-
need region, set up an expedited procedure to site electrical 
transmission lines. A Federal court in Virginia, on a two-to-
one vote struck that provision of the Act down. So we certainly 
don't have an efficient way to site interstate electrical 
transmission lines. And given the growing needs of our economy, 
we need to move electricity from where it is generated to where 
it is consumed. And it is also impossible to do in these States 
in the Midwest and the Northeast where the geography is 
constrained and the populations are fairly dense.
    I would like to ask Dr. Howard and Mr. Hauser if your 
groups have any ideas that we could legislate to try to solve 
that problem.
    Dr. Howard. So you bring up a very important point. And as 
we add additional variable generation resources onto the 
electrical system, we do want to move it where it is needed. 
And congestion is a problem because that is where you run into 
generation and load kind of meet each other at the congestion 
points.
    So we have done a lot of work on looking at advanced 
conductors, whether it is DC or AC, to look at how we can 
advance the science and technology to help eliminate this 
problem. We are focused on the science and technology, but what 
I can say is that the need for additional work around trying to 
eliminate or alleviate congestion is critically important 
because it is not going away.
    In terms of the regulation that is required or some 
potential policies, we don't have a specific recommendation. 
Our focus is on the science and technology, but what I can say 
is that when you look to the future, this is going to get to be 
a bigger and bigger problem unless it is solved because as we 
have more variable generation, it is going to be a bigger 
problem.
    Some of the things that we are doing around sensors, and 
computation and analytics, and information and communication 
will help some, but it comes down to pipes and wires. We have 
got to have more wires to move this around.
    Mr. Barton. Mr. Hauser?
    Mr. Hauser. Building new transmission lines is certainly an 
important option that has to be considered going forward. There 
is a lot of work by companies that are looking at ways to use 
existing transmission line to upgrade them. That is kind of 
what Mike was talking about, make them more efficient, get more 
capacity through the existing systems.
    You may be aware there is a project in New York now called 
the Brooklyn/Queens Demand Management Program that is a 
significant project that is looking at alternatives to building 
transmission to allow congestion relief in areas we call load 
pockets, where they do need more capacity.
    So I don't think there is a magic silver bullet here to 
make this happen. I think we need to look at all options and 
certainly, in some instances, building new transmissions lines 
is the best option.
    Mr. Barton. Well, Mr. Chairman, I am very disappointed with 
those answers, to be frank. I would have thought that great 
minds would have come up with some alternatives besides just 
suck it up and try to get more molecules and electrons through 
the existing system. If you are going to have a nation that 
grows and an economy that grows, we are going to need more 
transmission lines. There is a limit how much technology can 
do.
    And I hope we can continue to ponder that because if we are 
really going to do something in this area in this Congress, we 
are going, at least in my opinion, Mr. Chairman, we need to 
come up with a way that respects the rights of the States and 
respects the rights of the communities but still makes it 
possible when there is an obvious need to build new 
transmission lines. We simply have to do that. And with that, I 
yield back.
    Mr. Upton. The gentleman yields back.
    The gentleman from California, Mr. McNerney.
    Mr. McNerney. Well I thank the chairman for holding this 
hearing. It is really illuminating.
    I am going to follow-up on Mr. Barton's last question. Mr. 
Hauser, you mentioned in your testimony that not only do we 
need new transmission, we need to focus on upgrading existing 
transmission facilities. Could you explain that, why we need to 
focus on--what is the benefit of focusing on rebuilding or 
upgrading?
    Mr. Hauser. Well, as an example, and I think Mike alluded 
to this, there are new conductors that allow you to put a lot 
more electrons through existing lines and existing right-of-
ways so you can upgrade conductors, as an example, very cost-
effectively and get a lot more power through the existing 
lines.
    Mr. McNerney. So the technology is there to----
    Mr. Hauser. Absolutely.
    Mr. McNerney [continuing]. Make it a cheaper way to go 
forward with our power needs.
    Mr. Hauser. Yes.
    Mr. McNerney. Do you believe the Smart Grid Matching Grants 
and Smart Grid Demonstration Project funding that was included 
in the American Recovery and Investment Act was a useful or 
good modernization in deploying new technologies?
    Mr. Hauser. Oh, absolutely. I think almost two-to-one the 
utilities that were beneficiaries of those grants are thrilled 
with the results. And in many cases the utilities that are 
members of mine talk about how the benefits they have seen from 
those grants far outweigh the benefits they even expected to 
get from those projects.
    So yes, I would say that absolutely that is the case.
    Mr. McNerney. Well, excellent. You mentioned that the grid 
isn't keeping up with new technology. How would we go about 
improving that situation?
    Mr. Hauser. You know, it is always a challenge--as my 
colleagues have talked on the panel already, it is always a 
challenge to find ways to implement these new technologies that 
are somewhat revolutionary, if you will. And I think the grants 
that Congressman Pallone talked about is certainly one way to 
show examples.
    I think one of the things we are looking at is how to share 
lessons learned across the industry. So because there are so 
many utilities, one utility in Texas that is doing pioneering 
work in a particular area or Chattanooga, Tennessee, which does 
a lot of very impressive work, we want to take what they are 
learning and share it across the industry so that it is easier 
for the utilities and the regulators to accept some of the new 
technologies that are having such a big impact on the industry.
    Mr. McNerney. Mr. Howard, cybersecurity and resiliency 
remain an essential piece of any component throughout an 
electricity or energy production system. Is there a uniform 
definition of what cybersecurity and cyberresiliency means?
    Dr. Howard. A uniform definition, I am not sure there is a 
uniform definition. I think there is a somewhat consistent 
awareness of the importance of it, but I am not sure there is a 
common definition.
    Mr. McNerney. Would it be useful to have a common 
understanding of what that means?
    Dr. Howard. Certainly an increased awareness of what we can 
do and a discussion of some of the options that we could 
consider, all of that is very important. We are doing a lot of 
that at EPRI. So, yes.
    Mr. McNerney. Different subject. How could real-time 
pricing rates affect grid modernization efforts?
    Dr. Howard. Well, one is that it could help consumers, and 
the devices themselves, to have a better understanding of 
congestion, for example. We talked about that previously. So 
anytime that you can provide more awareness and understanding 
of the issues, whether it is the consumer or the devices where 
they can make smarter decisions on their own, those are 
important factors that consumers can include in their energy 
choice.
    Mr. McNerney. Thank you. Mr. Bell, in about 30 seconds, 
what do you think the biggest obstacles to grid modernization 
are?
    Mr. Bell. The biggest obstacle is actual visibility, lack 
of visibility today. Because we think of the whole system as a 
uniform system and there is already enough data. We are not 
talking about new instrumentation. We are talking about making 
sure we use all the existing data to get better insights and 
better visibility so we can start writing a program or a 
roadmap of how to modernize step-by-step.
    Mr. McNerney. Thank you.
    Mr. Chairman, I yield back.
    Mr. Upton. The gentleman yields back.
    The Chair recognizes the vice chair of the subcommittee, 
Mr. Olson, for 5 minutes.
    Mr. Olson. I thank the Chair.
    Welcome, Dr. Howard, Mr. Bell, Mr. Stephenson, and Mr. 
Hauser. As you all know, in my home State of Texas, we have a 
huge amount of wind power coming onto our grid.
    This question is for you, Mr. Hauser, and you, Dr. Howard. 
One year ago this month, nearly half the power in our grid came 
from wind turbines; 13.9 gigawatts of power from wind, double 
the capacity of any other State. Most of that wind is pretty 
far from our population centers so we worry a lot about things 
like line loss. At the same time, our plants that are closer to 
our cities are being closed or replaced, which can mean things 
like congestion to the system as the generation shifts.
    Clearly, our grid is rapidly changing. In the Houston 
region, my alma mater Rice University at the Smalley-Curl 
Institute, it is advancing nanotechnology for a broad range of 
issues, mostly energy transmission.
    Also, at Mr. Green's alma mater, the University of Houston, 
the Texas Center of Superconductivity Advancement is looking 
into power transmissions through superconductors. In fact, they 
are trying to rewire the whole main campus with 
superconductors.
    Those are just two examples of how the grid could evolve. 
My question is, again, for you, Mr. Hauser, first, and then Dr. 
Howard. What are some of the technologies you see coming in 
terms of innovation for electric transmission and how can they 
shape the grid?
    Mr. Hauser. Yes, well, you have given a couple of great 
examples already from the great State of Texas. I might yield 
to Mr. Bell from GE because a lot of the work is being done to 
move to digital silicon-based transformers, switches at much 
higher speed, much higher power densities, two-way flow on the 
grid, controllers that allow two-way flow, sensors, and other 
devices that allow us to manage reactive power versus real 
power, which is also an issue that comes up with increasing 
amounts of wind and solar on the grid.
    Mr. Bell, do you want to add anything to that?
    Mr. Bell. I think Mr. Hauser covered a lot of--I think one 
of the simple ideas is while there is material science 
breakthroughs, new technologies, new electronics, we also 
believe that software closer to the edge needs to be changed 
and modernized.
    Many substations, power plants are all still running 
controlled software that is, like, decades old. So, we are 
looking at algorithms that run what we call Edge, meaning 
closer to the machine so they can make intelligent decisions 
locally, just like Dr. Howard talked about, so they are aware.
    When we talk about the network or the Electricity Value 
Network or the Integrated Energy Network, we mean that every 
node is aware of what is happening across the entire network, 
so they can make local decisions about how to optimize routing, 
how to take load, and how to react to demands outside of the 
network.
    So, those are some of the innovations that are happening, 
actually, Mr. Tonko, right where you are, in Niskayuna, where 
we have our Global Research Center, this is where we talk about 
high-tech meets deep technology, where it is not just software, 
but driving that innovation all the way down to the silicon and 
creating new kinds of value up and down a full integrated stack 
of technology.
    Mr. Olson. Dr. Howard, you pulled the microphone, you are 
ready. Sir, you are up.
    Dr. Howard. So we have talked a lot about digital 
communication centers and so on, and that is pretty important, 
but I want to mention three. One is, and you talked about 
superconductors, but it needs to be higher temperature 
superconducting materials. So that is one.
    Second, low-loss conductors. There is a lot of work that is 
going on that will significantly reduce the loss on 
transmission cables and they are called low-loss transmission.
    Three, power electronics. Our electronics, which will 
enable the digital grid is exactly what we need to move forward 
on, in terms of improving not only the congestion but the 
ability to increase the power on the existing right-of-ways and 
so on. It is akin to where we are headed, which is really a 
digital transformer.
    Mr. Olson. 4 seconds left. I yield back the balance of my 
time and save my questions.
    Mr. Upton. The gentleman yields back.
    The Chair would recognize Mr. Peters for 5 minutes.
    Mr. Peters. Thank you, Mr. Chairman and thank the witnesses 
for some fascinating ideas.
    You have highlighted a lot of the innovation that is 
happening in the economy into the private sector. I would like 
to explore a little bit what you think the Federal role is 
here. And maybe, Dr. Howard, I would ask you are we talking 
about--if we decided we are not going to do power loss 
conductors down the hallway. That is something that is going to 
happen appropriately in the private sector. If we were going to 
come up with actions that we can take, direct investment, 
grants, standard-setting, regulatory relief through Federal 
preemption, what are the kinds of things that you think would 
be helpful for us to do to support the kind of grid that is in 
the national interest?
    Dr. Howard. Probably the most important is the continued 
focus on basic research because all of these things we have 
talked about, whether it is high-temperature semiconductors, or 
advanced cables, or power electronics, or sensors, and so on 
starts, many of them start in the national labs with looking at 
fundamental material science. And I think that is one of the 
most important things that we can do to advance. Once the 
material is designed and we uncover the basics of the atom and 
its ability to work together to advance some of these 
technologies, then private industry can take it from there and 
apply it and make this the best grid possible. But it takes the 
fundamental science and research to help us get there.
    Mr. Peters. Do you have an opinion on the adequacy of the 
current levels of funding in that field?
    Dr. Howard. Low.
    Mr. Peters. Low. Too low?
    Dr. Howard. Yes.
    Mr. Peters. So I get that. I think I would be supportive of 
that. How do you think, though, that we assure the outcomes? 
Obviously, the Nation has an interest in a grid that functions 
and that is resistant to attack, that is resilient, that is 
efficient, that conserves energy. How do you think we could, as 
a Federal Government, most productively assure that outcome 
through all the innovations that you are talking about today?
    Dr. Howard. Well, one way is to encourage and support the 
application of these technologies. They don't just wake up one 
morning and say let's go and apply it. We have to start off 
with multiple demonstrations and learn from that to make it 
better. And the basic research it is conducting in the national 
labs, then you take that and move it into private industry and 
you support the need for multiple demonstrations and multiple 
science to then learn from that so that you can apply it and 
make sure it does the job that we thought it will do when we 
started the research. So, support the application and 
demonstration.
    Mr. Peters. So some information sharing as well as the 
research.
    Dr. Howard. Absolutely.
    Mr. Peters. And do any of the other panelists want to talk 
about what the Federal role? Any thoughts you have, Mr. Hauser?
    Mr. Hauser. I will add a couple of things. First of all, we 
should have mentioned storage in the context of technology, 
too. That is a real game changer for this industry going 
forward. But I think technical assistance, building better 
models, better analytic models, we are really moving from a 
data poor to a data rich environment. So a lot of our models 
from a regulatory standpoint, from an operations standpoint 
have been based on not having much data about what is happening 
out in the system.
    With the changes that are happening with AMI, with 
automated distribution systems, we are collecting so much data 
now and our models really haven't kept abreast of that and 
building better analysis, better models, is certainly something 
that could be done at the Federal level or at least the support 
for that.
    And the last thing I would say is technical assistance to 
regulators and to local utilities. Again, there are more than 
3,000 utilities across this country. It is a very complicated 
stakeholder environment. And providing the education and the 
training, and the technical assistance is going to be really 
important.
    Mr. Peters. So one of your points is that not all utilities 
are huge and have all the resources that they need to do this.
    Mr. Hauser. Absolutely.
    Mr. Peters. So am I to understand, too, that there aren't 
sufficient private incentives to take advantage of the kinds of 
technologies that Mr. Bell is talking about? Is that something 
that the Federal Government has to get involved in?
    Mr. Hauser. Yes, I think so. I mean there is always this 
dance between State and Federal roles with regard to this and 
we need to be respectful of both. But certainly, providing 
better incentives for new technologies, again, the utility--and 
Mike can probably talk about this better than I can, but 
historically, utilities install technologies that last 30, 40, 
50 years, and that is part of the issue that we have got, is 
that we have got technologies in the systems now that were 
installed in the 1970s or even the 1960s. And so coming up with 
ways to allow them to put technologies that may not have 30- or 
40-year lifetimes, they may have 5- or 10-year lifetimes 
because technology is evolving so fast, is going to be really 
critical to this.
    Mr. Peters. Thank you very much. My time has expired, Mr. 
Chairman.
    Mr. Upton. Time has expired. The Chair will recognize the 
gentleman from Illinois, Mr. Shimkus, for 5 minutes.
    Mr. Shimkus. Thank you, Mr. Chairman. And welcome. This is 
a great hearing and I read the testimony also and I have been 
listening to the question and answer and your 5-minute 
statements.
    So I have gone off the rails a little bit here to ask some 
questions that I don't think people have asked yet. But 
actually Scott Peters asked great questions, I think Joe Barton 
asked some questions of really what is the Federal role. Where 
can we be helpful? Where can we be harmful, right? And we can 
do both.
    And plus the electricity generation and transmission world 
has changed just through competitive markets versus regulated 
communities. We haven't really started talking about that. Do 
you try to put the genie back into the bottle? Can you get 
incentivized?
    So let me kind of ramble here for a few minutes. The other 
thing, I mean, I see the laborers in the crowd. I know you are 
with IBEW and this focus on jobs. My, I called him, Uncle Bob, 
he climbed power poles. I grew up with his kids. My dad was a 
telephone lineman, climbed poles and he fed seven kids and mine 
was a stay-at-home mom. So, that is the story of a lot of us in 
my era. So I have great appreciation for the work that is done.
    But we don't talk, what we haven't talked about are these 
jobs here. These jobs. The IBEW guys at a power plant, the 
United Mine Workers at the coal mine, the pipefitters, the 
boilermakers, and the change that we are dealing with now is 
because we have lost these. They are under attack for a lot of 
reasons. So there are some issues about what can Government do. 
Government can get off the back of the fossil fuel sector and 
allow us to--major generation.
    So in all of our debates, no one talked about major 
generation, baseload generation and the importance to the grid 
and the resiliency and the cost. So that is my first question, 
if you would go to Dr. Howard, across the first panel, I would 
appreciate it.
    Dr. Howard. Thanks. So, we have for years been looking at 
the generation mix and what that means to security of the 
country. All of the research that we have done points toward 
the need for a full portfolio generation options, which 
includes the need for all forms of thermal generation, 
including nuclear and coal.
    Mr. Shimkus. And they are all at-risk.
    Dr. Howard. Well, we need them all.
    Mr. Shimkus. They are at-risk. No one who is observing 
these markets will say that major nuclear, major coal is not 
threatened and at-risk.
    Dr. Howard. Well, let me just----
    Mr. Shimkus. Let me go quickly, because I have got another 
question. So, Mr. Bell.
     Mr. Bell. Sure, Mr. Shimkus, the role of baseload. The 
role of baseload, we actually, our biggest customers today use 
our software across baseload power plants.
    If you take Exelon, who is one of our biggest customers, 
they are implementing our software across all forms of 
generation because being gas, nuclear and it is all about 
improving efficiency, reliability----
    Mr. Shimkus. OK, let me go to Mr. Stephenson. I get it. 
Exelon is a good friend of mine.
    Mr. Bell. Yes.
    Mr. Shimkus. Mr. Stephenson.
    Mr. Stephenson. Yes, baseload is very important, as I 
mentioned earlier and especially all forms. I believe there is 
clean coal technology that still needs to be looked at and 
considered about some of the jobs that you just pointed out.
    Being a former Illinoisan, I am very aware of what is going 
on in downstate Illinois and the number of jobs that are at-
risk there. And so I think there are still opportunities. And 
we, maybe, as a Federal Government could help fund some of the 
that technology, some of that research, so that we can go into 
carbon capture questions and others.
    Mr. Shimkus. And the Federal Government really has put a 
lot of money into that type of research already.
    Mr. Hauser, baseload quickly. I have got one more question 
for you after.
    Mr. Hauser. Yes, well, sir, clearly Illinois is the leader 
in this space. Exelon is one of my members.
    You know I think what I would add to this is that the 
technologies we have been talking about that apply to the grid 
changes are also being applied to power plants. I mean power 
plants are becoming much more efficient. Sensors are being used 
to help us understand how to make them much more efficient, how 
to make the O and M much more effective and less costly.
    Mr. Shimkus. And I liked one of the testimonies that talked 
about the downtime of the grid saved a million households 
didn't go out of power.
    But Mr. Hauser, you also made a statement and I want to end 
with this. Aren't rate payers the same as taxpayers?
    Mr. Hauser. I often joke that it comes out of either your 
right pocket or your left pocket. So, yes, the citizens----
    Mr. Shimkus. So I mean there is a private sector so we just 
have got to be careful about how we apportion the cost and 
assume that one is not the other when they are actually the 
same people.
    Mr. Hauser. Sure.
    Mr. Shimkus. I yield back.
    Mr. Olson [presiding]. The gentleman yields back.
    The Chair calls upon the gentleman from Texas, Mr. Green, 
for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman and I thank our 
witnesses for being here.
    I represent a very urban district in Houston with 
refineries, chemical plants. GE actually shut down one of our 
plants--not shut it down but because of the international 
market but we make turbines for whatever few you have.
    Our problem in Texas is not--because we build our own 
pipelines. We have our own grid. And so if we have wind power 
in Lubbock, Texas, they actually can get it to the Dallas-Fort 
Worth market, Houston market, San Antonio because it doesn't 
cross State lines. And we have our own grid, the ERCOT, that we 
can work ourselves.
    But I know we have trouble with getting pipelines and 
getting electricity transmission permitted across State lines. 
But like I said, we don't have that problem but I am real aware 
of it because I would like to sell more natural gas to Mexico 
from Texas and we need to get those permits quickly done so we 
can sell that.
    President Stephenson, welcome. I work with your Houston 
locals both. In fact, I was down at our nuclear power plant in 
south Texas. It has been IBEW since it was built and the first 
time I had been back here.
    We have a small amount of nuclear in Texas. We wanted to go 
expand it but because of the market and because one of our 
partners with Fukushima, Tokyo Power went bankrupt and they 
were one of our partners and we couldn't expand. And we have a 
lot of mix, whether it is wind power, nuclear power, of course 
natural gas, and in Texas, as my friend from Pennsylvania say 
you burn dirt, we burn lignite, which is probably one of the 
dirtiest we could do but we bring in a lot of coal from the 
Midwest for our coal-fired plants.
    But the mix is changing, simply because of the cheap prices 
of natural gas. And we are seeing it literally at home.
    But I want to talk about the workforce because I have a 
district that they work at those plants. And IBEW, you have 
partnerships with your local contractors, I assume, because you 
have a great apprenticeship program, but also with our 
community colleges. A couple of years ago, our previous 
Secretary of Labor, Tom Perez, was at San Jacinto Community 
College in my area and Congressman Babin's area and they were 
training for jobs that were available right then because they 
partnered with the large employers in the community and said 
show us what you need and we will let you write the curriculum 
because our goal is to get these students get those jobs and 
fill them. And we still had challenges on that in the energy 
industry but it is working.
    Does IBEW partner, have a goal partnering with your 
apprenticeship program with the community colleges?
    You might say yes, so that the record will take it up.
    Mr. Stephenson. Yes.
    Mr. Green. And does IBEW have expansion plans? I have been 
to your apprenticeship programs. They are actually in our 
district near Hobby Airport in Houston.
    Mr. Stephenson. Yes, we are consciously looking at the 
projected workforce needs and adjusting our apprenticeships, 
trying to take in more apprentices to provide for the 
additional need to the skilled labor so we can provide them for 
our employers so that they can continue to bid that work.
    Mr. Green. Mr. Bell, does GE partner with local community 
colleges and support workforce training? I don't know in my 
area because although we had that turbine plant but we have GE 
oil and gas buildings all over Houston, Texas.
    So do you all partner with local community college for that 
workforce training?
    Mr. Bell. Absolutely we do. And we are also doing, for 
example, in New Orleans, we have an apprenticeship program 
where it is software engineering apprentice program that we are 
working in New Orleans. We partner with the universities in 
many different areas.
    And also talking about the workforce question you talked 
about, when we think about digital infrastructure and network, 
it is not just the assets. We think about how the workers are 
becoming more productive and their work environments are 
getting safer. So we think about every worker in a power plant 
becoming a digital worker so they have all the information they 
need, whether through wearables or safety devices so they can 
help do their jobs better.
    Mr. Green. Mr. Hauser, do the relevant Federal agencies 
currently possess the required authority to expedite the Smart 
Grid siting and also the approval? And we are talking about 
interstate, not intrastate.
    Mr. Hauser. So, there has clearly been a lot of discussion 
and debate around that issue. I think FERC is looking at that 
now in terms of what other authority might be needed to 
appropriately address that.
    So much of the Smart Grid work is being done at the local 
level, so it is really more State PUC focused and focus with 
the Governor and the State legislatures.
    Mr. Green. Thank you, Mr. Chairman. I yield back.
    Mr. Olson. The gentleman's time expired.
    The Chair calls the gentleman from Pennsylvania, Dr. 
Murphy, for 5 minutes.
    Mr. Murphy. Thank you, Mr. Chairman. It is great to have 
you all here and I find your testimony fascinating as we 
recognize the problems with our grid and what we need to be 
doing for modernization.
    A special welcome, Mr. Stephenson. It is good to have the 
IBEW, my friends here, as well as my Lonnie in the back as 
well.
    But Mr. Hauser, I want to ask you some issues with regard 
to the grid. In my district, I have the National Energy 
Technology Lab, so it is funded by the Department of Energy 
doing research.
    Mr. Hauser. Yes.
    Mr. Murphy. And I think it is very important to continue 
funding to have that partnership. They also put a lot of grants 
out to the private sector, too.
    With regard to this, what kind of areas in research and 
development can NETL have to invest in some approved--you 
talked about resilience, reliability, and security in the 
system. Could you elaborate on where the public sector can be 
assisting this?
    Mr. Hauser. Yes, absolutely, and we have worked with the 
National Energy Technology Lab for more than 10 years in 
different spaces. I am aware right now that they are doing some 
work in power electronics. Controls is becoming a very, very 
hot topic. Again, GE is doing a lot of work in that area, but 
NETL has some work going on in that area, looking at advanced 
control theory structures. How do you use the data that is 
being collected to a much more effective job of controlling 
what has become a much more complex grid and will continue to 
become much more complex.
    Mr. Murphy. So this has continued to be pretty 
sophisticated as you go through this. Like when I go to the 
IBEW training facility, this is on a very high level. This is 
not my knowledge of electricity, which is just above dangerous. 
I know the black wires connect with black, white/white, and the 
copper, leave them alone, and then call somebody to connect the 
power and check my mess.
    But as it goes through here, and the kind of controls that 
are developed by companies out there, GE and other ones, it is 
pretty sophisticated. But this is where we have this kind of 
alliance and working together of public and private sector. Can 
you give some examples of areas where we need to continue to 
push this or move this forward in these public-private 
partnerships to facilitate this? I mean you mentioned something 
with GE. Can you elaborate on that a little bit more or if GE 
can elaborate.
    Yes, Mr. Hauser.
    Mr. Hauser. So, yes, public-private partnerships, of 
course, have been important in a lot of different areas. The 
labs, of course, work with companies like GE. They work with 
utilities. A lot of the time it is proof testing, demoing these 
advanced systems so that they can be deployed more broadly and 
more reliably.
    Mr. Murphy. You mean with the Smart Grid, for example?
    Mr. Hauser. Yes, absolutely.
    Mr. Murphy. Define that. Expand a little bit on that, how 
that works and the kind of work we can do to help.
    Mr. Hauser. So the Department of Energy might put out a 
request for proposals where the company's team, EPRI is 
involved in those, many of my member companies are involved. 
Utility will often get involved to do some of the demo of a 
technology, maybe it is a new storage technology, and 
integrating into the grid. A lot of times the questions become 
how do you take it from a lab environment to a full-scale 
environment.
    Mr. Murphy. In the context of what you are saying, one of 
the advantages I understand is Smart Grid. If you do it right, 
you are not wasting a lot of power. You are actually making it 
work more effectively, more efficiently along the way.
    Mr. Bell, can you comment on that Smart Grid and how we can 
be facilitating that? Power waste is environmental waste, too. 
We don't want that. We want to create just enough and use it 
wisely. How do we do that?
    Mr. Bell. I mentioned a World Economic Forum Study. They 
actually talk about across the world, and a big part of that 
applies in America as well. More than 75 percent of breakdowns 
in generation, for example, can be prevented using software 
analytics. And more than eight percent of electricity that gets 
generated never reaches the consumer.
    Mr. Murphy. Seventy percent.
    Mr. Bell. No, eight percent of electricity that gets 
generated never reaches the consumer.
    Mr. Murphy. Got it.
    Mr. Bell. There are 75 percent of breakdowns that happen 
that can be already predicted and prevented. So we actually 
think that number could be even higher with software.
    So when you think about eliminating breakdowns and 
preventing failures, as well as reducing transmission loss, you 
can actually yield more from existing investments that are out 
there.
    And to the question of proof of concept, where the 
Government funds--environmental research is very, very 
important, as we talked about, but also funding new solutions, 
especially members that are part of the IoT Working Group, 
thinking about this as an option of cloud, an option of modern 
technologies, and setting up labs and proof points where----
    Mr. Murphy. Mr. Stephenson, my final few seconds here. And 
what does this yield in terms of jobs if we move forward to 
this kind of Smart Grid? And just your workers alone, what are 
we talking about here, do you have some sense?
    Mr. Stephenson. I am sorry, could you repeat that?
    Mr. Murphy. Yes, I am just wondering in terms of jobs, 
moving forward on these issues to improve the grid, what does 
this mean in terms of jobs, just in your group alone, your unit 
alone?
    Mr. Stephenson. Well, there is the potential for a big 
demand as we continue to train the next generation of workers 
for these changes.
    Mr. Murphy. Several thousand?
    Mr. Stephenson. And due to the baby boomers that are 
leaving and the new people coming in, there is a big demand.
    Mr. Murphy. Awesome. Thank you, Mr. Chairman.
    Mr. Olson. The gentleman's time has expired.
    The Chair calls upon the gentleman from Pennsylvania, Mr. 
Doyle, for 5 minutes.
    Mr. Doyle. Thank you, Mr. Chairman, and thank you for 
convening this hearing today.
    Let me start with Mr. Hauser. In your testimony, you 
mentioned the importance of Smart City Initiatives. As you 
know, Pittsburgh was a finalist in this new initiative that the 
Department of Transportation had last fall. And our city later 
received some funding for a component of its application and I 
think that this is a program that should be expanded and we 
hope the new administration will do that.
    Can you just expand a little bit on what you think are some 
of the most important features of potential Smart City programs 
and how we should try to encourage such programs here at the 
committee?
    Mr. Hauser. Yes, absolutely. And I think it was Dr. Brown 
that mentioned as we understand and increase the sophistication 
of the electricity system, it begins to interact more, and 
more, and more with the other infrastructures, whether it is 
electric vehicles, autonomous vehicles, whether it is water 
systems either to cool the power plants or it is pumping 
required for agricultural use and other things, these 
infrastructures are increasingly becoming complex and 
interactive. And so it is really important, from a Smart City 
standpoint, that we look at the entire infrastructure, not just 
one infrastructure at a time. The interactions are becoming 
extremely important.
    Mr. Doyle. Yes, I am glad you mentioned autonomous 
vehicles. With Uber and now Ford making their announcement, 
Pittsburgh is now claiming itself to be the autonomous vehicle 
capital of the world. So, we look forward to more research in 
that.
    Let me go into nuclear, too. The QER 1.2 notes that nuclear 
power currently provides 60 percent of the U.S.'s zero-carbon 
electricity but existing nuclear merchant plants are having 
difficulty competing in the market these days.
    I have been a long-time supporter of the country's largest 
source of carbon-free power and I am alarmed by the premature 
plant retirements that we are seeing across the country.
    Mr. Stephenson, and let me say it is a pleasure to work 
with IBEW Local 5 in Pittsburgh under the leadership of Mike 
Dunleavy. Those guys do a great job. But each nuclear power 
plant employs between 400 to 700 people and the average plant 
also generates an average of almost $16 million in State and 
local tax revenue annually and Federal tax payments of 
approximately $67 million each year.
    And this source of energy is vital for our local economies 
and critically important in our fight against climate change. 
Can you please comment on what the closure of some nuclear 
plants is meant for your workers and their communities?
    Mr. Stephenson. Yes, we have had, for example, the ones--we 
avoided this at this point, but the Exelon you know had 
announced earlier they were looking at closing three 
facilities. And if they had done that, it would have been 
approximately $3.6 billion out of the local economy and direct 
and indirect loss of jobs of around 13,300 that we had 
researched just for that alone.
    In other areas, Zion, Illinois, for example, was a plant 
that was closed several years ago but if you read the research, 
they are still suffering. That community has still never 
recovered because it was built--you know when those were built 
a lot of the nukes, they weren't in the metropolitan areas. 
They were more in the rural area. So those rural communities 
have grown and thrived because of the economy of the nuclear 
industry. And when they start going down, you decimate all 
those people that live in those small communities.
    Mr. Doyle. Yes, Mr. Hauser, one of the other 
recommendations in the QER was to expand funding assistance to 
enhance analytical capabilities for State PUCs and improve 
access to training and expertise for smaller utilities. I think 
this is particularly important, given the rise in distributed 
generation resources.
    Mr. Hauser. Yes.
    Mr. Doyle. Do you agree with that? And if so, could you 
please expand on the challenges you see in this space?
    Mr. Hauser. Yes, I do agree with that. And as I have 
mentioned earlier, there are almost 3,000 public utilities out 
there that are, many of them, struggling with these issues. As 
the systems become more complicated, as the data becomes more 
rich, we need better models and simpler models, I will say, for 
many of these utilities to use and they need training and 
technical assistance, certainly, to help understand and 
effectively use the models that are being developed.
    Mr. Doyle. Yes, you know I have seen estimates of we will 
need to invest anywhere from $500 billion to over a trillion 
dollars in our grid by 2040 or we are going to suffer decreased 
reliability.
    I guess the question is to anyone on the panel. What is the 
best way for our committee to call for significant investment 
in the backbone of our country's energy infrastructure?
    Mr. Olson. Quickly, please.
    Mr. Doyle. More funding.
    Mr. Bell. We believe that, as I said, just like grid was 
the foundation of the economy in the last century and the 
internet is the foundation of our digital economy, we have got 
to create a belief that the intersection of both creates this 
new electricity network, which is the foundation of the next 
set of economies. We just have to have that belief and invest 
with that belief.
    Mr. Doyle. Thank you, Mr. Chairman. I would just note that 
while we are in sequester, that is the discretionary part of 
the budget what makes us tough to increase funding for basic 
research in this country and we all have got to find a way to 
get out of that sequester.
    Thank you.
    Mr. Olson. The gentleman's time has expired.
    The Chair calls on the gentleman from Ohio, Mr. Latta, for 
5 minutes.
    Mr. Latta. Thank you very much, Mr. Chairman and thanks 
very much for the panel. It has been a very, very good 
discussion this morning.
    Mr. Bell, if I could ask the first question to you. In your 
testimony you talked about advances in technology and 
innovation in the electricity sector that point towards an 
increasing smarter grid. This could follow bidirectional flows 
of electricity, clear price signals, and a greater balance of 
supply and demand.
    And a smarter grid system enables operators to identify 
reliability issues, address consumer concerns, and promote 
efficiency delivery of electricity to consumers.
    If you could talk just a little about the smarter grid but 
let me take you back. I can't believe it, I just checked it has 
almost been 14 years ago that we had the major blackout and it 
hit Ohio, went into Pennsylvania, New York, Ontario. I couldn't 
believe it, at that time, I was actually in all those places 
about that same time. But how could a smarter grid, if you 
could take us back almost 14 years, how can we hopefully either 
stop that from occurring or how we could get things up faster 
from that massive electrical blackout that we had at that time?
    Mr. Bell. So, first is understanding the reason why. I 
believe you are also the co-chair of the IoT Working Group. And 
when you think about things that are already connected and the 
ideas that we have had about Smart Grid and interconnected 
systems and SCADA systems, and being able to monitor devices 
are not new.
    But when you look at an interconnected set of systems, you 
get a system of systems, as Dr. Howard would call it, to be 
able to optimize the whole system. And what we see is a new 
network of data across all of the existing infrastructure that 
we have, so we can actually get better at monitoring, better at 
predictive maintenance, better at preventative maintenance, and 
prevent all these outages because we do have the combination of 
not just the software-driven analytics, but also physics-based 
analytics.
    So being able to create virtual, what we call digital 
twins, today we can actually create that. In the past, this was 
a challenge. Now I can have 100,000,000 hours of operating data 
being questioned in a matter of seconds at the speed of thought 
because of cloud technologies. So, adopting those technologies 
and making sure that we use all the data will give us insights 
into how to optimize the entire network.
    Mr. Latta. Thank you.
    Mr. Hauser, can you share some of the benefits of the grid 
modernization technologies that have enabled or provided in my 
home State of Ohio?
    Mr. Hauser. Yes. So, AEP, in particular, has been a pioneer 
in this space. They have done a lot of work in storage. They 
have also done some work around involving customers and 
reducing outages across the system. As I am sure you know, ice 
storms come through Ohio periodically and take down lines 
pretty routinely. And having the utility able to identify the 
outages and redirect flows in order to minimize the impact on 
consumers has been really important. AEP has been an excellent 
example of doing that.
    Mr. Latta. Thank you.
    I would like to, in my last minute and half, maybe go to 
ask all of the full panel real quickly give a quick answer. 
From your vantage point, what are the most significant 
challenges that the U.S. electricity system or the industry is 
facing today? Mr. Howard.
    Dr. Howard. So the most significant is the incorporation of 
the whole digital group. It is the technology modernization 
that is required to take us to the fully functional digital 
grid. And it is that infrastructure modernization that is going 
to get us there.
    Mr. Latta. OK, Mr. Bell, in about 10 seconds.
    Mr. Bell. I said digital, and I think it is also utilizing 
the existing assets more effectively. I think we don't have the 
visibility and insight across all the networks. We can do that 
today with modern technologies like cloud and IoT.
    Mr. Latta. Mr. Stephenson?
    Mr. Stephenson. I think building the transmission line 
necessary to tie the whole system back together again from all 
the green energy. To get everything tied, we have got to have 
the transmission to get it there.
    Mr. Latta. Thank you. Mr. Hauser?
    Mr. Hauser. I think business models are going to be a huge 
challenge for this industry, especially the private utilities. 
Load growth is pretty flat in most places. In some places, it 
is actually going down and the business models have typically 
been built around growing load growth, where you have to build 
more power plant and earn a rate of return on the investment of 
large capital. So, I think there is going to have to be a real 
significant look at how do we make these business models work 
in a future grid scenario.
    Mr. Latta. Well, thank you very much. And Mr. Chairman, my 
time has expired and I yield back.
    Mr. Olson. The gentleman's time has expired.
    The Chair calls upon the lady from Florida, Mr. Castor--Ms. 
Castor, I'm sorry--for 5 minutes.
    Ms. Castor. I know I am the only female on the dais but----
    Mr. Olson. The biggest Houston Cougar fan, I believe, from 
Florida, as well.
    Ms. Castor. Well, thank you, Mr. Chairman.
    I want to say that I share the enthusiasm of this expert 
panel on the great potential that modernization of America's 
electric grid holds. We really are at a turning point on the 
transformation of how we supply energy to consumers and 
businesses, whether it is how we are generating it, energy 
efficiency, Smart Grids, and technology, we really need to 
unlock the potential here and I see us kind of being held back.
    Mr. Bell, you rightly identified that traditional energy 
infrastructure is becoming smarter and the mix of fuel is 
rapidly evolving with addition of more diverse and distributed 
generation sources. At the same time, we have a wave of 
connectivity and innovation.
    And Mr. Stephenson, you are absolutely right. We can unlock 
higher wage jobs, higher skilled jobs, if we all work together 
to bring American ingenuity to bear here.
    I have been to the IBEW training center in Tampa with 
Randall King and that great team there and they are ready to 
go. But it is oftentimes being blocked by our inability at the 
State level to do the kind of innovative thing that we need to 
do.
    Consumers are more sophisticated right now. They are ready. 
They are clamoring for more tools to control their power usage.
    Businesses are really in the lead beyond Government because 
they see what it means to their bottom line and productivity 
and profits. But I look across the country and progress is very 
uneven.
    The electric utility regulation largely happens at the 
State level and you have some States that are being very 
innovative and then others--Mr. Hauser, you hit it on the 
answer to the last question. There are State regulatory schemes 
and business models that are stuck in 30 years ago and all of 
the incentives are on building big new plants, while all of the 
new tools that we have are about efficiency, demand management. 
Yes, we have got to keep that baseload. Yes, we have got to 
modernize the infrastructure across the country but what can we 
do here in Washington to really incentivize and bring those 
States that are laggards and have these old business models, 
what can we do here in Federal policy to help create these 
highly skilled jobs and move towards a more innovative electric 
system?
    Mr. Hauser. So, it is a great question. As you probably 
know, the State regulators are meeting in the other part of 
town, as we speak. These issues are things that they are 
discussing and debating. I am very impressed with how the 
discussion at the State level has evolved over the last few 
years.
    I believe a lot of that has come from Federal leadership, 
and while you can't necessarily dictate what they do, you can 
certainly set ambitious expectations and goals for them to look 
for ways to live up to and I think that is one of the things 
that the feds at ear level really look at.
    Ms. Castor. So how do we set expectations in Federal 
policy? We can say this is good, this is bad but unless there 
is something really set forth in Federal policy, how do we 
encourage those laggard States to do better?
    Mr. Hauser. Yes, I don't have a great answer for that. I 
think at GridWise Alliance we do something we call the grid 
modernization index, which we look at all 50 States and DC and 
rank them on a score of zero to a hundred on how well they are 
doing.
    Ms. Castor. Dr. Howard, there must be something better than 
just rankings and encouraging. Do these business models have to 
change to help incentivize energy efficiency and use of 
technology? What are the discussions that are being had?
    Dr. Howard. Well, we are focused on helping to advance the 
science and technology so policymakers can make these more 
informed decisions. But we are seeing, as we have talked about 
here today, a variety of technology options that regulators and 
policymakers can use to help to make more informed decisions, 
but that is our focus.
    Ms. Castor. I think we can do a lot better and I encourage 
you all to be creative and be innovative and give us the best 
expert advice because we have, like I said, there is huge 
potential here for an economic revolution as part of the 
modernization of our electric grid and we want to do better.
    Thank you. I yield back the balance of my time.
    Mr. Olson. The gentlelady, Ms. Castor, yields back.
    The Chair calls upon the gentleman from West Virginia, Mr. 
McKinley.
    Mr. McKinley. Thank you, Mr. Chairman.
    Mr. Stephenson, about maybe an hour ago you made a remark 
that resonated with me and I want follow up on what John 
Shimkus was talking about about reliability. Do you think that 
the markets should place more value on reliability attributes 
of our power plants, especially as it relates to baseload 
capacities?
    Mr. Stephenson. Absolutely, we have got to have reliable 
baseload, and that could be a combination of nuclear, I think 
coal should still be in a mix and can be, and of course natural 
gas. We have got to have that baseload reliability.
    Mr. McKinley. Thank you. I guess the work is still ahead of 
us how we are going to convert. We have just gone through 8 
years, we have seen a loss of baseload capacity across this 
country and we are going to have to rebuild now after 8 years 
of a war on coal.
    So, Mr. Howard, your comment was interesting as well in 
your written statements about the need for carbon capture and 
clean coal technology and as it relates to demonstration 
plants. What is the incentive? What do we need to do to build 
more large-scale demonstration plants?
    Dr. Howard. Well, there is still a lot of need for some 
basic research on understanding the more optimal approach to 
capturing carbon. We made some steps. We have got a project now 
going on in Texas. It is going to demonstrate one technology, 
but it is going to take a full suite of different technologies 
to really enable a carbon capture storage to be economically 
efficient. And so supporting the demonstrations and advanced 
science and technology needed to come up with the right 
chemistry that will efficiently capture carbon.
    Mr. McKinley. And also release some of the burdens that our 
regulatory agencies have put on for enhanced oil recovery from 
using carbon capture as well, I assume.
    Dr. Howard. Right.
    Mr. McKinley. No, Mr. Bell, the last question more to you. 
It is more for General Electric's position and that is, this 
wireless power transfer. It is probably aspirational. We see 
around the world Russia, and Germany, and Japan are moving into 
some pretty significant investments in that. What do you see 
coming with that? We know we already are using wireless with 
our cell phones, our internet access with wireless. We are 
seeing induction motors in our industrial plants. We are seeing 
others are wireless.
    Where do you see GE moving in that arena in wireless power 
transfer?
    Mr. Bell. I will answer the first part of your question, 
which is around the different source of fuel. Then, I will get 
to the other part.
    See, we actually introduced the idea of how can existing 
power plants, whether it is gas or coal, be digital, with the 
idea of a digital power plant. We can actually reduce emissions 
in existing power plants using our software. So whether it is 
coal, or gas, or nuclear, whatever the source of fuel, we can 
rejuvenate existing sources and keep them functioning more 
efficiently and effectively.
    With regards to wireless, there is a lot of fundamental 
research that is happening, not a whole lot of commercial-ready 
solutions at industrial scale. What we would do is we would get 
back to you with some of our research colleagues on what we see 
as the future of how that should be brought to market in a 
commercial way.
    Mr. McKinley. I don't think we are talking--maybe 
eventually it is long-term transmission that would reduce some 
of the outages we have but that is not what I am talking about. 
I am talking more short-term within our--to be able to, through 
induction coils, recharge our electric cars, same thing that we 
are already doing with our cell phones. Some of the fundamental 
ways of moving technology so that America continues to be the 
global leader on innovation.
    Mr. Bell. Yes.
    Mr. McKinley. So, I have run out of time, unfortunately, 
but if you could get back to me on that, I would like to know 
more from your perspective.
    Mr. Bell. I would be happy to do that. We will follow-up on 
that.
    Mr. McKinley. Thank you. I yield back.
    Mr. Olson. The gentleman yields back.
    The Chair thanks Dr. Howard for talking about the Petra 
Nova Project and the Parish Power Plant there in my district in 
Texas. That is the only viable carbon capture enhanced oil 
recovery operation in the entire world. Texas brag.
    The Chair now calls upon the gentleman from Vermont, Mr. 
Welch, for 5 minutes.
    Mr. Welch. Thank you very much. Great hearing. Great 
witnesses. I appreciate you being here.
    I will start with you, Mr. Bell. I liked your testimony. I 
have met with some folks from GE and you are doing a lot of 
good work on decentralizing, decarbonizing, and digitizing. But 
as I understand it, you are so confident in your business model 
that when you make some contractual arrangements with some of 
your customers, that you agree to be paid from the savings that 
you achieve on their behalf. Is that correct?
    Mr. Bell. Yes, in addition to being a hardware provider, as 
well as services provider around the hardware, with our digital 
business, we started offering our software in a subscription 
model, just like every other software provider in the world.
    Mr. Welch. So, you have very large customers that provide 
electricity into the grid. Are there benefits for individual 
consumers with the approach that you are taking with your 
technology and your coding?
    Mr. Bell. Yes, absolutely. So what we look at, we want to 
help our customer's customers. So today, most of our customers, 
who are power and utilities, they see their customer as a 
meter. They have no insight into beyond the meter. So we are 
partnering with solutions.
    For example, we have a separate business that we call 
Current, that is driving energy efficiency for commercial 
industrial customers of electricity, and we want to partner 
with power utilities to make sure that those systems are 
integrated back into them.
    Mr. Welch. OK, thank you very much and I appreciate the 
work you are doing.
    Mr. Stephenson, I wanted to talk to you a little bit. You 
know we have a lot of jobs in this country but we don't have a 
lot of good paying jobs. And I think the issue is paychecks is 
actually more than jobs. A lot of your folks have good jobs and 
they help keep the lights on and I just want to acknowledge 
that and thank you.
    Do you see there to be a big opportunity if we plunge into 
modernizing the grid to provide more folks with the kind of 
good jobs that your union provides?
    Mr. Stephenson. Yes, absolutely, because we are going to 
need both our employers, our utility employers, and our 
construction employers are going to need to wield their 
workforce as this moves on. So yes, absolutely.
    Mr. Welch. And I would be interested, I don't want you to 
take the time now, but your specific recommendations about job 
training. I know your union does a lot but that has got to be 
organically integrated into our educational system so that 
people who want to work can work and get jobs where they get a 
living wage. So I would really welcome, and I think the whole 
committee would welcome your concrete suggestions on that.
    One point I wanted to bring up with you, you talk about the 
permitting process. And you have got some legitimate points 
there. How does it work? It has got to be fair but ideally, it 
is timely so that there is a fair resolution in a timely way 
and that includes access to people who have got altering 
different points of view.
    But the last Congress we passed, and this was a bipartisan 
effort, the FAST Act, which, in part, created a Federal 
Permitting Improvement Steering Council to expedite permitting 
and environmental review for large infrastructure projects, 
namely, those over $200 million. I don't know if you are 
familiar with that but would you regard as at least a down 
payment on trying to get this thing in better order?
    Mr. Stephenson. I am not specifically aware of that. I do 
know this.
    Mr. Welch. That is the idea that you are talking about.
    Mr. Stephenson. Right.
    Mr. Welch. To try to get an answer, get from here to there, 
sooner rather than later----
    Mr. Stephenson. Absolutely.
    Mr. Welch [continuing]. But not cut corners on considering 
the valid environmental labor and safety concerns.
    Mr. Stephenson. Absolutely.
    Mr. Welch. Is that right?
    I want to ask Mr. Hauser, with any new grid technology has 
to be fast enough to incorporate locally generated electricity, 
which is the heart of oftentimes what renewables are. In 
Vermont, we have a focus on renewables and we have had a focus 
on efficiency. And actually by doing that, we have been able to 
save about $400 million in grid repair and grid expansion. So 
there is a lot of money to be made in using less electricity or 
using it more efficiently.
    How do we get the grid to work that way and how do we align 
it with the incentives that have to be changed for utilities 
that have generally been based on a reimbursement model, where 
the more they invest, the more they make?
    Mr. Hauser. That is a good question, and those are very 
impressive numbers, of course, in Vermont.
    I think I am impressed. VELCO is one of my members. I have 
been impressed with the work that they are doing, for instance, 
on predicting weather and being much more accurate in how to 
predict the weather impacts and effects on the grid, and that 
includes wind, solar, as well as storm recovery and so on. And 
so I think that is an example of some of the work that is going 
on to help make this much more effective.
    Mr. Welch. OK, thank you. I see my time is up.
    Mr. Chairman, I hope we can get some very concrete 
suggestions from these witnesses about one, two, three, what we 
can do to facilitate the advocacy they are presenting here 
today.
    Mr. Olson. We will do our best to make that happen. The 
gentleman's time has expired.
    The Chair calls upon the gentleman from Virginia, Mr. 
Griffith, for 5 minutes.
    Mr. Griffith. Thank you very much, Mr. Chairman.
    Dr. Howard, let me jump right in. We were talking about 
reliability of baseload, Congressman Shimkus, Congressman 
McKinley. And in your testimony, you talked about carbon 
capture, sequestration projects, et cetera. And one of the 
things you said is we have to have more research as a part of 
that discussion.
    Some of my friends, even in the Obama administration 
Department of Energy, were advocating for parity in research 
dollars between clean-burning fossil fuel research and the 
renewables. Would you agree with that strategy?
    Dr. Howard. I am not sure about parity. I would emphasize 
the importance of focusing on a broader energy mix, which 
certainly coal and nuclear, and other sources, including 
certainly renewables, is part of the mix. And we need to 
advance all of those technologies, including ensuring that the 
baseload generation, of which nuclear is a big part, continues 
to operate safely and reliably, and coal is part of it, as 
well.
    Mr. Griffith. And I appreciate that very much, coming from 
a coal-producing region that has lost thousands of jobs in the 
last several years.
    As a part of that, I have been very interested in chemical 
looping and so that is one of the reasons I would like to push 
research because it can be used both with coal and natural gas. 
And what it does for carbon capture and sequestration is if it 
works, if the demonstrations work out, we don't have as much 
expense on capture because what you get is CO<INF>2</INF>. So, 
I am very hopeful for that.
    I noticed you also touched on that we probably need to do 
some more research with carbon capture with bioenergy. And I am 
assuming that is algae. Are there other substances we can use? 
And I am one of those people that doesn't make fun of algae. We 
are not ready yet but it is a way that you can use the 
CO<INF>2</INF> and use some plant materials. But is there 
something besides the algae?
    Dr. Howard. And other biomasses.
    Mr. Welch. And other biomasses, where they use the 
CO<INF>2</INF> and convert it into additional energy.
    Dr. Howard. Right, and for some parts of the world, that is 
critically important to have those other options available. So, 
absolutely.
    Mr. Welch. I do appreciate that.
    Mr. Bell, I am going to switch to you, and I am have to be 
a little parochial. I have a GE facility. Now it is not 
apparently in the same line that you are in but you did mention 
Current a minute ago. And my plant in Salem, Virginia, which we 
are very proud of, is GE Energy Connections, which is a part of 
the Connections and Current section. So I do want to say that.
    And you also indicated that with your division, you all 
could create jobs anywhere. I have high unemployment on two 
ends of my district. It is about a 6-hour-long district, but on 
the south side and around Martinsville we have some high 
unemployment and then in the coal fields. So if you are looking 
for jobs, we have got all kinds of wonderful buildings and 
sites that we would love to show you.
    But that being said, I do want to talk about something a 
little different before I get into just a general question and 
that is the United States has always used high voltage 
alternating current for the majority of its transmission lines, 
as opposed to high voltage direct current. The world is looking 
at direct current. The economists ran an article describing the 
growing use of long distance high voltage direct current power 
lines in China. It also references a project in India on which 
GE is working.
    OK, should we be looking at this? I think there is one 
project in the United States now. Should we be looking more at 
direct current?
    Mr. Bell. I will add to the first part of your question, 
which is around coal and fossil fuel.
    Mr. Griffith. Sure.
    Mr. Bell. With regards to research and investment, I do 
agree with Dr. Howard that we believe all sorts of fuel need to 
be optimized. In fact, last year we acquired a company of 25 
data scientists who work in the coal industry, because clean 
energy means you have got to make everything clean. And we like 
the vision of decentralized energy, decarbonization and 
digitalization all working together.
    So, we will definitely look into that as we create more 
jobs, jobs in your region.
    With regards to DC, obviously we are working technologies 
like that. I am not the expert on DC versus AC, but if there 
are specific questions, we would love to follow up with you and 
share with you what we are doing and when we think those 
technologies will be used for commercial purposes.
    Mr. Griffith. I do appreciate that.
    Mr. Bell. We do see it adopted in microgrids quite a bit 
right now.
    Mr. Griffith. And I have got about 35 seconds so I am going 
to give you an opportunity to talk about something that maybe 
we haven't talked about that GE is working on that you think, 
particularly from your division where you are an expert, where 
you think that we can be helpful.
    Mr. Bell. I think we have discussed most of the 
technologies today. Thank you.
    Mr. Griffith. Well I do think that the digital aspects in 
making existing coal-fired power plants cleaner is a great way 
to go. I hope it is fairly affordable but we need people to not 
be afraid to use coal because everybody I have talked with, not 
only in this country but around the world, believes that coal 
will be a significant part of the mix well into the future. 
Would you agree with that?
    Mr. Bell. Yes, we see that across the globe and 
increasingly more plants built around in Asia, for example. So 
if it is going to be part of the mainstay, we want to make sure 
it is optimized and it is clean. So, we want to provide the 
technology so our customers can make the best determination of 
what is the right fuel mix.
    Mr. Griffith. And I agree with that. I yield back.
    Mr. Walden. Would the gentleman yield just a second?
    Mr. Griffith. I have negative 23 seconds, but you are 
welcome to them.
    Mr. Walden. I just wanted to--on the DC issue of 
transmission, in about, I don't know, probably the late 1960s, 
early 1970s, the Bonneville Power put in an intertie to 
California from The Dalles, Oregon down there. It is all DC. So 
we could hook up with Bonneville Power and all. It is, I think, 
very efficient.
    Mr. Griffith. Thank you. I yield back, Mr. Chairman.
    Mr. Olson. The gentleman yields back.
    And the Chair calls upon the gentleman from New York, Mr. 
Tonko, for 5 minutes.
    Mr. Tonko. Thank you, Mr. Chair, and welcome to our 
panelists. Great discussion. Important discussion.
    I work closely with the industry, with the union, with the 
IBEW and am proud of the fact that we have been able to move 
forward with progress. A lot longer road to go but the 
commitment is there and I appreciate it.
    Mr. Bell, earlier today you made mention of the 
intersection of the software industry and the electric industry 
and you also made mention of efficiency being required in the 
generation aspects, the delivery aspects, and consumption 
aspects.
    So in the delivery area alone, is there some order of data 
analysis, as we do these analyses of the data compiled, is 
there a biggest area that you believe of promise as to how we 
can improve and make more efficient the delivery portion, the 
transmission and distribution ends of things?
    Mr. Bell. Yes, so for us we have a simple vision that is 
across the entire electricity network. We want to start 
building. Just like Google organizes the world's information, 
we want to organize all of the analytics, all of the data 
science, all of the algorithms across the entire network.
    We definitely started a lot in the generation space. We 
have a library of analytics and data science algorithms across 
all of distribution and transmission as well. When we look at 
end use, everything from congestion to world war, all of those 
ideas are still some of the biggest areas for our continued 
research.
    I think right now the biggest challenge is most of these 
systems or opaque. Our customers do not have the right level of 
visibility and utilization of all of the data. So, as we look 
into more utilization of data, I think we will get better 
insights into what those outcomes could be that we can go 
generate.
    Mr. Tonko. The best synergy, the best structuring of 
utilizing that and providing that service to professionals, 
what is the format? How do we best structure that?
    Mr. Bell. So our customers are adopting our IoT platform 
that we call Predix and they are deploying solutions they call 
asset performance management. So it doesn't matter if it is a 
substation or a grid or a transmission or a distribution. All 
of those systems can be monitored so we can get better insights 
into.
    So the best way is analytics, insights, and applications 
around being able to run those systems.
    Mr. Tonko. OK. And you mentioned the GE R&D lab.
    Mr. Bell. Yes.
    Mr. Tonko. Very proud of the institution and the workers. 
The professionals are magnificent.
    What are the effective ways to integrate renewables into 
the grid. Is digitization something that can best help that, 
support that integration?
    Mr. Bell. Yes, today it is software at all levels. For 
renewables, for example, just about few years ago we were 
capturing data that was about every few minutes at a wind farm. 
Now we can capture data at every sub-second and all that data 
stays locally within that plant, and we can make local 
decisions around how to optimize improvement in wind 
performance. So we are able to, just by software, for example 
in the last few years, we can improve wind turbine and wind 
farm performance by up to five or ten percent. That is five or 
ten percent more power from the same wind. But when you also 
combine that with forecasting and predictability, we now have 
better algorithms to integrate them into the grid. And when you 
combine that with the ability to ramp up or ramp down other 
sources of fuel, it gives operators confidence to be able to 
incorporate all sources of fuel into the mix and also 
confidently bid into the market.
    So we think it is a combination across all of that and also 
the grid, as well, to be able to take on those new sources of 
fuel.
    Mr. Tonko. Thank you. And Dr. Howard and Mr. Hauser, have 
you been sensing this also, that the smarter grid is making the 
integration of renewables a whole lot easier and more 
effective?
    Dr. Howard. Absolutely, and I would add one other 
technology that is important, and that is the inverter. That is 
the device that fits between the renewable and the grid. And we 
have made tremendous progress in improving the technologies 
around the smarter inverter. So that is a big enabler.
    Mr. Hauser. I was in the control center at Texcel just a 
few weeks ago and watched them manage a very large fraction of 
wind power on their system. And one comment that they made is 
that they actually can send signals to the wind turbine now, 
which they didn't in the past. So they can actually control the 
wind turbines up and down to meet the load.
    Mr. Tonko. Now your groups have also been involved with 
DOE's research efforts and the Grid Modernization Initiative, I 
believe. And that has proved beneficial?
    Dr. Howard. Absolutely. And the most important thing is, 
what it has done is allowed us to demonstrate the technology 
and show that it works or not. And if it doesn't, we can 
improve on it.
    Mr. Hauser. Tremendous capabilities across the lab system 
is, I am sure you are aware, including Brookhaven in New York 
and the GMI project at DOE has helped to integrate those, so 
that they talk a lot better amongst each other and they work 
together on joint projects very effectively.
    Mr. Tonko. Thank you. Well, I see my time up, Mr. Chair, 
and I will yield back.
    Mr. Olson. The gentleman's time has expired.
    The Chair calls upon the gentleman from Indiana, Mr. 
Bucshon, for 5 minutes.
    Mr. Bucshon. Thank you, Mr. Chairman. Thank you all for 
being here. I will be brief.
    I support an all of the above energy strategy. And I was in 
Europe recently talking with some energy companies and the 
question that I am concerned about is what do you do about the 
reliability of the grid when you have a large percentage of 
renewables that are counted on for baseload. And what they are 
finding in Europe is they are going backwards and building 
coal-fired power plants and other things because they have to 
have those for reliability reasons. So it is not just about 
generating energy. It is about reliability of the grid.
    Does anyone have any comments about where we see America 
going? Because every coal mine in the State of Indiana is in my 
district. My dad was a United Mine Worker for 34 years. 
Everybody I knew was in the coal industry. It was a great job. 
My main concern is reliability of the grid and if we go too far 
and we don't have that backup--look, I am all for renewables 
but we have to be realistic here. I would just be interested in 
your thoughts.
    Dr. Howard. So what you are pointing out is the importance 
of not just having enough energy but having adequate capacity 
to fill in the voids. And that is one of the issues they ran 
into in Germany. And so we are getting to the point where we 
are energy-rich but capacity-poor, and that reinforces the need 
for baseload generation.
    Mr. Bucshon. I just want to reinforce what you just said. I 
mean we will just go down the line.
    Mr. Bell. In Germany there was clearly a major problem. 
They had to curtail more than 1,500 gigawatts. And we see 
challenges for power plants that were built in the baseload era 
to be actually competitive in the ancillary services market. 
So, we are actually using software today.
    In fact, there was a power plant in northern Italy that was 
shut down, and we were able to reopen that power plant with 
software, purely through software, because we are now able to 
make it competitive in the ancillary service market.
    So every single power plant that is designed in a baseload 
era, we can actually make it flexible with software and 
technology so we can actually allow for the more integration of 
renewables and compensate for that with the void.
    Mr. Bucshon. So quickly, how do you then--say you have a 
power plant and you are running at 40 percent capacity. How do 
you have enough people there when something happens with 
renewables and you have to go to 80 percent capacity. I mean 
that is a challenge, right?
    I mean, Mr. Stephenson, you might comment on the workforce 
issues as it relates to this type of thing.
    Mr. Stephenson. Yes, it is, and like you said, to have that 
workforce there waiting. One thing about natural gas is they 
can fire up and shut down a gas unit a little quicker than, 
say, nuclear, for example. You pretty much have your workforce 
there around the clock, but it is very important that they are 
there.
    So there are different forms of baseload. Of course, coal, 
again, I believe should be in the mix, to have the opportunity 
to bring it up when needed. And maybe having some smaller units 
that are, as time goes on, smaller units that could be fired up 
and quicker in a faster manner.
    Mr. Hauser. The industry has gotten so much better just in 
the last few years about being able to predict the wind and 
solar. And so they can anticipate it extremely well these days. 
So that is certainly helpful.
    I want to do a short call out to Indianapolis Power and 
Light, who just won an award a couple of weeks ago from the 
industry for some of the work they are doing around storage. 
And storage is certainly going to be a key aspect of this as 
well.
    Mr. Bucshon. I mean, there is a real-world example in the 
United States. A number of years ago, we had that polar vortex. 
And I am talking to the energy folks, and I am not an energy 
expert but, in the northeast, for example, we were like really 
this close to brownouts because they had to buy power from, I 
would say, Midwestern coal-fired power plants, and those plants 
had to ramp up and really run.
    And the other thing is, they didn't have the infrastructure 
in place for natural gas and other things. They were at 
capacity because of issues we have had with building out 
infrastructure in certain areas of our country. So that kind of 
ties this whole thing.
    And I think it is important for people watching this 
hearing to know that the reliability issue and the stability 
issue, not just how the power is generated, is really 
critically important to the future of our country and our 
economics.
    And does anybody have any final comments? I have 30 
seconds.
    Dr. Howard. I would just say that is the importance of 
storing the energy on-site. Nuclear, you can store it 18 to 24 
months. Coal, you can put it in a coal pile. In times of need, 
you don't have to ship it in. You may not be able to.
    Mr. Bucshon. Thank you, Mr. Chairman. I yield back.
    Mr. Upton [presiding]. Mr. Sarbanes is recognized for 5 
minutes.
    Mr. Sarbanes. Thank you, Mr. Chairman. I thank the panel.
    We have an incoming Secretary of Energy. The Department of 
Energy, at one point, had talked about eliminating the 
Department of Energy. He has changed his mind on that, I 
imagine partly because if that happened he wouldn't have a job, 
but also, I think, because he recognizes that we do have to 
make smart investments through a kind of partnering with 
private industry, with rate payers, and so forth.
    So I would like to hear from each of you briefly your 
perspective, and you have obviously touched on this already, 
but the important role that the Department of Energy can play 
in leveraging the kinds of partnerships that can strengthen the 
grid across the country. If you want to site come examples of 
that kind of investment you have seen already, as you talk 
about what we can have going forward, that will be helpful as 
well.
    I authored, in the last Congress on a bipartisan basis, a 
bill that would encourage and provide resources to the 
Department of Energy to give financial assistance to these 
kinds of public-private partnerships to make sure we are 
upgrading the grid and we are going to reintroduce that again 
and look forward to support for that kind of legislation.
    So, I will just ask you to go down the line quickly.
    Dr. Howard. OK, thanks. We partner a tremendous amount with 
the Department of Energy and their national labs. It is an 
incredible resource that we have in the U.S., unlike any other 
country. It is important that we continue to encourage the 
development of basic research that will help us address many of 
the issues that we are facing here today.
    So, strong supporter, they are a great partner and we enjoy 
working with them.
    Mr. Sarbanes. Thank you. Any other thoughts?
    Mr. Bell. So, in addition to research at the DOE level, 
engaging private-sector communities to go to drive innovation 
on top of that at the intersection of digital and hardware, and 
we would also say promotion of more industry-led performance 
standards. We don't need standard mandates. What we need is the 
industry will figure out where we need promotion of those 
standards and commitment for some policy to promote the support 
of these future technologies.
    Mr. Sarbanes. Great.
    Mr. Stephenson. The IBEW, we work very closely with the 
Department of Energy and, particularly, with Secretary Moniz, 
and what he has done with our director, Jim Hunter, who is the 
director of our utility department. We have worked very closely 
over the last few years talking about the energy, where we are 
going in the country and some of the needs. And so we think 
that is crucial to continue to have the Department of Energy 
involved.
    Mr. Hauser. We certainly support the demonstration projects 
that you have talked about in your legislation. I have heard 
the modernization of the grid referred to as trying to 
modernize a 747 while it is in flight. So, it is not like we 
can shut down the grid, rebuild it, and then start it back up 
when it is all modernized. It has to happen in real time. So, 
demos become extremely important because we need to know for 
sure that these technologies will work in the way that we 
expect them to, when they are installed in the grid. So that 
becomes important.
    Plus, a lot of the large-scale demos can be extremely 
expensive and Mike can certainly attest to that, that the 
industry need support, Federal support for sure to do a lot of 
these demos that can be pretty expensive.
    Mr. Sarbanes. Thank you.
    Mr. Stephenson, I wanted to ask you a question. I had the 
privilege of working with a terrific partnership in Baltimore 
that is looking at installation of solar panels and basically 
trying to continue to aggressively in not just building that 
workforce but building that part of the energy portfolio. And I 
think you are probably very familiar with some of the 
statistics, the number of solar workers in the country increase 
by 25 percent over 260,000 and have been increasing by at last 
20 percent every year for the past 4 years. One in 50 new U.S. 
jobs were in the solar industry, which is incredible. And the 
median wage for those installers is $26 per hour.
    So I wondered if you could just give us a few seconds on 
what kind of opportunities the solar energy part of the 
portfolio is offering to your members.
    Mr. Stephenson. Well, you know, solar is continuing to grow 
in leaps and bounds, not only large solar fields, if you will, 
but also individuals, people putting it on their homes and 
otherwise and starting to use solar.
    For the installation, we get a lot of work installing those 
processes. But again, afterwards, there are not a whole lot of 
jobs that follow the installation, once they are up and 
running.
    Mr. Sarbanes. Thank you. I yield back.
    Mr. Upton. Thank you. The gentleman's time has expired.
    The Chair will recognize Mr. Long from Missouri.
    Mr. Long. Thank you, Mr. Chairman.
    Mr. Hauser, can you take a moment to describe what a smart 
Grid is and how it differs from the electricity systems of the 
past?
    Mr. Hauser. Of course. I mean, this has evolved over many 
years. It is still evolving. I actually like to talk about it 
as a smarter grid and not just a Smart Grid. Smart Grid sounds 
like a thing. What it is, is an evolution of using 
technologies, communication technologies, sensors that have 
become very cheap and easy to install so that we can understand 
better how the grid is operating.
    As you probably know, only just a few years ago, utilities 
didn't see anything below the substation. And now they do. And 
that is becoming increasingly important for them to see the 
operations, voltage levels, frequency levels, impacts on 
customers, outages, and so on.
    Mr. Long. Thinking about impact on customers, how does a 
Smart Grid or smarter grid, as you call it, expand the consumer 
choice?
    Mr. Hauser. So it provides consumers with a much better 
insight into how they use electricity and how their use of 
electricity impacts the grid. So, for instance, if it is 4:00 
in the afternoon and the grid is being stressed and called on 
to provide electricity at a very high level and consumers are 
aware of that, they can reduce their usage in the afternoon to 
help stabilize the operation of the grid.
    It certainly has become impactful in certain parts of the 
country when there are storms or when there are heat waves that 
really can stress the grid.
    Mr. Long. OK, thank you.
    Mr. Stephenson, what can Congress do to improve workforce 
training and education for the electricity sector?
    Mr. Stephenson. Well mostly, the training that we do 
specifically with our contractors is really self-funded. We 
fund ourselves. Through our collective bargaining agreement, we 
have funding that goes into our apprenticeship programs. And so 
all the training we do is pretty much self-funded. However, we 
do rely, as brought up earlier, on community colleges and 
others to help prepare new employees, new members to come into 
our programs. But we pretty much fund our own system within the 
IBEW structure.
    Mr. Long. OK, thank you.
    Mr. Howard, in your testimony you discussed the Integrated 
Energy Network where energy systems and services are more 
connected with the resources that they utilize.
    You state that separate regulation of these systems can 
make it harder to realize any gains from integration. Could you 
discuss how the current technology process hinders this 
integration?
    Dr. Howard. The current technology that we are talking 
about here enables more optimal integration. So it doesn't 
hinder. It actually enables it.
    The communication centers, computation, analytics, and so 
on that we have talked about here really are important enablers 
for allowing this energy system to be more----
    Mr. Long. We are talking about the regulatory process. How 
does the regulatory process?
    Dr. Howard. OK, how does the regulatory? Well, I think it 
is an awareness that what happens in one energy sector, whether 
it is water, or petroleum, or others, does impact everything. 
And that is really at the heart of our discussion and our 
vision of the integrated energy network, that it all has to 
work together and you can't regulate it in one sector by the 
other. It has to be----
    Mr. Long. That is my next question. What approach should 
regulators take to improve integration?
    Dr. Howard. That is exactly what I talked about this week 
at NARUC, which is an awareness that all of this fits together. 
We have to look at it much more holistically and step back and 
say if we are going to have a more resilient, affordable, safe, 
environmentally responsible energy future, then we have to look 
at it much more holistically and integrate it together.
    Mr. Long. Talking about renewable energy integration, what 
are some of the industry challenges that you face?
    Dr. Howard. What are some of the challenges we face with 
integrating renewables? Well, the one is that it is variable. 
And the variable generation of renewables with a baseload and 
the flexibility that we need not only across the entire grid, 
but also the flexibility we need on both ends of the grid, both 
in generation and renewables. We are approaching an area here 
where we haven't ever had this. It is a two-way power flow, 
much more unpredictable, not as much forecastable, and not as 
much dispatchable. And when you put all of that together, that 
is why we absolutely have to have a more integrated energy 
network.
    Mr. Long. Well, how can we strengthen and expand the 
transmission system to support the integration?
    Dr. Howard. Well, first is the recognition that we are 
going to need more transmission. We are going to need to 
upgrade the transmission system. We need to invest the money to 
modernize it, the infrastructure, the training, everything that 
we have been talking about here. You can't do this--in fact I 
have said several times that if you want to move forward with a 
digitized, a highly dynamic interactive grid, you are going to 
have to have more grid. And that starts with the transmission, 
upgrading, modernizing, the same with distribution.
    Mr. Long. OK, Mr. Chairman, I yield back. Thank you.
    Mr. Upton. The gentleman's time expired.
    The Chair will recognize the gentleman from North Dakota, 
Mr. Cramer, for 5 minutes.
    Mr. Cramer. Thank you, Mr. Chairman. Thanks to all of our 
panelists. A special thank you to Mr. Stephenson.
    My daddy was a proud member of the IBEW for I guess 60 
years, up until his death. And probably one of my proudest 
artifacts are his hooks, and his belt, and his hard hat, and 
his pin. So, welcome.
    You all have covered so many things that every time one of 
you speaks I think of a couple other things I want to ask you. 
So I am going to focus on two things.
    I am going to stay with the DOE because there has been some 
really good discussion lately. And I thought Mr. Sarbanes 
touched on some issues related to the R&D, and some of you have 
spoken about how closely you work with DOE. And I have studied 
DOE fairly significantly in the last several months, and one of 
the things in the R&D that I have noticed is there are these 
applied research sort of silos, I call them, and that, while 
there are wonderful innovators at DOE that you all work with, 
no doubt, it seems to me we could even loosen that up a little 
more, maybe not have the research be so specific to--I would 
rather see an outcome that would be achieved with more 
innovation at that level, working with our private-sector 
friends.
    Is that a relevant--it is not a criticism, necessarily, but 
we are going to be talking about DOE reorg eventually in this 
committee, and I would like to see some real innovation take 
place in the reorg itself that could unleash some of these 
incredible resources there.
    So, Mr. Howard, if you want to begin, that would be great.
    Dr. Howard. So there is a lot of innovation that is 
occurring at the national labs.
    Mr. Cramer. Right.
    Dr. Howard. I have been to many of the national labs. I go 
there. I look at what they are doing, and it is incredible. And 
we need to reinforce the importance of that and then get it out 
and get it applied.
    EPRI is focused on applied research. We want to take that 
basic research and figure out the best optimal solution to 
solving these problems. So we are kind of on the back end. But 
if you don't have the front end, you are not going to have a 
back end. That is why I am emphasizing points of basic 
research.
    Mr. Cramer. Anyone else? Mr. Bell.
    Mr. Bell. Yes, we love the idea of outcomes. In fact, we 
think, yes, we should do fundamental science research and 
applied research, but to solve system-level problems, you need 
to look at the whole outcome. In fact, we have a business model 
that we call outcome as a service, just like our customers can 
buy software. And what happens is when you think about an 
outcome, whether it is fuel efficiency or integration of 
renewables or now we want to incorporate more mobility, 
intelligent transportation or electrified transportation, you 
intend to solve the whole problem versus pieces of the problem. 
So I do think there are big initiatives that when we think 
about the future of digital electricity infrastructure, we have 
big use cases to go solve. So we should look at some of those 
use cases as big outcomes that we want to go solve and fund 
research at that level, as well. We like that.
    Mr. Hauser. I am certainly concerned that our current 
administration will look at DOE and look at it as an 
opportunity to reduce the funding for the good R&D that they 
do. As I am sure that you know, the funding at DOE has gone up 
and down over the years. That is not a good thing. It is 
difficult to manage against budgets that increase and decrease 
a lot. I think stability is very important for an R&D mission, 
and it is also the focus sometimes tends to go more towards 
basic. And I think, as you have said, applied research, working 
with industry, is extremely important, especially in this 
sector and especially now, these days.
    Mr. Cramer. Well, I appreciate that. Mr. Hauser, what I 
would say is that I think without decreasing or increasing that 
R&D budget, by knocking out some walls, making the research 
more outcome-based, rather than fuel-specific or politically 
based, we can get a lot more out of the current budget.
    With that, I just want to end with a question about--we 
have heard a lot of talk about double circuiting, is what we 
used to call it, when I sited many transmission lines as a 
regulator and we would build these massive towers for the 
future. And I think that is all great, but sometimes I get a 
little concerned that we are willing to give up sort of 
geographic diversity, which is critical to that redundancy and 
reliability.
    Do we need to be careful to not put all of our 
infrastructure in one corridor, that one storm can take out 
multiple resources?
    Mr. Hauser. Yes, and diversity is good.
    Mr. Cramer. I like simple answers. With that, I yield back.
    Mr. Hauser. Absolutely.
    Mr. Cramer. Thank you.
    Mr. Upton. The gentleman yields back. Seeing that there are 
no further members wishing to ask questions of the first panel, 
I want to thank you all for being with us for the last number 
of hours. I appreciate that. We all did. So you are now 
excused. That concludes our first panel.
    We are going to take a few minutes to set up. I know 
originally we thought Panel II would start at 1:00. So, we are 
going to start 5 minutes early, because we are expecting votes 
on the floor perhaps around 1:15.
    So my goal is to have the second panel actually give their 
testimony. Then, we will adjourn, recess for the votes, and 
then come back for questions. So, that is what our intention 
is.
    So with that, the first panel is excused. Thank you.
    Thank you very much.
    [Recess.]
    Mr. Upton. We just had a series of votes on the floor, and 
we are all walking back. And we did our opening statements 
earlier, so we will not repeat those.
    I want to welcome you back. Sorry we are starting a little 
later than we had anticipated. We are now moving into our 
second panel. And as the first panel, we appreciate you all 
submitting your testimony in advance. I read all the testimony 
last night, actually yesterday afternoon.
    So we are joined by Terry O'Sullivan, General President of 
the Laborers' International Union of North America; Mr. Rex 
Ferry, owner and CEO of VEC, Inc. on behalf of the National 
Electric Contractors Association; Kim Kann, private citizen. 
Moving testimony. Thank you again. Chad Harrison, Councilman 
at-Large of the Standing Rock Sioux Tribe; and Joey Mahmoud, 
Project Director of the Dakota Access Line.
    So, again, your testimony is part of the record. If you 
would, take no more than 5 minutes to summarize it. We will 
start with Mr. Harrison. And when we are completed, we will do 
questions on both sides of the aisle.
    And I know the Democrats are on their way. They know that 
we are doing the testimony first. And again, they have read it 
as well, but they will be coming in as our Republicans who are 
not here yet.
    So, Mr. Harrison, welcome. Thank you. Thanks for being 
here.

STATEMENTS OF CHAD HARRISON, COUNCILMAN AT-LARGE, STANDING ROCK 
  SIOUX TRIBE; KIM KANN, LANCASTER COUNTY, PENNSYLVANIA, LAND 
 OWNER; REX FERRY, PRESIDENT AND OWNER, VEC, INC. ON BEHALF OF 
     THE NATIONAL ELECTRIC CONTRACTORS ASSOCIATION; TERRY 
O'SULLIVAN, GENERAL PRESIDENT, LABORERS' INTERNATIONAL UNION OF 
    NORTH AMERICA; AND JOEY MAHMOUD, VICE PRESIDENT, ENERGY 
    TRANSFER PARTNERS, AND PROJECT EXECUTIVE, DAKOTA ACCESS 
                            PIPELINE

                   STATEMENT OF CHAD HARRISON

    Mr. Harrison. Thank you, Mr. Chairman. Mr. Chairman, 
members of the committee, I am Chad Harrison, a Tribal Council 
member from the Standing Rock Sioux Tribe. It is an honor to be 
here today.
    As the committee is well aware, Standing Rock Sioux Tribe 
has opposed the Dakota Access Pipeline because of our concerns 
about our waters and our sacred sites. We have said from the 
beginning that the impact of an oil spill would be devastating 
on our people, and we have a strong obligation to future 
generations to protect them from that harm.
    This matter is currently in litigation. Just yesterday, our 
lawyers filed for motion for summary judgment to address our 
basic claims. Our position is straightforward. The Army has 
never, to this day, evaluated the impact an oil spill would 
have on our waters or our treaty rights. That evaluation needs 
to be done through an EIS, as promised to us before that 
promise was then taken away a couple of weeks ago.
    Our litigation raises basic issues of fairness. The 
pipeline was originally routed across the Missouri River north 
of Bismarck, away from our reservation, but it was determined 
that the risk of an oil spill was too risky for the drinking 
water and wildlife interests near Bismarck. So, they rerouted 
the pipeline to cross the river just upstream from the 
reservation. How can a pipeline be too risky for the water 
supplies of Bismarck, but be perfectly fine for the water 
supplies of my people?
    We have seen this kind of treatment throughout our history 
and we believe that we are entitled to a greater measure of 
fairness and justice. Along these lines, I have read the 
testimony from Dakota Access to this committee and it strikes 
me that there is a deep underlying irony there. Dakota Access 
argues that it is the victim here. But Dakota Access is a 
multibillion-dollar pipeline company in which the President of 
the U.S. has been an investor and its CEO is a campaign 
contributor to the President. When in history has such a 
company been the victim of an impoverished Indian Tribe? The 
answer is never.
    And when they say their pipeline is safe, I ask then why 
was the original route changed if there is no risk of an oil 
spill at all? And why did you never allow an independent review 
of your secret documents on which you base your claims of 
safety? The point is, they are simply not telling you the full 
story.
    These and other questions need to be resolved by the 
courts. And we are confident that the courts will vindicate the 
Tribe's position. But I am here today to discuss what I believe 
are some of the opportunities arising from our experience with 
this pipeline.
    First, we do not oppose energy independence, economic 
development, or the protection of national security, but these 
goals must be advanced in a way that recognizes and protects 
Tribal culture resources, sacred places, and resources. For too 
long, decisions have been made and the Federal Government has 
acted in a way that places too much burden on Indian Tribes. We 
can all achieve prosperity together, but only if the costs of 
development and infrastructure are shared fairly. It is time to 
end the long-standing approach of forcing Tribes to bear the 
costs of prosperity for others.
    Second, Tribes need to be full partners in the process of 
infrastructure decisions from the beginning. I truly believe 
that if there had been meaningful consultation with the Tribe 
at the very beginning regarding Dakota Access, we all could 
have avoided the lengthy dispute that has arisen. When Tribal 
interests are ignored in the beginning, it is much harder to 
resolve the matter than when those interests are properly 
addressed by the Federal decision-makers at the outset. 
Requiring proper Tribal consultation at the beginning leads to 
better results and less litigation about these matters.
    Third, when we talk about meaningful consultation, we mean 
high-level Government-to-Government discussions that are 
comprehensive and collaborative that seek to obtain Tribal 
consent. All too often, Federal agencies treat Tribal 
consultation as a check-the-box exercise, rather than a solemn 
obligation. This mindset must change, as the absence of proper 
consultation can lead to very extensive problems later.
    Fourth, the law regarding these matters needs to be 
amended. Where oil pipelines are concerned, decisions are made 
in a piecemeal way and there is no process for considering the 
impact of the pipeline overall.
    As far as Tribal interests are concerned, the law needs to 
be strengthened so that when Tribal treaty rights and lands are 
involved, Tribal consent is required or, at the very least, 
that the Tribe has the ability to impose conditions to protect 
Tribal homelands.
    Committee, our Tribe has a voice, and it demands to be 
heard on these issues. It demands to be heard on the front side 
of the issues, the front side of infrastructure development.
    I want to restate that we are not against development of 
any sort. We are not against unions. We are not against jobs. 
We are for responsible and reasonable infrastructure 
development, and we wish to be included. We wish to be heard. 
We are Americans. We are the first Americans, and we wish to be 
treated as such.
    Overall, we believe that more needs to be done to improve 
the processes of infrastructure approval for the benefit of 
native peoples and all Americans. We look forward to working 
with the committee on this important matter.
    Thank you for your time.
    [The prepared statement of Mr. Harrison follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
      
    Mr. Upton. Thank you for your testimony.
    Ms. Kann, welcome.

                     STATEMENT OF KIM KANN

    Ms. Kann. First of all, thank you for inviting me here 
today. My name is Kim Kann. I want to commend the earlier 
speakers today for the really relevant and compelling testimony 
about how the industry is helping to keep our lights on, and 
our houses warm, and our businesses energized.
    I am a 33-year STEM teacher, and I am canceling my lesson 
plans tomorrow to share with my students many of the things 
that I learned here this morning, because it was very exciting.
    I'm here, however, to give a voice to the landowners who 
have had their dreams and financial security shattered by the 
unjust use of eminent domain for projects that are intended 
primarily to export U.S. energy.
    I was blessed to raise my three sons on a small family farm 
in rural Lancaster County, PA, and grateful to be able to give 
them the perfect childhood haven; a stream for building dams, 
hidden campsites for sleeping outside, and a small pasture for 
a few horses that could teach them about patience and 
responsibility. Nothing was handed to us. Everything was the 
product of careful spending, self-reliance, hard work, and the 
dream was to pass that property on to my boys.
    In the spring of 2014, my community was stunned to learn 
that William Partners intended to build a gigantic 42-inch 
1580-pound per square inch Atlantic Sunrise natural pipeline 
through our community. So first, we studied exactly what that 
meant and we found that the proposal brought no benefit to us 
and potentially much harm and we opposed it; 1700 of 2300 
registered voters returned petitions saying so.
    And from the laundry list of harms we were facing, the 
issue of eminent domain was the most egregious. How could 
American landowners be forced to surrender their homes to a 
profit-making corporation that plans to export natural gas, 
while being forced to pay real estate forever on land that they 
would no longer own?
    My story: My narrow 20-acre farm will now be cut in half. 
The far ten acres is only accessible by crossing a right-of-way 
that will be completely controlled by Williams. The bedrooms 
will be in the hazard zone, which guarantees catastrophic burns 
or death in the event of an explosion.
    My story is echoed by my neighboring landowners, 36 who 
refused to sign easements in Lancaster County, people like John 
and Deb Swanson, who own a small farm. Much of their land will 
be taken and their home will lie well within the hazard zone. 
John is a proud Marine veteran who served America with honor. 
The country he defended is planning to allow a private 
corporation to take land that has been in his family for 
generations.
    Or Laura and David Banta, who will have the pipeline pass 
feet from their bedrooms.
    Or Linda Like, who has owned a small tract of farmland that 
she planned to sell for building lots to finance her 
approaching retirement. No one can build on it. So, retirement 
is no longer in her plans. She is trying to sell, but no one is 
interested.
    We get that sometimes land needs to be taken for the 
benefit of the community. So, we looked for benefits. And from 
this project, locally, there were none. And beyond that, we 
found negatives that far outweighed positives. We hired a 
pipeline feasibility expert, Dennis Witmer, whose results can 
be found on the You Tube video, A Perspective on Natural Gas 
Markets, who found that there is no domestic demand for the gas 
that is to flow through this pipeline. In fact, we currently 
enjoy low natural gas prices because there is a glut. And keep 
in mind, much of the gas planned for Atlantic Sunrise is for 
export.
    There is no local access, so our community and our 
neighbors cannot connect into the line. Claims of jobs are 
misleading, as most workers come from far out of State. And how 
do you justify supporting new jobs to create wealth for some at 
the expense of other hardworking citizens? We discovered our 
beloved preserved farms with world class soils, 106 supposedly 
protected for eternity with tax dollars and private donations, 
were targeted because of their open space and reduced land 
value.
    We started following the news and saw catastrophic pipeline 
failures in San Bruno; Appomattox; Salem Township, 
Pennsylvania; Sissonville, West Virginia; and just this week in 
Baton Rouge, Louisiana, where two men were gravely injured and 
one is presumed dead, to name a few. This raises the risk of 
evacuation, contamination, catastrophic explosion, or death in 
our community from zero to something much higher.
    The route through my township of Conestoga passes through 
four State-registered Native American cultural sites and 86 
along the entire route. We learned that fracking is 
contaminating water and frack waste is difficult to dispose of 
and natural gas is not as clean as advertised, with methane 
being 80 times worse as a contributor to climate warming.
    I would like to quote directly from the GOP Platform for 
2016 defining the American Dream: ``It means a decent place to 
live, a safe place to raise kids, a welcoming place to retire. 
It bespeaks the quiet pride of those work hard to shelter their 
family and, in the process, create caring neighborhoods.''
    The reality of a decent, safe, guaranteed place to live and 
retire is about to be ripped away from us, many of us. A 
30,000-more miles of pipeline as slated in Pennsylvania by John 
Quigley in his State Impact Report of 2015, using the numbers 
from our pipeline in our county, 137,000 Pennsylvania 
landowners could face seizure of private property.
    And as powerful corporations profit from the gas that flows 
to export, they will pay inflated executive salaries and 
dividends to shareholders.
    The reality is our financial assets, will be seized and 
redistributed. That is corporate welfare at its worst.
    This is what it has come to. In our small, very 
conservative town, in just 3 weeks, over 500 local residents 
have pledged to participate in non-violent civil disobedience 
to stop this project and their numbers are growing daily. 
Although framed as radicals, and far left crazies, they are 
really just counselors----
    Mr. Upton. Ma'am, if you could please just sum up, that 
would be great.
    Ms. Kann. Sure.
    They are just regular people that would like to have their 
voices heard.
    And I am asking that all of you, Democrats and Republicans 
alike, work to find a solution to this issue, because they are 
going to make their voices heard, one way or the other. Thank 
you.
    [The prepared statement of Ms. Kann follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    Mr. Upton. Thank you.
    Mr. Ferry.

                     STATEMENT OF REX FERRY

    Mr. Ferry. Thank you Chairman Upton and members of the 
subcommittee for inviting me here today to testify. On behalf 
of the National Electrical Contractors Association, we greatly 
appreciate the opportunity to submit a statement for this 
important hearing.
    My name is Rex Ferry. I am President and CEO and owner of 
Valley Electrical Consolidated, VEC, which is located in 
Girard, Ohio. I am also past president of NECA and having 
served from years 2009 to 2011.
    Shortly after graduating from high school, I entered the 
electrical trades and began working for Valley Electrical. I 
quickly moved up through the ranks from foreman to project 
manager before making the decision to purchase the company in 
1990. Our vision, VEC's vision is to serve others with 
integrity for the sake of our future generations and resulted 
in significant growth. VEC started as a family-owned business 
providing electrical contracting services in regional 
factories, automotive production lines, steel mills, and 
created the diversity it needed for sustainability for the 
future and employing as many as 400 workers across multiple 
trades during the height of the construction season.
    And our business is truly a family firm. We have 26 family 
members working across the spectrum. With the arrival of my 
granddaughter, I am pleased to say we now are a third-
generation family-owned company.
    Energy production within the oil and gas industry has 
proven to be one of the most promising job creators and revenue 
generators in oil and gas markets are both directly and 
indirectly and they make up over 65 percent of our revenue over 
the past 6 years, which has allowed Valley to reinvest tens of 
millions of dollars in vehicles, equipment, tools, technology, 
and buildings.
    Prior to the oil and gas energy boom, this scope of work 
experience was not prevalent in Ohio. In fact, it did not even 
exist in the Midwest. The area surrounding Youngstown, Ohio, 
has tremendous growth, directly and indirectly, because of the 
Utica and Marcellus Shale oil and gas industry. In its peak, 
there wasn't a hotel room during the week available. And so 
this also is helping the hospitality industry.
    A 2012 study commissioned by the U.S. Chamber of Commerce's 
21st Century Energy Institute says the extraction of 
unconventional shale oil and gas through horizontal hydraulic 
fracking has created job booms even in States that do not 
actually have shale deposits; 1.7 million jobs have already 
been created and a total of 3.5 million jobs are projected to 
be created by 2035.
    This growth extends into the chemical industry. A recent 
Price Waterhouse study shows that by 2025, Ohio, Pennsylvania, 
West Virginia will be the number one capitol producer in the 
world and creating one million new jobs.
    The electrical construction industry has played a key role 
in assuring the U.S. will have adequate and reliable electrical 
power supply. In fact, the concept of the electrical 
construction worker has evolved dramatically over the past 
decade. Today, nearly 50 percent of the electrical contractors 
are performing work on almost 40 different project services.
    In today's global economy, widespread adoption of the new 
energy technologies has slowed due to economic, Government, and 
marketplace barriers. We believe there is a fresh opportunity 
for the Federal Government to unleash unprecedented 
development, exploration, construction, and production of this 
sector.
    There are some challenges that must be met if we are to 
achieve these goals in moving the fruits of our energy 
development to market. Now is the time to fully invest in the 
Nation's infrastructure. We are very encouraged by the actions 
of the pipeline construction taken by the Trump administration. 
From VEC's experience, I can report in the last couple of weeks 
the opportunities have increased dramatically.
    Thankfully, this committee has helped overhaul 
environmental review of infrastructure projects and we believe 
even more can be done to ensure permitting decisions are made 
in a timely manner. Electrical construction companies want to 
grow and they need capital to make that happen. We urge 
Congress to examine how to better increase the access to 
capital and credit for the construction industry.
    It is also necessary we recruit young and talented workers 
through our apprenticeship training programs, which offer high-
tech, high-skilled, high paying careers that come with 
rewarding pay, with full health benefits and a promise of 
retirement plans.
    We hope that Congress will enact a comprehensive energy 
strategy that promotes the development on all available energy 
resources.
    Thank you for this opportunity to testify in this very 
important hearing. NECA and VEC applauds the committee's 
efforts and we continue to offer our support to advance the 
committee's agenda and look forward to working with you in the 
future.
    Thank you.
    [The prepared statement of Mr. Ferry follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    Mr. Upton. Thank you, Mr. Ferry.
    Mr. O'Sullivan, if you are ready. Right here. We were a 
little worried, you didn't take that water.
    Mr. O'Sullivan. I am wearing a tie.
    Mr. Upton. All right.
    Mr. O'Sullivan. I am recovering from a cold, thanks.
    Mr. Upton. All right. Well, welcome.

                 STATEMENT OF TERRY O'SULLIVAN

    Mr. O'Sullivan. Chairman Upton, Ranking Member Rush, and 
members of the Subcommittee on Energy, on behalf of the 500,000 
strong, proud, and united men and women of the Laborers' 
International Union of North America, I want to thank you for 
the opportunity to testify here today. It is both an honor and 
a privilege to do so.
    As the people who build, repair, and maintain our Nation's 
critical energy infrastructure, LIUNA members support a 
reasonable, rational, fact-based energy policy. We support 
regulatory reform that streamlines the permitting process, 
allows reviews by separate agencies and entities to proceed 
concurrently, and provide, for timely, definitive decisions 
that enable approved projects to proceed without delay. This 
should be a bipartisan agenda to create millions of new jobs 
across many sectors of the economy, while modernizing our vital 
energy infrastructure and ensuring America's energy 
independence.
    The American Society of Civil Engineers has given our 
energy infrastructure a grade of D plus, yet opposition to 
almost every energy project has threatened to derail all 
serious attempts to address this crisis. It also threatens the 
creation of good, middle-class-family-supporting jobs.
    For workers in communities throughout the United States, 
pipeline projects are lifelines. Today, LIUNA has more than $50 
billion worth of pipeline work under contract. Tens of 
thousands of highly trained, safe, and skilled building trade 
members are being put to work for years to come on projects 
such as the Dakota Access Pipeline that the President's 
Executive Order has allowed to move forward, the Atlantic 
Sunrise pipeline, the Rover pipeline, the Atlantic Coast 
pipeline, the Sabal Trail pipeline, and the PennEast pipeline. 
And these are just the tip of the iceberg.
    Although these jobs, like all construction jobs, are 
temporary by nature, anyone who has a clue about the work we do 
knows that by stringing together one temporary job after a 
number, construction workers are able to provide for their 
families and save for retirement.
    At a time when it is harder and harder to succeed without a 
college education and the debt that goes with it, LIUNA and 
other building trades unions are one of the few places where a 
high school graduate can enter an apprenticeship program, learn 
a trade, become a qualified journeyperson and build a rewarding 
middle class career.
    LIUNA does not deny climate change. In fact, we are one of 
the few unions that supported cap-and-trade legislation and 
that sought to build common ground with some environmental 
groups. But we became disillusioned, disenchanted, and 
disheartened as we watched many environmentalists abandon 
reason and oppose each and every pipeline project and the jobs 
they would create because they want to leave all oil and gas in 
the ground, which would leave many Americans in the cold, in 
the dark, and in the red from high energy prices. This keep it 
in the ground mentality ignores the reality that these 
resources continue to be pulled out of the ground anyway and 
transported by means that are riskier and less environmentally 
sound than the pipelines these groups loudly oppose.
    Again and again over the past few years, some of these 
groups have misled legitimate regulatory processes to delay 
projects indefinitely and to needlessly repeat environmental 
reviews in the hopes that they will get the answer that they 
want. Frankly, it is not the pipelines that are dirty. It is 
the politics surrounding them. Keep it in the ground isn't a 
viable energy policy. It's an unreal, unattainable, uninformed 
slogan. It is time to embrace a comprehensive, rational, common 
sense energy policy.
    Finding realistic, environmentally responsible solutions to 
our energy infrastructure problems isn't a Republican issue or 
a Democrat issue. It isn't a conservative issue or a liberal 
cause. It is an American issue.
    Thank you for the opportunity to offer this testimony. I 
look forward to answering any questions you might have and to 
working with you in the future.
    [The prepared statement of Mr. O'Sullivan follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
      
    Mr. Upton. Thank you very much.
    Mr. Mahmoud, welcome.

                   STATEMENT OF JOEY MAHMOUD

    Mr. Mahmoud. Thank you. Thank you, Mr. Chairman, it is a 
pleasure to be here. My name is Joey Mahmoud, I am the 
Executive Vice President for Energy Transfer Partners.
    Over the course of the last 6 months this project, and our 
company, have been subjected to a series of politically 
motivated actions by the previous administration, accompanied 
by a host of half-truths and misrepresentations in both social 
and mainstream media.
    Dakota Access is a $3.8 billion, privately funded pipeline 
project which, during the course of construction, has employed 
more than ten thousand skilled workers and unskilled workers. 
During its entire 1,172-mile journey from North Dakota to 
Patoka, Illinois, it does not cross a single inch of Tribal 
reservation or trust land, and it only crosses a mere 1,094 
feet of Federal land.
    During the greater than 2 1A\1/2\-year-long permitting 
process for the whole project, we and the Army Corps of 
Engineers reached out to and accommodated 55 different Native 
American Tribes or groups. Of these Tribes, the Standing Rock 
Tribe was the first Tribe we actually approached and gave a 
presentation to in September, 2014. It was clear from their 
response they had no interest in discussing the project with 
us. In addition to our efforts, the Army Corps reached out to 
the Tribe on nine separate occasions. Despite these efforts, 
the Standing Rock declined to participate in any meaningful 
way.
    On July 25, 2016, the Army Corps brought to conclusion its 
2-year-plus review of the project, issuing an Environmental 
Assessment approving, among other things, our application for a 
crossing of the Missouri River at the current location, as it 
sits today.
    After declining to participate in any meaningful 
consultation, the Tribe, supported by Earthjustice, brought a 
legal action seeking to block the project.
    On September 9, 2016, a Federal judge issued a 58-page 
opinion rejecting the Tribe's request for a preliminary 
injunction and finding that the Tribe largely refused to engage 
in consultations.
    However, within minutes of the judge's ruling, the 
Departments of Justice, Interior, and the Army issued a joint 
statement indicating that, notwithstanding their successful 
defense of the permitting process in Federal court, they were 
not deciding to issue an easement at that time.
    Perhaps the most prominent, and ill-founded, of the 
misconceptions is that Dakota Access represents a threat to the 
Missouri River and those who rely on it for drinking water. 
Nothing could be further from the truth. Much of the oil from 
the Bakken is currently being transported across the Missouri 
River via truck and rail transportation, modes which, 
statistically, are far more likely to experience a spill than 
pipelines.
    Perhaps even more, the greatest irony in a saga replete 
with ironies is that the Standing Rock have just relocated 
their Missouri River water intake more than 70 miles downstream 
from this pipeline. However, there is a rail crossing that 
crosses 1.6 miles from their new intake that moves hundreds of 
thousands of barrels per day.
    Others have asserted the route chosen for the pipeline was 
indifferent to, and would disrupt, archeological sites of 
importance. Again, this is totally contrary to the facts.
    Dakota Access employed dozens of cultural experts to work 
alongside State and Tribal cultural officials to ensure that 
nothing of cultural, historic, or sacred significance was 
disturbed. Based on these experts' findings, the project
    undertook 140 different route changes in North Dakota 
alone.
    Indeed, the selection of the river crossing itself was 
largely driven by a desire to ensure the protection of cultural 
resources. The river crossing site for the Dakota Access 
Pipeline is located in an existing utility corridor which 
already includes two pipelines, the Northern Border Natural Gas 
pipeline and a high-voltage electric transmission line, both 
built in 1982.
    The easement, which has been the focus of so much public 
attention since this has occurred is a simple ministerial 
document which was part and parcel of the river crossing 
permit. The easement was arbitrarily withheld by the former 
Assistant Secretary of Civil Works and was not received until 
last week. We can only speculate as to her motivation, but what 
is abundantly clear is that the Department of the Interior, and 
most likely senior members of the White House staff, interfered 
deeply and inappropriately in the waning stages of the 
regulatory process.
    What is also clear is that I and other senior 
representatives of my company sat in the Department of Justice, 
while representatives of that agency, the Army and the 
Department of Interior repeatedly made factual 
misrepresentations about the process and their intentions.
    Finally, it is abundantly clear that notwithstanding the 
repeated public pronouncements that the Army Corps and Dakota 
Access had complied with all applicable requirements for 
construction of the pipeline, and notwithstanding two 
successful defenses of the permitting process in two Federal 
courts, these agencies have made the political decision that 
they were not going to issue the permit or the easement at that 
time.
    Mr. Chairman, we came to realize that even a company as 
large as Energy Transfer is helpless in the face of a 
Government that will neither obey nor enforce the law. We came 
to realize that playing by the rules can count for little. And 
we came to realize that good faith efforts to accommodate with 
the many different stakeholders involved can be a fool's errand 
when political motivation overrides the law.
    I suggest, and as I indicated, the easement withheld by the 
politically appointed Assistant Secretary was the sole 
remaining administrative step needed for completion of this 
project. This $3.8 billion, 1,172-mile pipeline had already 
received all other necessary Federal, State and local permits, 
as well as all the rights-of-way necessary for completion of 
the project. All of this was accomplished over a 2-year period.
    I would respectfully submit that a project of this size 
does not receive those approvals in that time frame unless it 
places a heavy emphasis on cultural and social concerns, is 
sensitive to diversity and gives great deference to the 
environment.
    With that, sir, I thank you for your time and I look 
forward to your questions.
    [The prepared statement of Mr. Mahmoud follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
     
    Mr. Upton. Thank you. Thank you. Thanks, all of you, for 
your testimony.
    So let me just say a couple of things. So as you all know, 
I am from Michigan. I am no stranger to controversies 
surrounding pipeline safety. I want to say one of my first 
bills when I when I first elected was establishing an oil spill 
response team from the Great Lakes, something that we did not 
have when I served on the Transportation Committee.
    I would note that the rate of accidents has fallen 
significantly in recent years and we have seen more stringent 
Federal regulations and closer oversight but there is, 
obviously, more work that has to be done.
    I had a spill not too far from my district back in 2010 in 
the Kalamazoo River. I worked across the aisle with then-
Chairman Dingell. This is the Dingell Room. Chairman Dingell 
was here to cut down on the time that it takes to report a 
spill. The old rules were it had to be reported on a timely 
basis. In the case of the Kalamazoo River, it was days. It is 
now 24 hours without heavy fines.
    So we have, in the last couple of years, we have actually 
done two reauthorizations of pipeline safety bills. Both bills 
passed out of this committee. We worked with the Transportation 
Committee. Overwhelmingly bipartisan. I want to say, I don't 
think there was a single Member that voted against that bill 
when it reached the floor. President Obama signed it into law, 
both of the bills. And I would note that we have a Line 5, 
which connects the upper peninsula with the lower peninsula. 
So, when you say you are from Michigan, make sure you put both 
hands up. But we had some special provisions from here. I had 
some special provisions that were added for safety and 
transparency available to the public.
    So the bottom line is, this committee is not afraid to 
tackle this issue. We don't want any pipeline spills. And in 
the case of the Kalamazoo spill, a million gallons, it cost the 
pipeline company, Enbridge, a billion dollars to clean that up. 
So these are not the light issues.
    Mr. Mahmoud, you talked about there are other alternatives 
to pipelines that include rail, they include truck. I think we 
know the answer but is there a safer, more economical way than 
a pipeline?
    Mr. Mahmoud. Thank you. No, sir, there is not. 
Statistically pipes are significantly safer than other forms of 
transportation. Actually, the safest form of transportation of 
any mode of transportation are pipelines.
     Mr. Upton. Mr. Harrison noted in his testimony that there 
were some secret documents, the words that you used, relating 
to safety. Can you expand on that?
    Mr. Harrison. Real simply, during some of the meetings when 
we asked for that very transparency that some of these bills 
are pushing, we get met with words such as proprietary and 
confidential and we can only give you certain things. A 
pipeline of this nature, it would go a long ways to have that 
transparency up front. What are we dealing with? What are we 
trying to sign off on as individuals?
    Mr. Upton. One of the things that was in the testimony from 
Mr. Mahmoud was that you did look at alternatives, right? You 
looked at a number of different alternative routes. Is that 
correct?
    Mr. Mahmoud. Yes, sir.
    Mr. Upton. And how many different routes did you look at?
    Mr. Mahmoud. In the U.S. Army Corps of Engineers, there was 
one additional alternative route in addition to what is called 
the no action alternative. However, in preparation for the 
development of the project, my company looked at many, many 
alternative routes to connect the Bakken crude oil to Patoka, 
Illinois.
    Under the Environmental Assessment for the U.S. Army Corps 
of Engineers, they are only required or looked at the crossing 
at Lake Oahe which, in this case, included the two alternatives 
which one being the route alternative and two being the no 
action.
    Mr. Upton. Now, one of the things that I did, as we moved 
this legislation forward, it was called the Upton-Dingell bill, 
was when a pipeline goes underneath a major water source, a 
river, a lake, rather than the old days of simply what they 
called trenching it, laying the pipe down, putting cement bags 
or rocks on either side to bolster its security, they actually 
now, for major water sources, they actually bore underneath 
that water source. Is that what you are doing in Lake Oahu? Is 
it Oahu, is that how you say it?
    Mr. Mahmoud. Lake Oahe.
    Mr. Upton. Oahe.
    Mr. Mahmoud. Yes, sir. And that is correct.
    Mr. Upton. Is it correct that it is like 90 feet 
underneath? So you are doing exactly what we said in this 
committee when we passed the reform legislation that instead of 
trenching, you are actually going fairly deep underneath that 
water body. Is that correct?
    Mr. Mahmoud. Yes, sir, that is correct, 90 to 115 feet.
    Mr. Upton. All right, my time has expired.
    Let me yield to the ranking member of the subcommittee, my 
friend Bobby Rush from Illinois.
    Mr. Rush. I want to thank you, Mr. Chairman. Mr. Chairman, 
I just want to say that I am always--most of my life I have 
always been a fighter for those who don't have a voice, those 
who are marginalized, those who have little respect. 
Instinctively, I am concerned about this issue, although, Mr. 
Chairman, I want to be open-minded on this because I am 
interested in how the energy sector in its entirety produces 
jobs for people in my district and similarly situated districts 
all across the Nation. So, this is a challenge for a lot of us 
who want respect, progress, jobs, economic viability. We also 
want to have environmentally sound policies and projects.
    I have a question I am going to ask Mr. Harrison. First of 
all, Mr. Harrison, in your testimony you said that the Tribe 
does not philosophically or etiologically oppose economic 
development, energy independence, or protection of national 
security. But you oppose development that is unattainable 
without your consent that puts your people, your cultural 
sites, and your natural resources at risk.
    Were you consulted at all during this decisionmaking 
process?
    Mr. Harrison. Just to clarify, were we consulted?
    Mr. Rush. Yes.
    Mr. Harrison. Not at the level that we feel that the law 
should provide or actually does provide.
    A lot of the issues have centered around the words 
``meaningful consultation.'' Attending a couple of public 
hearings does not fit that bill. And I just want to reiterate, 
at the very meeting that Mr. Mahmoud mentioned, in 2014, the 
Tribal Council adopted a resolution opposing this. That is the 
strongest statement that we can make, as a Government, in 
opposition to this project.
    At that point, there was little to no real consultation as 
to resolve that resolution or to address it. The project went 
forward, and there were some attempts at some minor 
communication, but consultation, no.
    Mr. Rush. So when you say that they tried to ram this 
project down the throats, would you say that this company tried 
to ram this project down your throats without any respect or 
any real input, without any buy-in from you and your Tribe?
    Mr. Harrison. I think this project was going to go forward 
whether we objected or not. And we feel that that should be 
addressed at the front end. There should be some consensus, 
some real input, which we did not have.
    Mr. Rush. Mr. Mahmoud, would you answer the same question 
or respond to what he said? Did you all include them in at the 
various stages of decisionmaking that would satisfy their need 
for buy-in or input into this process?
    Mr. Mahmoud. Thank you for the question. And yes, sir, I 
believe we did.
    From the very beginning, as I mentioned, September of 2014, 
we gave our first presentation to the Standing Rock Sioux 
Tribe. From that time forward, we met with them or on occasion 
invited them to participate in seven different opportunities to 
have sit-down, very one-on-one dialogues to discuss their 
concerns, as well as any information that we could share 
regarding the routing, as well as the operation or design of 
the pipeline. And those requests for consultation were mostly 
denied.
    We had some conversations with the Tribal chairman, who I 
respect greatly. But at the same time, we were not able to have 
meaningful consultation because of a lack of engagement.
    Mr. Rush. I have one final, one follow-up.
    Did you all attempt to get a third party involved in this 
at all, either the Tribe or the company? Did you all attempt to 
get a third party to referee, if you will, the discussions?
    Mr. Mahmoud. Yes, sir, we did. We hired a Tribal liaison, 
who was a NEPA expert and an outreach specialist. She is 
actually an archeologist.
    Mr. Rush. An independent third party, not somebody that you 
hired.
    Mr. Mahmoud. Yes, sir, an independent.
    Mr. Rush. Thank you.
    Mr. Upton. Thank you.
    Mr. Walden.
    Mr. Walden. Thank you very much, Mr. Chairman.
    I have a question, Mr. Mahmoud: When you talk about NEPA, 
doesn't the Army Corps of Engineers have to follow a NEPA 
process?
    Mr. Mahmoud. Yes, sir, they do.
    Mr. Walden. And does that NEPA process require consultation 
with Tribes?
    Mr. Mahmoud. Yes, sir, it does and they did.
    Mr. Walden. And they did?
    Mr. Mahmoud. Yes, sir.
    Mr. Walden. All the Tribes?
    Mr. Mahmoud. In the Northwest Region of the United States, 
they have a list of approximately, I think it is 55 different 
Tribes. They did reach out to all 55 Tribes, a total of 389 
different attempts or consultations with those 55 Tribes 
occurred as part of the NEPA process.
    Mr. Walden. And did they listen to those Tribes? Did they 
make any changes as recommended through the NEPA process from 
the Tribes to the route of the pipeline or any conditions?
    Mr. Mahmoud. Absolutely. On multiple occasions, we modified 
the route. In North Dakota, 140 different modifications. In 
particular, we made multiple alterations of the route, 
specifically as the result of consultations and surveys 
conducted in coordination with the Native American groups that 
participated.
    Mr. Walden. And did the Native American groups also employ 
archeologists?
    Mr. Mahmoud. I am sorry.
    Mr. Walden. Did they employ archeologists, as well?
    Mr. Mahmoud. Yes, sir, they did.
    Mr. Walden. To identify any sacred grounds, any of those 
sorts of issues, right?
    Mr. Mahmoud. They provided their cultural and heritage 
specialists and some of those may or may not have been 
archeologists by training.
    Mr. Walden. I understand.
    Mr. Mahmoud. Yes, sir, they did.
    Mr. Walden. OK, fine. Thank you.
    Mr. O'Sullivan, I know I support the Keystone pipeline. We 
voted on it here. It had 60-plus, I think, as I recall, 
additional safety requirements above and beyond the underlying 
American pipeline safety laws.
    When I went home, I had Democrats and others attack me 
because these weren't real jobs because they were temporary 
jobs. I would like to get your view on that because I hope that 
like, if I build a house, which I have never done, but if I 
did, I would want it to be temporary in the sense I would want 
you to finish. But aren't those jobs kind of valuable? Isn't 
that what your folks do is a whole bunch of temporary jobs that 
make up for full-time family wage jobs with great benefits?
    Mr. O'Sullivan. Absolutely, Congressman. And I want to 
thank you, personally, for your support on Keystone pipeline.
    In my testimony, I talk about these are good, middle-class-
family-supporting jobs.
    Mr. Walden. What would the annual salary be, on average?
    Mr. O'Sullivan. On a pipeline job, it depends on where it 
is at because that is the wage would depend on it. But it isn't 
anything for a member of my union to make $70,000 or over 
$100,000 on a pipeline project.
    Mr. Walden. And do they get health insurance and 
retirement, things of that nature?
    Mr. O'Sullivan. They get health insurance and they do get 
retirement security through a defined benefit pension plan.
    So, there are some of the best jobs, those heavy in the 
highway sector, that we have in our entire organization.
    Mr. Walden. Thank you.
    Now, Mr. Mahmoud, the pipeline itself, are you going to pay 
any property taxes? Is anything going to local communities?
    Mr. Mahmoud. Yes, sir.
    Mr. Walden. How much?
    Mr. Mahmoud. Millions of dollars. In North Dakota, $13.1 
million. In South Dakota----
    Mr. Walden. Is that just a one-time payment?
    Mr. Mahmoud. It is an annual payment. So every year from 
now and for as long as that pipeline exists in the ground as 
property, it is taxed as real property.
    Mr. Walden. So how much a year?
    Mr. Mahmoud. The valuations are done by the State taxing 
authority. But in year one, I will give you the stats: $13.1 
million for North Dakota, $13.5 million for South Dakota, $27.4 
million in Iowa, and $750,000 in Illinois.
    Mr. Walden. So would I be right to assume that it would be 
somewhere in that range going forward per year?
    Mr. Mahmoud. That is a reasonable estimate, yes, sir.
    Mr. Walden. All right, I am going to yield now to the 
gentleman from North Dakota, Mr. Cramer, the balance of my 
time, Mr. Chair.
    Mr. Cramer. Thank you, Mr. Chairman, and thanks to all of 
you for being here. A special welcome to Mr. Harrison, my 
constituent, and Mr. Mahmoud, my newest corporate citizen. It 
is great to have you all here.
    I am going to start out by letting you know I was on the 
Public Service Commission in North Dakota for nearly 10 years. 
I carried the pipeline portfolio. I sited the original Keystone 
pipeline through North Dakota, through 600 landowners' land, 
nine counties, and they are very grateful, those rural 
counties, for that property tax relief that is offered.
    Before I run out of time I will tell you that my intention 
going forward as I get to questions will be to dig in a little 
bit, Mr. Harrison and Mr. Mahmoud, on the consultation process, 
both as it has happened in this case and, probably as important 
as anything, Mr. Harrison, going forward, if in fact we can 
improve some of those things.
    But I am also going to offer into the record some very 
specific documents to tackle it, including Judge Boasberg's 
ruling from last fall, Colonel Henderson's memo of record on 
December third, one day prior to the Acting Secretary of the 
Army for Civil Works changing that memo, at least the 
conclusions of that memo. So, with time running out, I will 
yield back, and those are the areas of exploration I want to go 
down.
    Mr. Upton. The gentleman from Oregon's time has expired.
    The Chair recognizes the gentleman from Texas, Mr. Green.
    Mr. Green. Thank you, Mr. Chairman. And I want to thank our 
panel for being here. Normally, we don't have two panels in a 
day but I appreciate you all's patience.
    First, Mr. President, I appreciate your being here. I have 
a great Laborers' Local in Houston that I work with all the 
time. You stated that the Dakota Access Pipeline would put 
about a thousand laborers back to work, and I see some of the 
orange shirts. Thank you all for being here.
    You mentioned it and I have heard it that these jobs are 
temporary jobs, unlike refineries and chemical plants for my 
steel workers. They go there every day. But laborers literally 
in all of our building trades, they work on a project and then 
they may go down the road or go across the country the next 
day. So even though they are temporary jobs, but if you do 
that--and, where I come from, we have lots of pipelines and we 
need to keep making them better. So, but you mentioned about 
the temporary jobs. You could probably explain it better than I 
can, these jobs are site-temporary but they are full-time jobs 
that are created.
    Mr. O'Sullivan. And thank you for your support, 
Congressman.
    At the end of the day, we pride ourselves because we are 
builders. So we build pipelines, we build buildings, we build 
highways and bridges. And when that project is over, we move on 
to the next one.
    So it is nothing for a member of my organization to have 
five or six different jobs in a year. Some of them may work on 
one job for multiple years, but ideally--not ideally, but 
regularly--what happens is that we move from project to 
project. We like longer-term projects better than shorter-term 
projects, but, at the end of the day, that is the nature of the 
construction industry. And, as I said in my testimony, we 
cobble together a temporary job after temporary job and create 
a construction career for those that we proudly represent and 
the building trades men and women as well.
    Mr. Green. The Dakota Access Pipeline you said was a 
thousand laborers working. How many man-hours would a pipeline 
project like that create?
    Mr. O'Sullivan. It would be millions. Congressman, I could 
get that for you. There was 4,500 building tradesmen and women 
that were also--so, there was a total of 4,500 union building 
tradesmen and women; 1,100 of them were laborers.
    Mr. Green. What type of workforce programs do you have or 
development programs that--I know you have an apprenticeship 
program. I went through a 4-year apprenticeship as a printer, 
but I couldn't print the newspaper today. But could you also 
partner with local community colleges for training in your 
apprenticeship programs?
    Mr. O'Sullivan. In many instances, we do, Congressman, in 
various places across the country. As an organization, we train 
almost 200,000 laborers a year and over 100 different 
environmental and construction skills training programs. We 
spend $145 million of our own money training, upgrade training, 
apprenticeship training, the skills and abilities of those that 
we proudly represent. I believe it is one of the things that we 
do best and serves as the cornerstone of our organization is 
our ability to provide that quality training to keep up with 
new technologies to make sure that our members have the diverse 
skills so that they can have a career as a construction 
laborer.
    Mr. Green. Thank you, Mr. Chairman. I yield back my time.
    Mr. Upton. Thank you. Did you want a minute of his time? 
Well, there is a minute left.
    Mr. Rush. Mr. Sullivan, congratulations on our outstanding 
work. Laborers are a very important part of the Chicago 
workforce. My question to you is what about diversity among 
your members, diversity among your labor force, diversity among 
those who will be employed on this pipeline? Can you answer the 
question of diversity of workforce with the tens of thousands 
of people that you have trained and have been employed by your 
union?
    Mr. O'Sullivan. So, Congressman, I could answer it in a 
general sense because we have about 350 local union offices 
across the United States and Canada, but the diversity of the 
community is usually very reflective of the diversity of our 
local unions and our membership.
    And we are a very diverse organization. Now, if you go to 
Montana or other places, we would reflect the diversity there. 
But if we go to Chicago or if we go to New York, we go to 
California, usually, the diversity of the community is going to 
reflect the diversity of our organization.
    Mr. Rush. How diverse was your workforce on this pipeline?
    Mr. O'Sullivan. On the Dakota Access?
    Mr. Rush. Yes.
    Mr. O'Sullivan. I could get you that information. I don't 
have it at my fingertips, Congressman, but I would be happy to 
get it.
    Mr. Upton. The gentleman's time has expired. Thank you. 
Thank you for getting that information to us. We will look 
forward to seeing it all.
    Vice Chairman of the Subcommittee Mr. Olson, from Texas.
    Mr. Olson. I thank the Chair and a big Texas howdy and 
welcome to Mr. Harrison, Mr. Ferry, Mr. O'Sullivan, and Mr. 
Mahmoud.
    And a special howdy for Ms. Kann. You mentioned your friend 
named John, who served our Marine Corps. Is that correct? Was 
that his first name, John? I served in our Navy. So, please 
thank John for his service. And please remind him that he is 
within the Department of the Navy as a Marine. He will love you 
for it.
    Voice. The men's department.
     Mr. Olson. I am an optimist. As I said in my opening 
statement, we have to find a balance between jobs and growth 
and historic lands. If it is all black and white, nobody wins; 
we all lose.
    And as I mentioned in my opening statement, I have got a 
great example back home in Sugar Land, Texas, a park for our 
veterans that kids go fishing in, have barbeques in, fly kites 
on. It is all on top of a natural gas pipeline. It has been 
that way for 10 years. Sugar Land found a balance and surely, 
North Dakota can find a balance. We can't seek perfection.
    Mr. Mahmoud, you know we lost perfection the day Eve bit 
that apple. It has never happened since then. Nothing made by 
men is perfect. So please tell us, with that said, can you talk 
about some of the safety advances we have seen, what is going 
on with the pipeline right now to make it the safest pipeline 
ever?
    Mr. Mahmoud. Yes, sir and I appreciate that because this 
pipeline, by the pure fact that it is being built today, is 
safer than a pipeline that was built in the 1950s. The 
technology has improved. The steel that is used is higher 
quality. The formulas are better suited in our design to 
withstand the different forces that the earth puts on it on a 
daily basis, as well as the preventative steps that we take to 
ensure safety because that is our number one goal. Safety is 
always our number one goal. When we designed and we build a 
pipeline and we place it in these diverse communities, that is 
the number one thing we think about. So we always design to the 
latest standards and, most often, we go above and beyond.
    So we use things such as automated valves. It is probably 
one of the greater technologies that a lot of pipeline 
companies and including Energy Transfer that we put in place so 
that you don't have to rely upon a field operator to go close 
that valve, but then you can actuate that valve remotely. So 
there are a lot of technologies that we employ above and 
beyond.
    [Simultaneous speaking.]
    Mr. Olson. Shut off manually?
    Mr. Mahmoud. That is a complicated question. For oil 
pipelines, it doesn't quite work that way, but for a natural 
gas pipeline it absolutely works that way.
    Mr. Olson. Sorry for the confusion.
    My final question is there for Mr. O'Sullivan and Mr. 
Ferry. One thing that divides us on this issue is a lack of 
pipeline certainty. Right now because FERC does not have a 
forum, nothing is moving from FERC. So please tell us, beyond 
that, and even beyond pipelines, can you talk about how 
important it is for project certainty when it comes to 
attracting and keeping skilled labor?
    Mr. O'Sullivan, Mr. Ferry, whoever is up first.
    Mr. O'Sullivan. Congressman, it is critically important. 
When I talk about, and I know this committee has, about the 
approval process, I mean in many instances, as we work with 
community colleges where we are training to need is that you 
don't want to train somebody and then they don't have a job for 
6, or, 8, or 9 months, they feel as though they have been let 
down. So that training is absolutely critical and particularly 
as Joey was talking about, new technologies and things like 
that we try and keep our members and our apprentices up to 
speed on all of that.
    And so if we could cut down, without cutting any corners--I 
am certainly not suggesting that--that every stakeholder should 
be heard, that it should be a fair, but there should be a 
beginning and an end. And that gives the kind of certainty to 
ramp up training, to ramp for jobs.
    Mr. Olson. Mr. Ferry, do you care to comment on that, sir?
    Mr. Ferry. Yes, sir. Just to help everybody understanding, 
I will give you a little metaphor. When I went to work in the 
trade, I went to work every day to work myself out of a job. 
That is the type of temporary construction we are talking here. 
So we build buildings and when the building is done, we move 
on.
    So to support what Mr. O'Sullivan is saying right here, 
yes, we go to work every day to work ourselves out but it is 
the training. It is the safety. It is all that.
    We are doing the ETC Rover pipeline with ETC in Ohio right 
now. And I will tell you, everything is marched to the 
drawings, to the specifications. There are certifications we 
have to follow. There are testing procedures we have to follow, 
and it is all done with the whole intent of safety, of going to 
work every day to make sure my workers come home safe, but to 
make sure every day the product is completed and it is safe for 
the community.
    Mr. Olson. Thank you. My time has expired. I yield back.
    Mr. Upton. I like that answer because Rover is coming to 
Michigan, and we are going to need it. It is going to impact my 
district, I know.
    Mr. Welch is recognized for 5 minutes.
    Mr. Welch. Thank you very much. I want to thank the panel.
    A couple of things. One, the big issue about the pipeline 
is not so much the pipeline, the big issue about where it goes 
and how it affects folks there, and it is not about the jobs. 
Mr. O'Sullivan, you have a fantastic union and fantastic 
workforce. And if I have my way, we are going to put them 
together rebuilding America with a big infrastructure bill. I 
mean we need to get them doing the work. So I just want to 
thank you.
    And also, Mr. Walden made the point we get it that if you 
are in construction, by definition, those are temporary jobs. 
So see the union folks here. Thanks for being willing to do the 
work where it needs to be done. That means spending time away 
from your family. That is hard.
    The other thing I think we understand is that America has a 
lot of work that needs to be done. There is a lot of jobs. We 
have got low unemployment. There is not a lot of good paying 
jobs. And the challenge for us is more the paycheck than it is 
actually the job. And anything we can do to maintain those 
jobs, we should.
    But there is another issue that hasn't really been 
discussed here that is important to a lot of us that is not 
about the union and it is not even about the location of where 
this pipeline goes. And that is, obviously, of enormous 
importance to the Tribal peoples and that is the whole climate 
change issue and how we get our energy. And that is a point of 
enormous contentious debate here in Congress about what should 
be our policy to try to move to less carbon-intensive forms of 
energy.
    And I feel as though in the pipeline a lot of really good 
people, including these workers here, get caught in the 
crossfire. But that is an issue that we are not going to 
resolve here but where there is a lot of things that we can do 
that would achieve or move us toward the goal that I have of 
less carbon in the atmosphere that would involve good jobs for 
folks in your union.
    You know the energy efficiency stuff that we have been 
working on, Mr. Chairman, that requires skilled workers to 
retrofit places and it requires real skills. And I hope we find 
an ability to work on the common ground so that we are going to 
pay some respect to these workers.
    I do want to ask Mr. Harrison, I know for you this whole 
situation is in not just your backyard, it is in your yard. And 
I think all of us should have the capacity for some awareness 
that if it were our yard, we would have a passion about 
protecting our historical cultural rights.
    Just tell me about your interaction with the pipeline folks 
and whether there was an effort to have you--you made an effort 
to try to locate the pipeline away from places that would 
encroach on important issues for you.
    Mr. Harrison. Thank you for pointing that out, Congressman. 
We often have to put it in that perspective that if the shoe 
were on the other foot, how would you react. So, I appreciate 
that.
    One of the elements that we have consistently tried to say 
in our opposition is that much of the pipeline and the risk, 
and there is a risk, as the Congressman and vice chairman said. 
There is always a risk, but we bear the greatest risk. How is 
that shared with the rest of the State? How is it shared with 
the rest of that?
    We are approximately, well I should say we are about 20 
miles, a little over 20 miles from the South Dakota border, so 
we are at the southernmost edge of North Dakota and before the 
Missouri hits South Dakota. In the State of South Dakota, we 
are going to bear the greatest risk.
    I would also submit, and this goes right to the point of 
how does it affect us, that we also bear the least benefit. And 
whenever this oil starts to pump through the pipeline, I can 
submit that a year from there, I would wager that our county, 
Sioux County, which is also part of North Dakota, would have 
the smallest tax revenue from it. We have no workers on this 
pipeline, and we are right there.
     So, the benefits of this, these economic development 
portion of it, the economics behind it, don't benefit us but 
yet we bear the greatest risk. We have been opposed on many of 
those platforms.
    Mr. Welch. Thank you.
    Mr. Upton. The gentleman's time has expired.
    The Chair will recognize the gentleman from Illinois, Mr. 
Shimkus.
    Mr. Shimkus. Thank you, Mr. Chairman. It is great to have 
you all here.
    It is always great to talk about jobs, the economy, and 
energy security. I believe in pipelines. I believe they are the 
safest, most reliable, cheapest way to move bulk, liquid crude. 
Undeniable.
    So, having said that, I want to put up, Mr. Mahmoud, this 
pipeline that you are speaking of ends up here?
    Mr. Mahmoud. Patoka, around Vernon.
    Mr. Shimkus. Patoka is in my district. I have been to the 
Patoka Tank Farm numerous times. It is one of our pride and 
joys.
    And so the two pictures that everybody can see is the one 
on the left is our pipeline system in our country right today. 
Sometimes what has happened in this debate, because of the PR 
is that the country thinks that there is only one pipeline 
being built and we are only operating one pipeline. But there 
is, obviously, thousands and thousands of miles of pipeline and 
hundreds of pipelines that go across the transcontinental line.
    So, if we were debating the other pipeline controversy of a 
Keystone XL, you would think that we had never had a pipeline 
go across a country boundary. But as the map shows, we have got 
gazillions. No, no, go back to that.
    So the red is crude oil refined product, the blue is 
natural gas. And again, the right one is the big red dot, that 
is Patoka. So you can see in my congressional district, one, 
two, three, four, five, six, seven, eight crude-oil-refined 
pipelines, and look at all the blue ones, which is the natural 
gas. So, let's go to the next slide.
    So I also deal with--this weekend I leave for Brussels. I 
am a member of the NATO Parliamentary Assembly. NATO is also a 
big new story today. Russia has used energy extortion to our 
allies.
    So this picture tells another story. The ship on the right 
is actually an LNG import terminal in Lithuania called 
Independence, aptly named because it is the hope of our allies 
that as we build these pipelines and we move them to the east 
coast, and then we build LNG terminals, compress it, put it on 
ships, that they are no longer extorted by Russian natural gas 
or Russian crude oil. They are our allies. They are our 
friends. They fought together in Afghanistan with us. They 
fought together in Iraq with us. And that is critical.
    Now, the other ship on the left is just an LNG terminal 
ship delivering LNG to Independence.
    Now, why do I weave this story? So a lot of people will say 
there is no economic benefit. There is huge economic benefit. 
If we are putting natural gas on the world market, it 
dramatically increases our balance of trade. It makes us a 
stronger nation. It makes communities stronger. There are 30 
applications for LNG terminals pending. I don't think they will 
all get built. To build an LNG terminal is about $10 billion. 
And that is good jobs, good wages, good benefits.
    And not only that, I always talk about the tax benefit to 
these communities. I have rural America. I have high-powered 
transmission lines. And I have some of my community folks that 
don't like them. But when they go to the power plant in that 
community that has the power plant, has the tax base to fund 
its schools and it has the tax base to do its county, we lose 
the focus of the benefits of energy when we have this narrow 
focus and we don't look at how it is benefiting the whole 
country.
    So I am all in on the bet that it is the safest, most 
reliable, cheapest way to move it. I am in it that it creates 
job. And I just want my colleagues here to understand the 
additional benefits that are happening not just in our country 
but to our friends and allies in Europe.
    And with that, Mr. Chairman, no questions. I yield back.
    Mr. Upton. The gentleman yields back.
    The Chair recognizes the ranking member of the full 
committee, Mr. Pallone, for 5 minutes.
    Mr. Pallone. Thank you, Mr. Chairman.
    I wanted to get one question in to Councilman Harrison and 
one to Ms. Kann. So, I will try to use my time wisely here.
    In my opening statement, I mentioned that most of the 
problems with pipeline construction result from disputes over 
the siting of these lines. Streamlining will solve this problem 
for the developers of the project but at the expense, often, of 
people and resources along the project pathway.
    So Councilman Harrison, in your testimony, you point out 
that consultation with Tribes doesn't just mean telling 
landowners and communities what you are going to do and how you 
are going to do it. It means listening to community concerns 
and making necessary changes to ensure these projects do not 
harm people, land, and other resources.
    Mr. Mahmoud said that Energy Transfer Partners negotiated 
with and accommodated 55 Native American groups and that only 
the Sioux Nation has been unwilling to talk with or work with 
them. I just wanted your response to that. When did the company 
first approach the Tribe about the proposed pipeline and the 
proposed route near your Tribe's water supply? What offers, if 
any, did the company make to alter the route or design the 
project in response to your concerns?
    Mr. Harrison. Thank you for the question. I want to back up 
just a hair. The map that was up that showed all the pipelines, 
if you notice right above the North Dakota-South Dakota, there 
is a big hole where there are no pipelines. And that is treaty 
lands. The Native American treaties have been assigned that 
from the mid-1800s on, and that is a large portion of that.
    So to your question, how do these pipelines affect people 
and their resources, that is a good example. You start cutting 
through there without the proper consultation, now we are 
cracking the seal on something else, which is infringement on 
treaty rights. And that, my contract with the Government of the 
United States is something we take very seriously.
    Now, to answer your question about when they approached us, 
September of 2014 is the initial time. At that time, we adopted 
a resolution, as a Tribe, opposing this project. From that, we 
don't feel that any of the meaningful consultation about the--
not just the objection, but any kind of meaningful reroute, was 
not taken seriously.
    Now, there may have been some rerouting to the tune of a 
few feet or maybe a dozen feet here and there to avoid a little 
site, but there has never been a real conversation about let's 
look at some place else to cross that river.
    Mr. Pallone. All right, thank you.
    And then I wanted to ask Ms. Kann, in your testimony, you 
seemed to indicate that you come from a pretty conservative, 
predominately Republican area. In fact, I think that area went 
pretty strongly for President Trump. Mr. Chairman, I am glad I 
am not running there. It doesn't seem like you come from an 
area that is part of the keep it in the ground or anti-fossil 
fuels movement. In fact, you go so far as to say regarding your 
community that, and I quote, we get that sometimes land needs 
to be taken for the benefit of the community.
    So am I right in my assumption about the Republican 
conservative nature of your area?
    Ms. Kann. Can you say the last part of that for me again?
    Mr. Pallone. Well, in other words, I am just trying to 
point out that your area is pretty conservative, predominately 
Republican.
    Ms. Kann. Oh, it is strongly Republican.
    Mr. Pallone. All right.
    Ms. Kann. You know as people speak up with regard to this 
issue, they almost feel like they are kind of not in keeping 
with their Republican roots. But then the issue becomes the 
rights of individual landowners and the actual protection under 
the Bill of Rights which is probably the most important 
protection that either party provides their constituents.
    Mr. Pallone. All right. Well, let me get to my questions, I 
have only got a minute left.
    I just found it interesting in your testimony when you say 
the citizens are no longer willing to tolerate the abuse of 
eminent domain to line the pockets of others. Because many in 
the gas line industry would argue that eminent domain is only 
used as a last resort and almost never involves seizure of 
private property and that they are constantly adjusting routes 
to minimize the impact on land owners.
    But what is your experience? Do you feel like your concerns 
were listened to and there was a good faith effort to reach an 
accommodation with you and your neighbors to avoid eminent 
domain? Do you feel like there should be an eminent domain 
reform for natural gas pipelines that perhaps there should be a 
higher standard for a gas company to take land?
    Ms. Kann. Absolutely. And to maybe start at the end of your 
questioning and work backwards, the standard that seems to 
bring the most angst to my community is the division between 
the intent of natural gas for domestic use to meet the needs of 
our communities, to keep our schools warm, our factories 
running, our homes lit, and the intent of resources to be used 
for corporate profit. And we have felt that the standard should 
be different for the two. We are much more open and accepting 
of the idea of eminent domain when you are talking about 
upgrading electrical grids and supplying local power plants 
than we are about gas, in particular, that is specifically 
slated for export.
    That difference is huge. That difference is the difference 
between what is protected by the Bill of Rights and what is 
not. That difference is part of what is spoken to repeatedly in 
the Republican platform of 2016 of protecting individual land 
owner rights as a sacred compact between our Government and our 
citizens.
    Mr. Pallone. All right, thank you so much.
    Thank you, Mr. Chairman.
    Mr. Upton. Thank you, Mr. Pallone.
    The Chair will recognize Mr. Barton.
    Mr. Barton. Thank you, Mr. Chairman.
    My first question is to Mr. Mahmoud. Is that the way you 
say it? You are an employee of the Dakota Access Pipeline. Is 
that correct?
    Mr. Mahmoud. I am an employee of Energy Transfer Partners, 
which is the managing partner in the joint venture. Yes, sir.
    Mr. Barton. I am told that this particular pipeline, if 
built, would go through an existing right-of-way. Is that 
correct?
    Mr. Mahmoud. Yes, sir, part of it does.
    Mr. Barton. Part of it does.
    Mr. Mahmoud. Yes, sir.
    Mr. Barton. Does the part of it that is under debate go 
through an existing right-of-way, the one that seems to be the 
most controversial?
    Mr. Mahmoud. At Lake Oahe, there are two existing natural 
gas pipelines for the same system called Northern Border that 
we parallel, two existing 42-inch pipes.
    Mr. Barton. OK, so there is already pipelines there. Is 
that correct?
    Mr. Mahmoud. Yes, sir, two of them.
    Mr. Barton. I am also told by my staff that this particular 
pipeline has complied with every State and Federal 
environmental review and all the various permitting 
requirements. Is that correct?
    Mr. Mahmoud. That is correct. We have permits from each 
State, every jurisdiction, local, State, as well as Federal.
    Mr. Barton. OK, so there is not any existing hold up in 
terms of an agency of the Federal or State Government that says 
no.
    Mr. Mahmoud. That is correct.
    Mr. Barton. OK. What is the issue with the Indian Tribe or 
Tribes that seems to be controversial in their mind?
    Mr. Mahmoud. You know it stems back to the consultation. 
And I cannot speak for the Government, but what I can say is 
that the meaningful consultation that we have mentioned today--
as a private company, we are not a Government. And so, 
therefore, resides the issue is that the Tribe, although we 
attempted seven different times, and actually more than that, 
but seven official times, to have consultation, and the Corps 
did it nine times, so that is 16 attempts with the Standing 
Rock. We don't have the Government-to-Government relationship 
that the Tribe was seeking to have that consultation. So there 
lies the issue is that we cannot enter into formal consultation 
with the Tribe to resolve some of the issues that they claimed 
and, therefore, it is the Government that has to have those 
consultations.
    Mr. Barton. Well you could, but you can't force them. Isn't 
that correct?
    Mr. Mahmoud. Well under Government-to-Government 
consultation, by definition, we are not a Government. So 
therefore, we don't have consultation other than informal 
consultation, which we did do and we attempted to have very 
meaningful.
    Mr. Barton. But under State and Federal law, you don't have 
the right to consult with an Indian Tribe because you are not a 
Government. Is that correct?
    Voice. Yes, thank you very much! You don't have a treaty. 
You are not----
    Mr. Barton. I am asking the question to him, not to you. I 
am just trying to understand it. I am not trying to be 
adversarial or controversial. I just wanted the basic facts.
    Mr. Mahmoud. That is correct, sir. We have the right to 
communicate with anyone as a U.S. citizen, and I think we do 
that very well. Communicating with the Native American 
community is something that we hold very near and dear to our 
heart. We treat all stakeholders with the utmost respect. But 
when it comes to the official process, under the permitting 
that we have to go through, we do not qualify to be a 
Government to enter into Government-to-Government consultation.
    Mr. Barton. My time is about to expire. I don't necessarily 
have a question for Ms. Kann.
    Both my family farms were taken by eminent domain. So, I 
have a high-speed project going through my congressional 
district that a lot of my constituents opposed. So, I have 
great respect for individuals who are having to give some of 
their right-of-way by an eminent domain process.
    As I understand it, you have said in answer to questions 
and in your comments that this particular project--because, as 
you put it, is for-profit--is objectionable. But if it were 
used for domestic purposes or if it were used for a product in 
or near your home, you wouldn't be opposed.
    I said I wasn't going to ask you a question, but is that 
correct?
    Ms. Kann. I believe the members of my community who are 
most opposed to this would be less opposed and more willing to 
consider it as a viable option and not a violation of their 
rights as citizens, if that were the case.
    Mr. Barton. But your property is not affected by the Dakota 
Access Pipeline.
    Ms. Kann. No. No, sir. It is the Atlantic Sunrise pipeline.
    Mr. Barton. Thank you, Mr. Chairman.
    Mr. Upton. Thank you.
    Mr. Tonko.
    Mr. Tonko. Thank you, Mr. Chair and let me welcome all of 
our members of the panel. Thank you for your input.
    My effort here, or I think our effort should be to strike 
balance where there is opportunity with comprehensive energy 
plan to grow significant jobs that pay well and respond to all 
of the energy needs. And I understand fully that expression 
coming from our union force--union labor force but there does 
have to be that balance.
    And Ms. Kann, I thank you for being here today to speak up 
for many private property owners that often feel left out of 
the process. How long have you owned your property?
    Ms. Kann. The property has been in my family since 1990.
    Mr. Tonko. And can you describe the process of dealing with 
the company, the pipeline company as they work to site its 
project and obtain permits?
    Ms. Kann. The pipeline company, characterizing their 
behavior, the best word that I can think of is bully. They have 
shown up on-site with demands. They have left messages on my 
answering machine indicating that if they can have access to my 
property, their goal is to move it from my property, which I 
knew was not something that was within the power of the land 
agent speaking to me to do.
    There was, at one time, a very important need to gain 
access to as many properties as possible for the purpose of 
surveying, and many people in my community were treated in a 
way that was very disingenuous and very misleading, and very 
preying upon the lack of understanding that the people in the 
community had.
     Mr. Tonko. And do you sense that they heard your concerns 
and worked with you to resolve any issues from the beginning of 
the process?
    Ms. Kann. Absolutely at no point.
    Mr. Tonko. Well this subcommittee considered legislation 
last year that would have allowed companies to use areal 
surveying done by drones to obtain surveying data. This could 
allow companies to get the data that they need, while doing 
minimal outreach to property owners.
    Now, while I do not expect you to know the details of this 
legislation, based on your experience, do you have any thoughts 
on changing the permitting process that would allow pipeline 
companies to do less community outreach and engagement with 
private property owners?
    Ms. Kann. I can't imagine anything more objectionable than 
not having to deal with the people that are directly affected 
by this. If anything, individual property owners need to have a 
larger voice in this and I think we need to redefine the 
concept of voice. Being invited to FERC hearings and being 
allowed to testify and have testimony on the record does not 
equate to being involved in meaningful dialogue that affects 
any kind of influence on a project like this. It doesn't serve 
to educate anybody, and it doesn't serve to allow anybody to 
have input.
    To end run the obligation of energy companies that want to 
do projects like this and not require them to engage with the 
communities that they intend to go through, I believe would be 
a horrific violation of our rights as citizens and landowners.
    Mr. Tonko. Well, I tend to agree that these procedures that 
process needs to include respect and transparency and that 
means respecting the communities that host pipelines, 
inheriting all of the risks and none of the benefits. And 
respecting Tribal rights and property right, private property 
owner rights should be obvious. But sadly, the process has 
tilted the way from the public dialogue necessary to determine 
whether these projects are justified and how they will seek to 
minimize the damage to aggrieved parties.
    I also want to point out that there have been officials 
that, despite supporting high profile pipeline projects have 
opposed interstate high-voltage direct current transmission 
projects, energy infrastructure projects that even many members 
of the environmental community support.
    So while I, too, have my concerns about potentially cutting 
States out of the process, these projects will bring clean 
energy from America's heartland to the rest of the country. 
Instead of exploring yesterday's fuel supply to foreign 
countries tomorrow, let's work on getting tomorrow's domestic 
electricity to Americans today.
    I would just ask for consistency in how we evaluate these 
projects. For me, that means ensuring a robust community-
oriented process that respects landowner and Tribal rights, 
regardless of the type of infrastructure in question. I hope 
those same standards can be applied by everyone, whether it is 
a pipeline benefitting the oil industry or a transmission line 
benefiting utility scale clean energy.
    I have a few seconds remaining, and I will yield those to 
Mr. Rush, please.
    Mr. Rush. Thank you.
    Mr. O'Sullivan, I have just got to come back to the same 
line of questioning that I had for you before.
    First of all, I am a strong union supporter. I am very 
close to the local in Chicago and I have a lot of admiration 
for the Laborers'. But I just can't settle in my mind you made 
a statement. You said that you move from community to community 
and, therefore, you reflect the demographics of that community. 
But you also said that these are temporary jobs and the way 
that these jobs becomes permanent is that you string together 
jobs. That gives a picture of a team of people going from one 
job to another, from one State, one community to another, and 
they become the workforce. I don't see that. I have a problem 
how can at one time reflect the demographics of a standing 
community and then also moving people in and out of your jobs 
who may or may not be from that community. How do you know 
that?
    Mr. O'Sullivan. Congressman, you have always been a strong 
supporter of organized labor, and we certainly appreciate that.
    By that I mean this: If we take ETP's job, it is 1,100 
miles. And so we will have to do it by 100-mile spreads. So I 
will have laborers and the other trades will have members that 
work within that 100-mile spread. And then I will have a group 
of other laborers that will work on the next 100. Sometimes we 
will cross over, but what happens is that, when somebody gets 
out of that particular pipeline job, they will go back and they 
may be working on building construction or heavy and highway 
construction out of their local union hall after that 
particular job. Sometimes they stay with the company but most 
of the time when that particular spread is over, they will go 
back to the local union hall and then get dispatched out, maybe 
on another pipeline job, but possibly----
    And what we do, Congressman, is go through training. And so 
somebody that doesn't have training that is a pipeline laborer, 
we put him through training so that we give him the skill sets 
to be able to do building construction, heavy, and highway 
construction.
    Mr. Rush. I yield back.
    Mr. Upton. Thank you. The gentleman's time has expired.
    The Chair will recognize Dr. Murphy.
    Mr. Murphy. Thank you very much.
    Mr. O'Sullivan, I want to follow-up with what you just said 
there.
    So, in terms of work of being a laborer, or an electrical 
worker, or a carpenter, or anything else, I guess in some ways 
all work is somewhat temporary in terms of a particular 
project. But it is long-term in terms of they are involved in 
multiple projects, correct?
    Mr. O'Sullivan. Correct, Congressman.
    Mr. Murphy. So how long will it take one of your workers, 
for example, on one of those 100-mile stretches?
    Mr. O'Sullivan. It depends on the project and the terrain 
but I believe that Dakota Access, the time line was for 7 
months or somewhere in that neighborhood to complete that 1,100 
mile section of pipeline. Some are a little more complicated, 
more compressor stations. And I don't want to get into the 
intricacies of it. Joey has forgotten more than I know about 
it. But at the end of the day, those spreads, when they are 
over, it could be anywhere from 2 months to 7 months, depending 
on the particular project, or longer.
    Mr. Murphy. Well, that is the nature of all construction 
work----
    Mr. O'Sullivan. Absolutely.
    Mr. Murphy [continuing]. Unless it is a multi-year project.
    May I remind my colleagues, we are temp employees. We only 
have a 2-year contract. We have to go back to our boss every 
couple of years and ask for a renewal on the contract. We don't 
have tenure. We are not permanent employees here.
    I want to ask a question, Mr. Mahmoud, on the safety issue. 
I was a private sponsor a few years ago of a bill called Mark 
and Chelsea's Law, which included a comprehensive pipeline 
safety bill to keep families safe from ruptures from gas lines. 
And it basically said that if a utility worker, construction 
worker, anybody, punctures or ruptures a gas line, they have to 
notify the owners of that gas line and local emergency 
responders immediately on that.
    Let me expand that to other areas of safety. In terms of 
during the construction, or inspection of what is in place, or 
response if there is a problem, can you give me an idea of what 
has happened over the years here, what is currently in place in 
terms of what you have to adhere to in terms of doing these 
projects to assure public safety?
    Mr. Mahmoud. Thank you for that. There are multiple levels 
of safety, number one. And safety is always our number one 
criteria. Putting aside operational safety, if we are looking 
at construction safety, one, we are bound by the rules under 
OSHA for all of the workers that are employed not only by 
LIUNA, or some of the other trades, or the contractors, but 
also for Energy Transfer, or whomever they may work for.
    So we comply with those laws and regulations, but we also 
employ a very robust construction safety program that is 
executed by our contractors, primarily, but it is driven by our 
company to make sure that the culture of safety is pushed down 
to all the different layers so everybody behaves and acts in a 
safe manner.
    Mr. Murphy. Some are Federal, some are State, some are 
other local safety issues you have to be adhering to at all 
times?
    Mr. Mahmoud. Yes, sir, that is correct.
    Mr. Murphy. What if a local citizen has a concern about 
safety or risk factors, are you required to respond to that?
    Mr. Mahmoud. We are. And typically, on a gas pipeline for 
an interstate pipeline, when those concerns are raised, they 
usually are raised as part of the NEPA process through FERC. 
And we address those through that environmental document or 
through data requests from that Federal agency.
    If it is not a federalized project, we do, we have a very 
robust outreach program that we educate the public, as well as 
other individuals that may live by or near, the 811 programs 
that you may be familiar with. So we have a very robust, very--
--
    Mr. Murphy. And I guess this also goes to Mr. Sullivan. Are 
the workers on the project empowered also that if they see a 
problem, they report it right away?
    Mr. Mahmoud. Absolutely.
    Mr. Murphy. Mr. O'Sullivan is that true in terms of your 
workers and their training to report something immediately if 
they see a problem?
    Mr. O'Sullivan. Absolutely, Congressman.
    Mr. Murphy. And I just think it is always extremely 
important to have someone who can pull the whistle or something 
and say there is a problem, we have to act on it. And the 
responsiveness then within the construction is----
    Mr. Mahmoud. Immediate. There is no delay. If there is a 
safety-related incident, it is addressed right then.
    Mr. Murphy. OK. Finally, I only have about 30 seconds left 
here, but back to Mr. O'Sullivan.
    Expand this some more, labor's role, a seat at the table in 
terms of the regulatory process. Do you play a role in that? 
Does labor play a role in that?
    Mr. O'Sullivan. We do, Congressman. What we do is we is we 
find our members that are along the pipeline route. We 
encourage them to show up at the town hall meetings and public 
hearings that are going on all along the whole pipeline.
    So we do engage because they are residents of the community 
as well. So, they do show up at the town hall meetings and 
public listening sessions.
    Mr. Murphy. Let me just add one final comment with regard 
to what you said before about whether someone is working 2 
months or 7 months and multiple jobs put together may not seem 
like much, if someone is on the outside looking in, but I am 
sure it means a lot to that worker----
    Mr. O'Sullivan. Absolutely.
    Mr. Murphy [continuing]. Who would much rather be getting a 
paycheck than an unemployment check.
    Mr. O'Sullivan. Absolutely.
    Mr. Murphy. Thank you very much. I yield back.
    Mr. Olson [presiding]. The gentleman yields back.
    The Chair calls upon the gentleman from West Virginia, Mr. 
McKinley, for 5 minutes.
    Mr. McKinley. Thank you, Mr. Chairman. I thought you were 
going to go to the other side.
    Quickly, if I could get into it, 51 years ago I picked up a 
lunch pail and went out on my first construction job. It has 
been something that means a lot to me as a construction 
industry and I spent, again, 51 years in it. And now in the 
Washington, I am the chairman of the Construction Trades 
Council Caucus, trying to make sure that all our members 
understand the construction trades and what the impact of our 
construction industry has on the economy of this country.
    Curiously, we only have about 12 or 15 members in Congress 
that have ever performed construction work. So you can imagine 
the educational process that we have to go through when people 
are concerned about part-time jobs. That is what we have done 
for 51 years is understanding that.
    But my question, in part, is maybe it is almost an opening 
statement of sorts is I am frustrated for us in West Virginia 
because the last 8 years we have seen our coal industry 
collapse. So, we tried to switch over to natural gas and be 
able to exercise what we use in the Utica and Marcellus but we 
can't get permits to build our pipeline.
    So my question, I guess maybe it would be at your, Mr. 
O'Sullivan, with laborers. Are you seeing a slowdown around the 
country of the ability to build pipelines and put our people to 
work?
    Mr. O'Sullivan. Congressman, we are seeing a slowdown in 
the permitting process and I hate to keep going back to that 
but shovel-ready projects are only shovel-ready if there is a 
reasonable review process. And again, we are for comprehensive 
process but there has to be a beginning and an end.
    West Virginia, in particular--and I am a proud member of 
Laborers' Local 1353 in Charleston, West Virginia, and worked 
in the State for a number of years, and I appreciate your 
support all the years as well.
    What we are seeing in West Virginia, in my local 
particularly, with what has happened to coal in the State, we 
have lost half our members. In many instances, natural gas 
pipelines have really helped our members out in the State. To 
be honest, we would have lost more than half our members if it 
wasn't because of that.
    Mr. McKinley. We have apparently, if we can tap into it 
properly, the Marcellus, the Utica, and West Virginia, we could 
produce 50 percent of all the natural gas in America using 
that. However, we just can't get the permits to get those 
pipelines built. Of course, they are building some but not at 
the speed that we need to help out.
    And so it is coming down to elected bureaucrats and delays 
and tactics or are we just putting people to work? If we can't 
mine coal for 8 years, we have seen the employment situation 
occur in West Virginia, well, actually, across the country, 
this anti-coal fervor that the Obama administration put in 
place; 83,000 coal miners lost their job, 246 power plants 
closed down, 400 coal mines closed.
    So we turn, with hope, that we can use the natural gas and 
build the pipelines so that we can put our people to work and 
find a new way, a different economy. But we are stymied and I 
don't want to see that happen in the Dakotas or elsewhere, 
where people are trying to find jobs, just jobs it comes down 
to.
    So what advice would you give us? What would be the best 
thing that we could do here in Congress to try to get the 
regulatory bodies to be more responsive so that the people that 
want to work, our building trades and elsewhere, what could we 
do to eliminate some of those barriers? The process is there 
but what else do we need to do?
    Mr. Mahmoud. Yes, I think it all boils down to 
predictability, predictability in the process. And as long as 
it is fair across all industries, and for our industry on the 
energy side, we need predictable regulations that we can rely 
upon when we make these multibillion-dollar decisions and we 
need finality. So what happened on the DAPL project is very 
devastating to a company like ours, when we are investing 
nearly $4 billion all of a sudden just to be halted by a 
political intervention.
    Mr. McKinley. We talked to, I guess it was Barton, someone 
brought up the NEPA process and we saw that process abused in 
the last 8 years. They were trying to ship export coal from 
Bellingham, Washington, and they didn't--the NEPA process was 
underway with it, but the administration just stepped in and 
stopped the NEPA process. That has got to be very frustrating 
to people that have spent $7 million or $8 million to get 
something approved.
    I have got problems with this bureaucratic nonsense that we 
have to put up with sometimes around here.
    So I yield back my time.
    Mr. Olson. The gentleman yields back. The Chair calls upon 
the gentleman from Virginia, Mr. Griffith, for 5 minutes.
    Mr. Griffith. Thank you very much.
    Ms. Kann, let me ask you a couple of questions. As a part 
of the pipeline going through Pennsylvania, did you participate 
in the FERC processes?
    Ms. Kann. I participated at every opportunity. I am 
registered as an intervenor and I have spoken at the FERC 
hearings.
    Mr. Griffith. And was your experience with FERC a good one?
    Ms. Kann. It was very neutral. There was no dialogue. There 
was no back and forth. There was a panel of people sitting on a 
stage who just sat. It wasn't dialogue. It was testimony.
    Mr. Griffith. And I have a pipeline coming through my 
district, which is why I am asking these questions.
    And do you feel that FERC should be able to look at, as 
opposed to one individual pipeline, perhaps multiple pipelines 
going through a region so that they might consider whether or 
not all the pipelines are needed?
    Ms. Kann. Absolutely. Pennsylvania is slated for up to 
300,000 miles of pipelines in the next several years, and they 
are both collection lines and interstate distribution lines.
    The collective impact of that is an entirely different 
story than what FERC considers on a pipeline-by-pipeline basis.
    Mr. Griffith. Yes, ma'am, that has been our experience, as 
well.
    And as a part of that, do you know if in your situation 
they looked at highway right-of-ways or co-location 
opportunities for the pipeline?
    Ms. Kann. There was a great deal of dialogue in my 
community. The initial proposal from Williams for this pipeline 
route rather extensively used some existing public land and 
existing right-of-ways in our township. There was some outcry 
over that because some of the public lands had been bought with 
taxpayer and donation dollars. It was a conservancy land. And 
Williams quickly rerouted through private properties after 
that.
    There was a second wave of proposals made by some of the 
residents in my township in particular to reroute back to some 
of that public land and FERC did not choose to make that move.
    Mr. Griffith. I appreciate your testimony here today.
    Mr. Mahmoud, I know that you have already testified that 
you all did do some co-location. As your company was looking at 
this, did you all look at opportunities where you might be able 
to co-locate? And is the gas that you are piping through, is 
that something that you all believe is necessary, exclusive to 
other projects or are we--my question is are we getting into a 
situation where we are using eminent domain for competing 
projects? Each standing alone would meet FERC's requirements 
but maybe together, we are overdoing it and building an 
oversupply of pipeline. Do think there are any concerns? And I 
will just open it up. You answer however you wish.
    Mr. Mahmoud. Sure. Thank you very much.
    You know, in the context of natural gas, we do have the 
Rover pipeline, which is up partially in Pennsylvania for a 
small section. It is a 713-mile pipeline that gathers natural 
gas from the producing region of the Utica and Marcellus and 
takes it to market.
    I can tell you there is about 20 Bcf of stranded gas in the 
Utica and Marcellus today. Our project moves 3.25 billion cubic 
feet of that 20. So that means there is a need for more 
pipelines to be built in that region to take care of that 
capacity to de-bottleneck the production in that region.
    So in my mind, those infrastructure projects are necessary 
to transport the volume coming out of that production region.
    Mr. Griffith. One of the concerns that Ms. Kann has and I 
know gas companies want to try to work it out the best they can 
but everybody has got to make money while they are doing this, 
too, is that her region apparently isn't going to benefit from 
it. The gas is being transported through. Is that going to be 
the case in the Dakota pipeline as well or are there going to 
be some opportunities after the pipeline is built for 
opportunities there for people to get the gas?
    Mr. Mahmoud. So the Dakota Access Pipeline is a crude oil 
pipeline.
    Mr. Griffith. OK.
    Mr. Mahmoud. That is a little bit different than natural 
gas.
    Mr. Griffith. Sure.
    Mr. Mahmoud. And I would suggest on the connectiveness or 
interconnectiveness to an interstate natural gas pipeline is 
the process for which to get access to that gas really resides 
with the States, with the State public utility commissions. 
That is where the work needs to be by the local constituents to 
help them develop programs to build LDCs to distribute that 
gas. Because from an interstate perspective, we would love to 
have more connections.
    Mr. Griffith. All right, now on the oil in particular, a 
number of folks have brought up the fact that there have been 
some pipeline problems over the years, but, just on either side 
of my district, I have had train problems with transporting 
oil. Which do the studies say is safer, the pipeline or running 
it on train?
    Mr. Mahmoud. Pipelines by far, by a factor of between 3 
1A\1/2\ to 4 1A\1/2\ times more incidents on a rail than there 
are on pipe.
    Mr. Griffith. All right, I appreciate that. I yield back, 
Mr. Chairman.
    Mr. Olson. The gentleman yields back.
    The Chair calls upon the gentleman from Ohio, Mr. Johnson, 
for 5 minutes.
    Mr. Johnson. Well thank you, Mr. Chairman, and thank you 
for having this important hearing today.
    I want to turn to Mr. Ferry, if I could. Mr. Ferry, it is 
always good to have someone that has seen the impacts the shale 
plays in the oil and gas boom in the Marcellus and the Utica in 
the great State of Ohio here to talk a little bit about our 
experiences.
    In your testimony, you state that widespread adoption of 
new energy technologies has been slowed by economic, 
Government, and marketplace barriers. Could you identify these 
barriers? And how can we reduce these barriers to help the 
industry utilize new technologies?
    Mr. Ferry. I think you heard a lot of it today from Mr. 
Mahmoud. Those are some of the issues that are going on that 
have slowed down--in the year 2016, we were supposed to be well 
done with the ETC Rover pipeline project, and it is only going 
to kick off here in the middle of February. But it has been the 
permitting. It is the FERC permitting, the EPA issues. We need 
to--and the balance between this side of the room and this side 
of the room, and I am in the middle. I understand because I 
respect what is going on over there, but we do want to put 
people to work.
    We do have investors that have a lot of money sitting on 
the table that they need to get it to get a TAP capital return.
    So, I would say the permitting issue is number one, and 
then once this finally gets worked out, we are going to have 
major issues of finding talented people to get it done, that 
can do it safely. Number one, it is driven from the top. In our 
company, it is: you see it, you own it, you have to get 
involved to stop it. But the other thing that we talked earlier 
about is I am really concerned about having a drug-free 
workforce out there to do it safely as we respect it on all 
jobs. The owners demand that we have a drug-free program in 
place and I think that is another issue that is going to hurt 
us in the long-run.
    Mr. Johnson. OK, could you discuss the Electrical Training 
Alliance Apprenticeship Program and how important it is in 
developing a skilled workforce?
    Mr. Ferry. President Lonnie was here earlier from the IBEW 
but we, together, it is called the NJATC, the National Joint 
Apprenticeship Training, which was the alliance, we invest, 
like the Laborers, over hundreds of millions of dollars a year, 
and there are over 300 training facilities across the United 
States, and they are all keyed for every area what the training 
needs to be.
    So, just like Mr. O'Sullivan says, if the pipeliners are 
not working, there is other training that we can do to get our 
electricians to work. So our trade, the electrical trade, has 
went from just pipe and wire, and lights and switches, to a 
vast array of training needs to get that done.
    Mr. Johnson. And I am thinking that many in our region of 
the country, in our State of Ohio are going to be paying very 
close attention to this hearing, so I want to make sure that I 
get this question out there. Is it safe to say that if you are 
a part of that trained workforce and you put forth the effort, 
that your chances of getting opportunities for good paying 
jobs, high paying jobs are real good?
    Mr. Ferry. I would say it is an excellent opportunity.
    Again, one of the things, one of jobs as being the leader 
of the company and having the vision, that is the biggest fear 
I have is having the talented people to make that happen. There 
are going to be great opportunities in Ohio, West Virginia, 
Pennsylvania, just the cracker facilities, along with the 
fracking and gas and oil, there are going to be a lot of great 
opportunities.
    Mr. Johnson. You know, I have talked to a lot of the labor 
groups and the career tech centers, and whether it is the 
building trades, the plumbers and pipefitters, the operating 
engineers, you name it, about these opportunities, can you talk 
a little bit about, especially in our region, you have got a 
lot of young people that don't really see a 4-year college 
education as something that they want to do. And there are a 
great number of opportunities in those trades, in the oil and 
gas industry.
    Can you address that some?
    Mr. Ferry. Absolutely. I think the universities have done a 
great job in marketing that you need a 4-year degree to have an 
opportunity to raise a family, but I am classic example of 
that. I come out of high school, I was the oldest of seven. We 
didn't have the money for college. I went into the trades, and 
now I am the owner and CEO of a company.
    So the possibilities to get into the construction industry 
is unlimited. It is all driven by the individual and how far 
they want to go in this industry.
    Mr. Johnson. Anything that we can do in Congress to help 
this process along?
    Mr. Ferry. I am leaning this side over here. The 
regulations have really slowed the processes down.
    Mr. Johnson. We are working on those. You know that.
    Mr. Ferry. Yes, sir, but I know when President Trump signed 
those orders on the 24th, our phones started ringing off the 
hook of opportunities.
    Mr. Johnson. Our phones are ringing off the hook, too.
    Mr. Ferry. Yes, sir.
    Mr. Johnson. Good deal. Well, thank you, Mr. Ferry.
    And Mr. Chairman, I yield back.
    Mr. Ferry. Thank you, Congressman.
    Mr. Olson. The gentleman yields back.
    The Chair calls upon the gentleman from Missouri, Mr. Long, 
for 5 minutes.
    Mr. Long. Thank you, Mr. Chairman. And as I was hearing you 
introduce my friend Mr. Johnson, I thought, well, I am next, so 
I had better get my questions ready.
    And I looked and I couldn't find my questions. Then I 
started to listening to Mr. Johnson. I thought he is answering 
my questions. He had stolen my paper.
    Mr. Johnson. Would you like some of mine?
    Mr. Long. So, all I can do is, I am going to yield to my 
friend from North Dakota.
    Mr. Cramer. Thank you, I think. And thank you, Mr. 
Chairman. Again, thanks to all of you.
    As I said, I want to dig into the consultation issue, 
because I think it is important. And I am going to start by 
reading from an important-to-note December 3, 2016, memorandum 
of record from the Department of Army Corps of Engineers, Omaha 
District. December third is important because it was on 
December fourth that the Acting Secretary of the Army called me 
to tell me, ``I have changed my mind.''
    OK, so December third, this was the memorandum. I am going 
to start at the end. It says, ``The Corps of Engineers, through 
the Department of the Army, is required by statute to notify 
Congress when an application is received and when the Corps is 
going to grant an easement for a pipeline that is greater than 
24 inches in diameter. ... The Army notified Congress of the 
application on September 13, 2015,'' and, ``In accordance with 
this memorandum, I recommend the Army notify Congress that the 
Corps intends to grant the attached easement to Dakota 
Access.''
    And it ends by saying, ``After notification to Congress, 
the Omaha District intends to execute and issue the easement to 
Dakota Access.'' December 3, 2016.
    I am going to highlight a couple more points in this memo. 
About halfway through: ``Corps policy is that it will 
coordinate and consult with federally-recognized Native 
American tribes when reservation lands are involved. ... The 
proposed DAPL crossing at Lake Oahe is not on reservation 
lands; therefore, by policy there is no requirement to 
coordinate with any federally-recognized tribe. However, the 
Corps reached out to the [Standing Rock Sioux Tribe] to 
coordinate and to consult on the DAPL project. As established 
in the analyses set forth in the Final [Environmental 
Assessment]''--that is this document, Mr. Chairman--``the Corps 
attempted to engage in meaningful discussions with the 
[Standing Rock Sioux Tribe] on numerous occasions about the 
nature of the project, cultural resources, and the Lake Oahe 
crossing beginning in October 2014 and continuing through March 
2016.''
    Mr. Chairman, I would respectfully request that both the 
Environmental Assessment and this memorandum be entered into 
the record.
     Mr. Upton [presiding]. Without objection.
    [The information appears at the conclusion of the 
hearing.]\1\
---------------------------------------------------------------------------
    \1\ The memorandum appears at the conclusion of the hearing. The 
Environmental Assessment has been retained in committee files and also 
is available at  http://docs.house.gov/meetings/IF/IF03/20170215/
105567/HHRG-115-IF03-20170215-SD007.pdf.
---------------------------------------------------------------------------
    Mr. Cramer. I also wanted to then turn to a decision by DC 
District Court, U.S. Judge James Boasberg for the United States 
District of Columbia, appointed by President Barack Obama, for 
what it is worth.
    I am going to skip several references to the consultation 
process that he references, but I am going to jump to page 48 
of this 58-page order.
    ``Plaintiff's last point on the merits is that the Corps 
failed''--this is important, because Mr. Mahmoud referenced the 
importance of a Government-to-Government responsibility here--
``the Corps failed to offer it a reasonable opportunity to 
participate in the Section 106 process as to the narrow scope 
of the construction activity that the Corps did consider to be 
an effect of the permitted waterway activities.'' And then it 
goes on to talk about the process.
    He writes, ``The Corps has documented dozens of attempts to 
engage Standing Rock in consultations to identify historical 
resources at Lake Oahe and other PCN crossings. To the reader's 
relief''--and he is right--``the Court need not repeat them 
here. Suffice it to say that the Tribe''--the Tribe--``largely 
refused to engage in consultations. It chose instead to hold 
out for more...''
    And then he writes, ``In fact, on this record, it appears 
that the Corps exceeded its [National Historic Preservation 
Act] obligations at many of the ... sites.''
    I am going to skip several other references. I will read 
this one on page 55: ``The record contains abundant evidence 
that the Corps also repeatedly sought other input on known 
cultural sites at these locations, and, in many cases, other 
tribes conducted site visits to search for any resources likely 
to be affected ...'' And on he states.
    But I think it is really important to highlight that he 
actually references here that, ``In fact, on this record, it 
appears thay the Corps exceeded''--exceeded--``its NHPA'' 
requirements.
    In conclusion, he writes, ``As it has previously mentioned, 
this Court does not lightly countenance any depredation of 
lands that hold significance to the Standing Rock Sioux. Aware 
of the indignities visited upon the Tribe over the last 
centuries, the Court scrutinizes the permitting process here 
with particular care. Having done so, the Court must 
nonetheless conclude that the Tribe has not''--has not--
``demonstrated that an injunction is warranted here.''
    I will ask questions at my next opportunity. I yield.
    Mr. Upton. The gentleman's time has expired.
    Dr. Bucshon.
    Mr. Bucshon. Mr. Chairman, I yield my time to Mr. Cramer.
    Mr. Cramer. Thank you, Mr. Bucshon. Thank you, Mr. 
Chairman.
    And I would then ask for unanimous consent to enter into 
the record Judge Boasberg's ruling.
    Mr. Upton. Without objection.\1\
---------------------------------------------------------------------------
    \1\ The information has been retained in committee files and also 
is available at  http://docs.house.gov/meetings/IF/IF03/20170215/
105567/HHRG-115-IF03-20170215-SD008.pdf.
---------------------------------------------------------------------------
    Mr. Cramer. All right, thank you. I do want to get into 
this consultation process a bit. One of the things that we 
heard that I want to dig into, Mr. Mahmoud, is that Mr. 
Harrison in his testimony references consultation, meaningful 
consultation, Government-to-Government. These are all things I 
think we need to be talking about, especially going forward. I 
don't think you can change in midstream.
    But he also references something that I think is relevant 
to this entire hearing, and he references the need for consent. 
Now, consultation is one thing. Consent means something 
completely different. Could you tell me, as a developer, what 
would it mean if every development of any type required the 
consent of Tribal entities on private property outside of a 
reservation? How would that impact development going forward?
    Mr. Mahmoud. Thank you for the question. Consent is 
something that we, from a development standpoint, would 
probably not have a--we would not agree to that from a 
standpoint of--the process already exists today, where the 
consultation under the Federal laws is intact. Where, if the 
Tribes, no matter what Tribe in what State, would engage in 
that consultation and really engage in meaningful consultation, 
then I believe that their voices would be more heard and I 
believe that their questions could be answered. And then I 
believe that we would have a more robust process.
    So, I don't believe consent is the answer. I believe 
meaningful engagement is the answer under the current laws, as 
they stand today.
    Mr. Cramer. Thank you for that. Mr. Harrison, I want to ask 
you, because you have referenced--and I think this is an 
important point--you have referenced treaty issues. I think you 
acknowledge that this DAPL does not cross reservation land. Is 
that correct?
    Mr. Harrison. The reservation as it stands today, yes.
    Mr. Cramer. Correct. And the big hole that you referenced 
in the previous map really wasn't treaty land where there is a 
hole because, clearly, the two pipelines that are in the same 
corridor as the DAPL are on the land that is in dispute right 
now.
    So you referenced treaty. Tell me which treaty you are 
referencing, and maybe give us--I don't know if 30 seconds is 
enough. You are a good educator, but I don't know how much time 
you need. Just tell us about that treaty and what is at stake 
here.
    Mr. Harrison. OK, the treaty that we reference is the 1851 
Fort Laramie Treaty. And that is a larger part of four or five 
States, basically the western corner, the southwest corner of 
North Dakota, large part of South Dakota, probably half of 
South Dakota, I should say, parts of Montana and Wyoming, as 
well. And that is the treaty line that we reference.
    Mr. Cramer. So since we are on that, then what can you tell 
me about the Laramie Treaty of 1868, which is obviously after 
1851, because that is on your Web site. You probably know that. 
And that, I believe, in that treaty the Tribe gives up some of 
its authority, if you will, over these other treaty lands.
    Can you sort of clarify that for us a little bit?
    Mr. Harrison. I will clarify this, that the Tribe has never 
given up anything. It was taken. And that is a big point of 
contention on this.
    Mr. Cramer. So what is your recourse then with regard to 
the Treaty of 1868? Because I think, if I am not mistaken, I 
think that is sort of where we land on some of what is in 
contention. Because clearly, again, it is not on the 
reservation.
    Mr. Harrison. I guess I would disagree a little bit on the 
fact that that is not where we land. We land on the fact that 
we do have a Government-to-Government relationship. It is very 
clear that this process is not only flawed, but it is not in 
the Tribe's favor at all. And whether meaningful consultation 
is had, the big question is, Is it listened to? We can object 
until we are blue in the face and if that pipeline, or any 
other pipeline, or any other project, whether it affects us or 
townspeople like Ms. Kann here, it still goes in and says we 
noted that is the problem we have. We do not approve of the 
checking-the-box attitude of it.
    We reached out to you. Check. We oppose that. We want 
consultation. We want meaningful dialogue.
    Mr. Cramer. But Judge Boasberg claims that there were 
dozens of attempts at meaningful consultation, but the Tribe 
wouldn't----
    Mr. Harrison. Judge Boasberg also scrutinizes the process 
and acknowledges that there has been decades, if not centuries, 
of problems with this.
    Mr. Cramer. Well, and I think that is the problem. We are 
not going to litigate the history in this one project, but that 
is why I wanted to clarify things going forward so that perhaps 
we can do better going forward.
    I yield back.
    Mr. Harrison. And we would really like to be a part of that 
dialogue going forward, to look for some resolution to a lot of 
these things and to be included.
    As I stated at the outset, we are Americans. We are the 
first Americans, and we want to be treated as such.
    Mr. Cramer. Thank you.
    Mr. Harrison. Thank you.
    Mr. Olson [presiding]. The gentleman yields back. The Chair 
calls upon the gentleman from Maryland, Mr. Sarbanes, for 5 
minutes.
    Mr. Sarbanes. Thank you very much, Mr. Chairman. Obviously, 
a very important hearing. I want to thank the panel. This is a 
critical discussion whenever we are siting a pipeline or any 
other kind of energy infrastructure project, it is important 
that we balance all of the various interests. I certainly think 
that means being sensitive to impacted constituencies and that 
is a challenge for us and a challenge for all the agencies that 
have to weigh these important decisions. So, it is a very 
important discussion that we are having.
    I would like to yield the balance of my time to Mr. Ruiz 
from California.
    Mr. Ruiz. Thank you. And thank you, Mr. Chairman. I want to 
thank the committee for holding this important hearing and our 
witnesses for coming. Thank you for coming to tell your 
stories. They are important stories. Each and every one of your 
stories is an important story.
    And this is a story of the Federal permitting process being 
rushed and fast tracked without meaningful Tribal 
consultations. We have had multiple conversations of what that 
means to be meaningful. And if done properly, and according to 
law, could have avoided the delays that are harming families, 
harming workers, and could have prevented the desecration of 
very important sacred sites. It is a story about environmental 
injustice taking a risk burden from one community and putting 
it on a more vulnerable community's shoulders. It is a story 
about how our Nation is, once again, trampling on the rights of 
Native Americans and threatening the health, environment, and 
cultural survival of the surrounding Tribes.
    It is also a story of an administration that fast tracked 
the project, despite the serious warnings and strong 
recommendations by the EPA, the Department of the Interior, the 
National Council of Historic Preservation, circumventing the 
already-in-process Environmental Impact Statement review in 
order to line its own pockets. You see the Federal Government 
has a moral and legally enforceable obligation to protect 
Tribal treaties, land, and resources under the Federal trust 
responsibility. Tribes have the right to regular and meaningful 
consultation under Executive Order 13175 for projects that can 
have an impact on health or Tribal land.
    Under the Historic Preservation Act, Federal agencies are 
required to be responsible stewards of the Nation's historic 
resource and consult with Tribes when their actions may impact 
sacred sites.
    Furthermore, under the Clean Water Act, the Army Corps has 
the responsibility to protect our Nation's waters from 
contamination by conducting accurate Environmental Assessments 
to determine if construction permits should be granted and all 
those other agencies said that that initial assessment was 
inaccurate.
    So, it is not just the right thing to do, based on our 
historical experiences and historical traumas with Native 
Americans, it is the law.
    So, now we find ourselves confronting an historical 
violation of both civil rights and Tribal sovereignty, all 
because the procedural safeguards of the meaningful 
consultation process were not followed.
    The proposed pipeline was determined to be too risky 
already for one community in Bismarck. So, let's put it in a 
more vulnerable community. Why did that happen? Why is it now 
acceptable that we give the risk--put the risk onto the Tribes?
    I want to reiterate again that the workers are caught in 
the middle of this failed system. Tribes and working families 
want the same thing, a better quality of life for themselves 
and their families, a fair opportunity to have a say in 
decisions that may affect their health, cultural preservation 
and their environment. They want to be heard, a seat at the 
table.
    So I stand with the Tribes, and I am greatly disappointed 
that this administration has ignored scientific evidence 
requiring an Environmental Impact Statement. I also stand with 
the workers, because it is unfair to them and their families 
that they should suffer because of a failed permitting process.
    So in terms of the sacred sites, on September 2, 2016, 
shortly before my visit to Lake Oahe and the Sacred Stone Camp, 
the Tribe filed paperwork with the court that identified sacred 
and culturally significant sites that were miles apart from the 
construction site but in the proposed line of construction. Not 
even 24 hours later, in the middle of the night, on a holiday 
weekend, Labor Day, DAPL bulldozed and completely demolished 
the site the Tribes were trying to save and had identified 
earlier.
    Time after time Tribes have seen their treaties broken, 
their lands taken, and sacred sites desecrated.
    So, Mr. Mahmoud, I want to ask is it standard practice to 
go and at 3:00 a.m. on a holiday weekend to bulldoze a site 
that has been designated as a culturally significant site by 
the Tribe?
    Mr. Mahmoud. Thank you for the question. And let me start 
off with I believe that a lot of what you said is the reason we 
are here today is to correct the record.
    Mr. Ruiz. Well, the record shows that you guys at 3:00 a.m. 
on a holiday weekend went over and specifically bulled over a 
site that was so sensitive to the Tribe. So, that is what the 
record shows.
    Mr. Mahmoud. So let me back up a little bit and start off 
with the pipeline parallels and existing utility corridor, that 
was constructed in 1982. As part of that, the swath of the land 
where our pipeline sits simply disturbed all the land----
    Mr. Ruiz. Well my question is on the timing and the day of 
the actual decision to go in and desecrate a sacred site.
    Mr. Olson. The time has expired.
    The Chair calls upon the gentleman from Texas, Mr. Flores, 
for 5 minutes.
    Mr. Ferry. Mr. Chairman, I need to excuse myself. I have a 
flight to catch and I apologize.
    Mr. Olson. Oh. Thank you very much for coming, Mr. Ferry. 
Safe travels home.
    Mr. Ferry. Thank you.
    Mr. Olson. Mr. Flores, your time, sir.
    Mr. Flores. Thank you, Mr. Chairman. Mr. Ferry, I want to 
tell you thank you for your story and your testimony today, as 
well as the rest of the panel. Your story was inspiring.
    Mr. O'Sullivan, when I talk about the Keystone pipeline 
back home and the DAPL, most of my constituents get it. They 
understand the value of jobs, any job. But there are some that 
don't. Some say that we shouldn't build these infrastructure 
projects because they are temporary jobs. And so I would like 
you to ask the people who would be affected by that logic, that 
failed logic, who would be affected? If every job was a 
temporary job and so, therefore, there should be no temporary 
jobs, who would be affected? Would you ask them to stand up?
    Mr. O'Sullivan. Well Congressman, I mean those that say 
that, and there have been some----
    Mr. Flores. But would you ask them stand? I mean you have 
got some here with you, don't you?
    Mr. O'Sullivan. Yes, whether it is Keystone pipeline, we 
could argue over the amount but there has been estimates as 
high as 42,000.
    Mr. Flores. I know but I want the American people to see 
the eyes of the people who would be affected by that false 
logic.
    Mr. O'Sullivan. And the eyes of the people who would be 
affected are sitting right behind me.
    Mr. Flores. Would you ask them to stand?
    Mr. O'Sullivan. Yes, I would.
    Mr. Flores. OK, thank you.
    Mr. O'Sullivan. Would my brothers and sisters from LIUNA 
stand?
    Mr. Flores. Thank you. OK, sit down. Thank you. Apparently, 
I was out of order. Anyway, people got to see that.
    So that logic doesn't work. And essentially, an 
infrastructure project--you know we are talking about 
infrastructure in this country and trying to renew our 
infrastructure. So, infrastructure is a series of temporary 
projects. Is there any difference between the value of a 
temporary paycheck and a full-time paycheck? It is still a 
great paycheck, right, based on what you told me you pay 
earlier.
    Mr. O'Sullivan. Absolutely.
    Mr. Flores. OK, that is good to hear.
    So, I would like to continue. Even as we migrate to a low-
carbon economy, fossil fuels are still going to be a key fuel, 
a key energy source for the years to come. And so in that 
regard, why is it important that we establish a more reasonable 
and predictable permitting and review process for complex 
infrastructure projects like pipelines?
    Mr. O'Sullivan. From my perspective, the reason for that is 
that there has to be, as I have said, a beginning and an end. 
The regulatory process, and it needs to be thorough, no 
question about that, it needs to be a process where there is a 
reasonable expectation that when these projects are announced 
and they are thoroughly reviewed, that they lead to middle-
class-family-supporting jobs. And one of the challenges we 
have, and I know Joey and ETP, and others have, is the delivery 
system of workers because if we start training now for a 
project that isn't complete, those individuals may never go to 
work and we can turn them off about a whole sector of an 
industry.
    So, if we don't fix some of the things that we have been 
talking about in this hearing, it is going to affect our 
ability to provide a capable and skilled workforce.
    Mr. Flores. I think you answered the question pretty well 
and I am sorry to cut you off.
    Mr. O'Sullivan. That is all right.
    Mr. Flores. So in order to move forward with the big 
infrastructure ambitions that we have as a country we need to 
modernize the permitting process so that we can benefit these 
hard-working American families and so that their so-called 
temporary jobs become a series of temporary jobs that leads to 
a vibrant middle class. And I thank you for that.
    Mr. Mahmoud, you talked about the fact that if this 
pipeline is not built, we are going to have to use trucks or 
trains. You talked about the relative safety impacts.
    One of the things we didn't talk about is the climate 
impact of a pipeline versus trucks or trains. So when you look 
at trucks, trains, and pipelines, which has the lowest carbon 
footprint in terms of fuel transportation?
    Mr. Mahmoud. Pipelines by far.
    Mr. Flores. OK, thank you. And one of the things you talked 
about, you touched on this a minute ago, you are going to bury 
this thing 90 to 115 feet below this reservoir and below the 
river, which is very unusual. Most pipelines are in the 15- or 
5- to 25-foot range.
    Tell me about why you did that. I mean there is a 
geological subsurface issue here that--just tell me why you are 
doing that.
    Mr. Mahmoud. OK. And you are right, it is all about 
geology. So we have to span--the crossing of the waterway in 
that particular location is 5,400 feet. So, it is an 
engineering issue and it is also a geology issue.
    At that location, there is sand, and clay, and some gravel, 
and then there is what is called a clay shale. And so part of 
the design was to put the pipeline in the soil band that is 
most conducive to allow that drill to be successful. And then 
you have to engineer to make the inflections or the bends in 
the pipe so the pipe can withstand the forces on it when you 
are pulling it through the hole. So, it is a combination of 
engineering design and geology that puts you to a depth. And in 
this case, we wanted to be as deep as we could.
    Mr. Flores. And the bottom line is, it becomes a much safer 
pipeline because you are doing it that way.
    Mr. Mahmoud. One hundred percent. That is exactly right.
    Mr. Flores. Thank you. I yield back.
    Mr. Olson. The gentleman yields back.
    The Chair calls upon the gentleman from Oklahoma, Mr. 
Mullin, for 5 minutes.
    Mr. Mullin. Thank you, Mr. Chairman. And as my colleague 
from West Virginia was referring to, there is only a few of us 
that have been on construction sites. I traded in my Carhartt's 
and Red Wings when I got elected to office and had to learn how 
to tie a tie and buy my first suit. True story.
    For my guys that are sitting in the back representing the 
labor force, special labor force across the country, I wish you 
guys weren't here. I wish you were on a jobsite. You know if 
they use the logic that this is considered a temporary job, 
than all 150 of my employees are a day-by-day employee but I 
think they consider themselves full-time, considering some of 
them have been working for me from 17 to 20 years. It just 
shows the lack of understanding and the lack of knowledge.
    And we are talking about construction jobs. And Republicans 
and Democrats have all been saying we have got a job package, 
we have got a job package. And the only reason why I ran is 
because I was saying get your foot off my neck and I will go to 
work but we can't because of all the political correctness and 
all the in-house fighting and all the permits that has got to 
be used and it gets old.
    And Mr. Harrison, I am Cherokee. I understand very well 
sacred sites and heritage sites. It is our heritage. I want to 
protect them, too. It is vitally important to me. I live in the 
same spot that my family literally quit walking on the 
volunteer walk until we got to Indian territory which is known 
as Oklahoma.
    I still own the same land that was allotted to my family, 
and there is a utility easement that goes across it. And I was 
glad to grant the utility easement because it is not just about 
our back yard, but it is about the country as a whole. What is 
good for your back yard is good for the country, and it is 
going to create jobs in your back yard, too. And you 
misrepresent it by starting to say that it is an 1851 Treaty, 
but you are not referring to the 1868 Treaty--is that what it 
was? But yet you want to talk about Government-to-Government 
relationships and yet you want to honor what is in one treaty 
but you don't want to use that one; you actually want to refer 
back to the other treaty. It seems a little hypocritical to me.
    We want to talk about not engaging and having meaningful 
conversations between Government-to-Government, but yet they 
try to engage with you guys 389 times. Is that not enough? What 
do you consider meaningful meaningful conversations between 
Government-to-Government?
    Mr. Harrison. An actual dialogue, perhaps.
    Mr. Mullin. You have been engaged 389 times. You have had 
time to have a dialogue. Because coming out of those 
nonmeaningful, according to you, but 389 times which, by the 
way, is why we can't build pipelines, they moved it 140 times.
    Mr. Harrison. Not on our land. That was on----
    Mr. Mullin. Well those were meaningful conversations, 
weren't they?
    Mr. Harrison. Those weren't our conversations.
    Mr. Mullin. Were they not taken into consideration?
    Mr. Harrison. Those were not our conversations.
    Mr. Mullin. How many times have you guys been invited to be 
at the table?
    Mr. Harrison. Numerous. I met with Joey myself.
    Mr. Mullin. And those weren't meaningful?
    Mr. Harrison. No, they were proprietary and confidential.
    Mr. Mullin. So the only way that it was going to be is, it 
was going to be moved, regardless of what you guys wanted. It 
was going to be--go where? You didn't want it on an existing 
easement that has already been there since 1982, which means 
that that soil had already been dug before. There has already 
been Environmental Impact Studies. There have already been 
sacred sites looked at. And you don't want it there. So, where 
do you want it?
    The answer is you don't want it. You just don't want it.
    Mr. Harrison. No, we just----
    Mr. Mullin. Because if you don't want it right there, you 
are wanting it to reroute it someplace else. But through Indian 
country, every time we dig up certain places because we 
occupied all the land, it can all be considered sacred at some 
point.
    Now, if I am making a decision of where I want a pipeline 
because we need the infrastructure, I would rather put it on an 
existing easement that has been there since 1982 that we 
already know, for the most part, what is underneath the soil. 
Wouldn't you?
    Mr. Harrison. Not in this case, no.
    Mr. Mullin. So you would rather it just be routed someplace 
else and dig up new soil and you are not worried about those 
sacred sites.
    Mr. Harrison. At the risk of----
    Mr. Mullin. At the risk of what?
    Mr. Harrison. Can I finish?
    Mr. Mullin. Yes. I mean, risk of what?
    Mr. Harrison. At the risk of us guys taking all the risk--
--
    Mr. Mullin. Us guys, who is us guys? This isn't going 
across Tribal land because this wasn't actually in the last 
treaty. So a risk of what?
    Mr. Harrison. A risk of a breach. A risk of a spill.
    Mr. Mullin. A breach of what?
    Mr. Harrison. The oil pipeline.
    Mr. Mullin. What are they breaching? They are not going 
across what you consider the current treaty. They were going 
outside of it.
    Mr. Harrison. The river that flows goes into our treaty 
land, across our reservation.
    Mr. Mullin. But they have already crossed it, and it has 
been crossed upstream multiple times, too.
    Mr. Harrison. They could have crossed anywhere else 
upstream.
    Mr. Mullin. So you are OK with it going upstream, which 
doesn't make any sense, because if there was a breach, that 
means the oil would flow downstream.
    Mr. Olson. The gentleman's time has expired.
    The Chair now calls upon the gentleman from California, Mr. 
Ruiz, for 5 minutes.
    Mr. Ruiz. Thank you very much. You know, this is the same 
old song that we have been dealing with in our relationships 
with Tribes throughout our country's initiation. It is a 
historical trauma of paternalistic disrespect, political 
trickery that abuses laws and policies, then we interpret them 
during our own convenience, in terms of the Federal Government, 
in order to tell you what to think, what to say, and then also 
put the blame of that historical trauma and experience on your 
shoulders to then turn around and say it is your fault.
    I think it is a shameful way to treat Native Americans and 
the first people, and this must end. This must end in our 
country. This must end to relieve our historical trauma. You 
are not a hypocrite for standing up for your historical reasons 
to say that that water that is not on your land has a vital 
component to your land, your life, your drinking water, and all 
those people that depend on it downstream.
    It is not hypocritical when somebody does not ask you where 
your sacred sites are to bring your opinion in there to say, 
wait a minute, all throughout the pipeline construction, can 
you just at least ask me, ask our Tribe where we think our 
cultural sites are? We will work with you. It is not 
hypocritical for you to extend your hands with labor and others 
to say listen, build it somewhere else. Right now we are living 
in the now and the moment and this is a great risk for our 
Tribe, for future generations, for our ability to drink this 
clean water. So hey, if you want to reroute it into some other 
place and build more pipe and lay more pipes for more hours of 
work and more construction and more jobs, then go for it but 
just not now, not in the water source that we drink.
    Executive Order 13175 says any project that has an impact 
to the land or the health of Tribes. Don't we all, as 
Americans, deserve the right to self-determination and have a 
right on decisions that may affect our children's health, our 
sacred lands and our future? Isn't that a fundamental value of 
the democratic process? Isn't that a fundamental American value 
that we must stand up for? Isn't that the value of the working 
families that want to have a say in what we do for our 
livelihood and have a fair shot and benefits package so that we 
can claim our rightful place in this Nation's great industry 
and economy?
    So this is what is at stake now, and I am so tired of the 
Federal Government not respecting the meaningful consultation.
    Notification is not meaningful consultation. Engagement is 
not meaningful consultation. Asking somebody to come to your 
meeting so they can check off a box and use that as an excuse 
to say ``See, we did consult with these Tribes'' is political 
trickery. It is not meaningful consultation.
    Meaningful consultation is consulting, having dialogue, 
understanding the concerns, the risks at the beginning, before 
a plan was made and come to say, ``Hey, listen, this is what we 
are going to do. I want you to sign this box so we can get on 
with it.'' No, it is to talk about not only the design, the 
location, the compromises, the negotiations, the rerouting, the 
mitigation risks, and all the cleanup Superfunds that need to 
exist so that the burden of cleanup and the risks aren't just 
placed on Native Americans. That is meaningful consultation.
    This is not about not creating jobs. This is not about not 
helping the labor force to have a dignified job with a future 
for your families. This is about respecting Tribes and ending, 
once and for all, the historical trauma that they have faced in 
our Nation.
    What is meaningful consultation for you, Mr. Harrison?
    Mr. Harrison. It is an actual dialogue. I just want to 
refer to Congressman Mullin. That wasn't meaningful dialogue. 
That is the way things have been going when we get peppered 
when we walk into the room. Rather than hear our side out, we 
get peppered with the hypocrisy, the numbers of however many 
times they dialed our phone number. That is not meaningful 
consultation.
    Consultation comes in the planning stages. Consultation 
comes beforehand, when they can actually make some adjustments 
prior to. They have consulted other Tribes. Apparently, they 
have made 144 two-foot diversions. The pipeline is still going 
where it is going to go.
    Mr. Ruiz. I really want to get to the bottom of this and 
fix a problem so that our workers don't have to be caught in 
the middle of this anymore and in the future. Let's define what 
meaningful consultation is.
    I have a GAO study that I requested to determine whether or 
not the Federal Government is in compliance with that. The 
previous administration has conducted a multi-agency 
investigative study to determine what does ``impact'' and 
``meaningful consultation'' mean. So, let's start looking from 
those to put those into practice and implementation.
    Mr. Olson. The gentleman's time has expired.
    The Chair now calls upon Mr. Cramer from North Dakota.
    Mr. Cramer. Thank you, Mr. Chairman. Again, thanks to all 
of you for being here. Mr. Harrison, special thanks and welcome 
to you.
    It is hard to respond to that kind of raging nonsense, but 
I do have to say a couple of things.
    First of all, you have to, if you are invited into 
meaningful consultation but don't show up, it is not the person 
that invited you into the consultation, that there wasn't 
meaningful consultation. You have to show up when you are 
invited and at least respond to the request.
    I want to get to another thing that Mr. Ruiz kept saying. 
There are many fake news stories, many fake news stories 
related to this, but perhaps one of the most egregious is this 
notion that there was once a route through north of Bismarck 
that was denied by all the white people in Bismarck, therefore, 
they had to move it down upstream from the reservation. That is 
just not true. That is blatantly not true.
    I have sited many pipelines, and this route was chosen 
because it is the most direct, because it is an existing 
corridor that the Tribe, by the way, did not oppose 35 years 
ago when 2 other pipelines and a transmission line went across 
it.
    So we have just got to get back to reality. There is a 
Tesoro refinery on the west side of the Missouri River in 
Mandan, North Dakota, that employs many union workers. We are 
very proud of that refinery. That refined product goes under 
the Missouri River, right through Bismarck, on to Fargo, North 
Dakota. Nobody ever complains about it. We are happy to have 
it. There is a pipeline two houses down from mine. I am glad to 
have it there. I am grateful the warmth it brings.
    I want, though, to speak in my final moments maybe with 
you, Mr. O'Sullivan. One of my dearest friends in this body is 
David Scott, a Democratic Member of the Congressional Black 
Caucus from Atlanta, Georgia, who might be organized labor's 
biggest friend in the Congress. He and I worked together on the 
Keystone pipeline. We worked together on several other energy 
projects. We have introduced this year legislation similar to 
what he wanted in the Keystone pipeline to encourage the 
unions, encourage the companies, encourage the Government in 
their process of utilizing labor, obviously, training and 
apprenticeship programs to put a special emphasis on a social 
problem, and that is jobs for young black men.
    I would just love to hear more about how your union and how 
your membership reaches out to our minority community to 
provide--OK, call me biased, I suppose, for wanting to give a 
hand up, a leg up to certain populations that I think need it, 
frankly, and that have earned it, but help me understand how we 
can maybe do more with our minority population and identify 
opportunities.
    Mr. O'Sullivan. Well, Congressman, I can tell you what we 
do in the Laborers' International, and that is when we have 
opportunities like we do with ETP and other pipeline owners and 
users. And a lot of times because work is good in the energy 
sector, we have to recruit young men and women into our 
organization, train them, and put them on projects like Dakota 
Access Pipeline.
    We work with faith-based groups. We work with local high 
schools, as we have we talked a number of times today about 
those that aren't ready to go to college or want an alternative 
career. So, our commitment to diversity in trying to do as much 
local hire as we possibly can is second to none.
    There are golden opportunities to work with people of 
color, faith-based groups, community groups, even community 
colleges, to recruit the workforce of tomorrow.
    Mr. Cramer. So Mr. Harrison raised a very important point 
about what is in it for us, so to speak. Those are my words, 
not yours. You are more eloquent. But related to ``none of the 
workers are ours,'' could we try--they have wonderful community 
colleges. Sitting Bull is a great college down in Standing 
Rock. United Tribes Technical College in Bismarck has worked 
with the industry to identify some skills that they could 
train. Let's commit at least to that, to providing more 
opportunities to provide jobs that I think could cure a lot of 
the social challenges, as well as the relationship challenges, 
that we seem to be facing today.
    Mr. Mahmoud, how does that sound for a plan going forward?
    Mr. Mahmoud. We absolutely support that plan. We would love 
to increase diversity in our workplace, as well as on the 
construction side.
    Mr. Cramer. With that, my last 10 seconds, Mr. Chairman. 
Thank you. Again, thanks to all of you. A special thanks and 
welcome to Mr. Harrison and Mr. O'Sullivan.
    Mr. O'Sullivan. Congressman, I could say that along with 
faith-based groups and the other groups, we have worked with 
Native American Tribes, not only in the U.S., but in Canada, as 
well.
    Mr. Cramer. All right, I appreciate it. Thank you.
    Mr. Olson. The gentleman's time has expired. Seeing there 
are no further Members who wish to ask questions of the second 
panel, I would like to thank all of the witnesses today for 
being here.
    And pursuant to committee rules, I remind Members that they 
have 10 business days to submit additional questions for the 
record. I would ask that the witnesses submit their response 
within 10 business days upon receipt of those questions.
    I also ask unanimous consent to enter these five lists of 
documents for the record: The Clean Line Energy Partners 
letter, the Industrial Energy Consumers of America letter; the 
National Rural Electrical Cooperative Association letter; the 
Association of Oil Pipe Lines letter; and a letter from the 
National Urban League, without objection. So ordered, without 
objection.
    [The information appears at the conclusion of the hearing.]
    Mr. Olson. This subcommittee is adjourned.
    [Whereupon, at 3:58 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   

                                 [all]
</pre></body></html>
